<html>
<title> - MISCELLANEOUS NATIONAL PARKS LEGISLATION</title>
<body><pre>[Senate Hearing 110-266]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-266
 
                MISCELLANEOUS NATIONAL PARKS LEGISLATION 

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                  S. 128                        S. 1476       
                  S. 148                        S. 1709       
                  S. 189                        S. 1808       
                  S. 697                        S. 1969       
                  S. 867                        H.R. 299      
                  S. 1039                       H.R. 1239     
                  S. 1341 

                                     

                               __________

                           SEPTEMBER 27, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources

                     U.S. GOVERNMENT PRINTING OFFICE

40-443 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



































               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHN BARRASSO, Wyoming
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             GORDON H. SMITH, Oregon
JON TESTER, Montana                  MEL MARTINEZ, Florida

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee










































                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator From Hawaii..................     1
Allard, Hon. Wayne, U.S. Senator From Colorado...................     9
Biden, Hon. Joseph R., Jr., U.S. Senator From Delaware...........     4
Brooks, Tom, Assistant Vice President and Chief Engineer, Alaska 
  Railroad, Anchorage, AK........................................    41
Burr, Hon. Richard, U.S. Senator From North Carolina.............     9
Carlino, August R., CEO and President, Steel Industry Heritage 
  Corporation, Homestead, PA.....................................    42
Casey, Hon. Robert P., Jr., U.S. Senator From Pennsylvania.......     3
Kennedy, Hon. Edward M., U.S. Senator From Massachusetts.........     3
Kyl, Hon. Jon, U.S. Senator From Arizona.........................     4
Lautenberg, Hon. Frank R., U.S. Senator From New Jersey..........     5
Levin, Hon. Carl, U.S. Senator From Michigan.....................    11
Menendez, Hon. Robert, U.S. Senator From New Jersey..............     7
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     6
Pascrell, Hon. Bill, Jr., U.S. Representive From New Jersey......    16
Salazar, Hon. Ken, U.S. Senator From Colorado....................    14
Specter, Hon. Arlen, U.S. Senator From Pennsylvania..............     2
Wenk, Daniel N., Deputy Director, National Park Service, 
  Department of the Interior.....................................    19
Zax, Leonard A., Partner, Latham & Watkins, LLP, on Behalf of the 
  New Jersey Community Development Corporation...................    46


























                               APPENDIXES
                               Appendix I

Responses to additional questions................................    61

                              Appendix II

Additional material submitted for the record.....................    73


                MISCELLANEOUS NATIONAL PARKS LEGISLATION

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2007

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:28 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.

 OPENING STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM 
                             HAWAII

    Senator Akaka. Good morning, everyone. The Subcommittee on 
National Parks will come to order.
    In an effort to address the many requests we have received 
for hearings on Park-related bills in as timely a manner as 
possible, we're going to continue our recent practice of 
considering as many bills as possible at each hearing.
    This afternoon we will receive testimony on 11 different 
bills, including S. 128, to amend the Cache La Poudre River 
Corridor Act to designate a new management entity and make 
other amendments; S. 148, to establish the Paterson Great Falls 
National Park in the State of New Jersey; S. 189, to decrease 
the matching funds requirement and authorize additional 
appropriations for Keweenaw National Historical Park in the 
State of Michigan; S. 697, to establish the Steel Industry 
National Historic Site in the State of Pennsylvania; S. 867 and 
H.R. 299, to adjust the boundary of Lowell National Historical 
Park in the State of Massachusetts; S. 1039 to extend the 
authorization for the Coastal Heritage Trail in the State of 
New Jersey; S. 1341, to provide for the exchange of certain 
Bureau of Land Management in Pima County, Arizona; S. 1476, to 
authorize the Secretary of the Interior to conduct a special 
resources study of the Tule Lake Segregation Center in 
California, to determine the suitability and feasibility of 
including the site in the National Park System; S. 1709 and 
H.R. 1239, to amend the National Underground Railroad Network 
to Freedom Act of 1998 to provide additional staff and funding 
to carry out the Act; S. 1808, to authorize the exchange of 
land between the National Park Service and the Alaska Railroad 
in Denali National Park in the State of Alaska; and S. 1969, to 
authorize the Secretary of the Interior to conduct a special 
resource study to determine the suitability and feasibility of 
designating Estate Grange and other sites related to Alexander 
Hamilton's life on the island of St. Croix in the U.S. Virgin 
Islands as a unit of the National Park System.
    After reviewing the Administration's testimony, I believe 
most of these bills will be non-controversial. However, there 
are two bills that propose new National Park areas despite a 
contrary recommendation from the Park Service Study. I'm 
concerned with any proposal that ignores the requirements and 
criteria for new park areas, that this committee helped put 
into place. I wanted to give the proponents of those areas a 
chance to present their views. So, we have included both bills 
on this agenda and we can review these in greater detail later 
in the hearing.
    [The prepared statements of Senators Specter, Casey, 
Kennedy, Kyl, Biden, and Lautenberg follow:]
      Prepared Statement of Hon. Arlen Specter, U.S. Senator From 
                        Pennsylvania, on S. 697
    Mr Chairman, thank you for including this legislation in your 
hearing today that will honor the importance of the steel industry in 
the Commonwealth of Pennsylvania and the nation by creating the ``Steel 
Industry National Historic Site'' to be operated by the National Park 
Service. I have introduced this bill dating back to the 107th Congress 
and it is my hope it will at last become law. We came very close to 
passing this bill in the 108th Congress with its passage in various 
forms in the House and the Senate. However, Congress adjourned prior to 
final passage of the same bill in both chambers during the 108th and 
109th Congresses.
    The importance of the steel industry to the development of the 
United States cannot be overstated. A national historic site devoted to 
the history of the steel industry will afford all Americans the 
opportunity to celebrate this rich heritage, which is symbolic of the 
work ethic endemic to this great nation. There is no better place for 
such a site than in southwestern Pennsylvania, which played a 
significant role in early industrial America and continues today.
    It is important to note why Pennsylvania should be the home of the 
national site my legislation authorizes. The combination of a strong 
workforce, valuable natural resources, and Pennsylvania's strategic 
location in the heavily populated northeastern United States allowed 
the steel industry to thrive. Today, the remaining buildings and sites 
devoted to steel production are threatened with further deterioration. 
Many of these sites are nationally significant and perfectly suited for 
the study and interpretation of this crucial period in our nation's 
development. The historic site would include three properties: the 
Carrie Furnace Complex, the Hot Metal Bridge, and the United States 
Steel Homestead Works. As testimony of the area's historic 
significance, on September 20, 2006, the Carrie Furnaces were 
designated as a National Historic Landmark by the Secretary of the 
Interior.
    Highlights of such a national historic site would commemorate a 
wide range of accomplishments and topics for historical preservation 
and interpretation from industrial process advancements to labor-
management relations. It is important to note that the site I seek to 
become a national site under this bill includes the location of the 
Battle of Homestead, waged in 1892 between steelworkers and Pinkerton 
guards. The Battle of Homestead marked a crucial period in our nation's 
workers' rights movement. The Commonwealth of Pennsylvania, 
individuals, and public and private entities have attempted to protect 
and preserve resources such as the Homestead battleground and the Hot 
Metal Bridge. For the benefit and inspiration of present and future 
generations, it is time for the federal government to join this effort 
to recognize their importance with the additional protection I provide 
in this bill.
    I would like to commend my colleagues who have joined me in 
supporting the Steel Industry National Historic Site. Senator Casey 
joined as a cosponsor this Congress and Representative Doyle has been a 
longstanding leader in this preservation effort and has consistently 
sponsored identical legislation in the U.S. House of Representatives. I 
commend the southwestern Pennsylvania officials and Mr. August Carlino, 
President and Chief Executive Officer of the Steel Industry Heritage 
Corporation, who have worked tirelessly to bring this national historic 
site to fruition.
                                 ______
                                 
  Prepared Statement of Hon. Robert P. Casey, Jr., U.S. Senator From 
                        Pennsylvania, on S. 697
    Mr. Chairman, thank you for holding today's hearing and for giving 
me the opportunity to testify on S. 697, the Steel Industry National 
Historic Site Act. I am proud to join my colleagues from Pennsylvania, 
Senator Specter and Congressman Doyle, in sponsoring this legislation. 
The introduction of S. 697 and the House companion bill H.R. 285 is the 
culmination of our effort to establish a unit of the National Parks 
System that honors the contributions of Southwestern Pennsylvania to 
our nation's steel industry. The story of the steel industry is linked 
to the history and the identity of Pennsylvania, and we are very proud 
of this heritage.
    With only 391 National Park sites across the country, additions to 
the National Park System must be reserved for locations with special 
historical or environmental significance. In my view, the assets of 
this particular site, including the Carrie Furnace Complex, the United 
States Steel Homestead Works, and the Hot Metal Bridge meet this high 
standard because of their central importance in the history of the 
steel industry to the development of both our country's unsurpassed 
economic vitality as well as the vigorous workforce that fueled such 
achievements.
    The wide availability of domestically-produced steel has 
represented the backbone of the United States economy since the mid-
19th century. It was at sites like the Carrie Furnace, which first 
opened in 1907, that fuel and ore would combine to produce pig iron, 
the main ingredient of steel. At its peak, Carrie produced 900 to 1000 
tons of this every day, which, when combined with the massive steel 
production capabilities across the river at the Homestead Works, helped 
to establish the Pittsburgh region as the world's leading producer of 
iron and steel during the late 19th and 20th centuries. As a nation 
that relied upon these structures to produce the materials to build our 
national highways and railroads, fight two world wars, and erect the 
skylines of our most vibrant cities, we cannot afford to let them fall 
victim to the strains of age or the perils of redevelopment.
    But the lessons that these sites have to impart to this and future 
generations extend far beyond the mechanics of pre-World War II iron 
and steel making technology. The rise of Pittsburgh's steel industry 
was naturally accompanied by the development of a large and organized 
workforce. Specifically, the experiences of the Amalgamated Association 
of Iron and Steelworkers at the end of the 19th century at Homestead 
provide a troubling yet critical reminder of the sacrifices that 
organized labor has made in the pursuit of fair and equitable working 
standards for the millions who have and continue to toil in this 
industry every day. We owe these brave men and women a proper stage to 
tell their story, and this Congress has the opportunity to make this 
possible through the powerful and prominent dais afforded by a National 
Historic Site.
    Thank you once again, Mr. Chairman, for including S. 697 in today's 
hearing. I would also like to extend my gratitude to Mr. August Carlino 
for offering his expert testimony and for responding to any concerns 
the committee may have. His tireless efforts over the last seventeen 
years are the primary reason that this effort has gained such 
widespread appeal.
    I hope that the Subcommittee and the full Committee will act 
swiftly to report this measure to the full Senate so that we might move 
one step further towards its final passage in the 110th Congress.
    Thank you.
                                 ______
                                 
    Prepared Statement of Hon. Edward M. Kennedy, U.S. Senator From 
                 Massachusetts, on S. 867 and H.R. 299
    I commend Chairman Akaka and Senator Burr for holding this hearing. 
Senator Kerry and I introduced the Lowell Park Boundary Adjustment Bill 
last March, shortly after the House passed Congressman Meehan's 
identical legislation, and I appreciate this opportunity to emphasize 
my strong support for it, which will add an historically important 
recreational resource in Massachusetts.
    The bill would authorize the National Park Service to acquire five 
tracts of land expanding the current boundary of the Park. The land 
totals less than one acre, but its inclusion in the Park will complete 
a 5 mile scenic walkway along Lowell's historic canal system. The 
finished walkway will improve public access to the Park and its vast 
collection of cultural relics and information about its famous canal-
powered factories during the Industrial Revolution.
    I had the privilege nearly thirty years ago, with Congressman Paul 
Tsongas and Senator Ed Brooke, to sponsor the original legislation 
creating the National Historical Park. Each year, it holds festivals, 
art exhibitions, community service events and concerts for three-
quarters of a million visitors. In recent years, the National Park 
Service has continued to work with the City of Lowell to maintain and 
develop the city's famous canal walkways and river-walk.
    Passage of this legislation will enable the historic canal walkway 
project to be completed, so that visitors will have a fuller experience 
of the nation's industrial heritage.
    I look forward to the enactment of this legislation and I commend 
the Subcommittee for holding this hearing.
                                 ______
                                 
 Prepared Statement of Hon. Jon Kyl, U.S. Senator From Arizona, on S. 
                                  1341
    Mr. Chairman, Members of the Subcommittee, thank you for holding 
this hearing on S. 1341, the Las Cienegas Enhancement and Saguaro 
National Park Boundary Adjustment Act of 2007. I introduced this bill 
on behalf of myself and Senator McCain on May 9, 2007. An identical 
companion bill, H.R. 3617, was introduced in the House of 
Representatives by Congresswoman Giffords.
    This legislation directs the exchange of land in southeastern 
Arizona between the Secretary of the Interior and Las Cienegas 
Conservation, LLC. Through the exchange, the Secretary of the Interior 
would acquire two highly sought after private parcels of land. First, 
the Secretary would acquire the ``Empirita-Simonson Property,'' 
approximately 2,392 acres of land adjacent to the Las Cienegas National 
Conservation Area (NCA). The Empirita-Simonson property lies within the 
``Sonoita Valley Acquisition Planning District'' established by Public 
Law 106-538, which designated the Las Cienegas National Conservation 
Area. The Act directed the Department of the Interior to acquire lands 
from willing sellers within the planning district for inclusion within 
the conservation area. Acquisition of the Empirita-Simonson property 
for inclusion in the NCA will conserve and protect important wildlife 
corridors between the Sky Island mountains surrounding and adjacent to 
the Cienega Basin.
    The Secretary would also acquire the Bloom Property, approximately 
160 acres of land that was identified for inclusion in the Saguaro 
National Park during a boundary study conducted by the National Park 
Service in 1993. In 1994, using the data from the study, Congress 
enacted legislation expanding the park and changed Saguaro's 
designation from monument to park. At that time, the Bloom Property did 
not have a willing seller and, therefore, was not added to the Park. I 
am pleased to say circumstances have changed, and we are able to 
include it in this exchange. The Bloom Property lies just south of the 
Sweetwater Trail in Saguaro Park West. Acquisition of the Bloom 
Property will connect Saguaro National Park with the Sweetwater 
Preserve, an important wildlife corridor that offers hiking and 
wildlife viewing for nearby residents and visitors.
    In exchange for these two properties, the Secretary of the Interior 
would transfer out of federal ownership the ``Sahuarita property,'' 
approximately 1,280 acres of land south of Tucson near Corona de 
Tucson. The Sahuarita property is low-lying Sonoran desert and has been 
identified for disposal by the Bureau of Land Management through its 
land use planning process.
    In addition to these important land acquisitions, the legislation 
also accomplishes two other important objectives. First, the bill 
limits water withdrawals at Cienega Creek. The land exchange is 
conditioned on Las Cienegas Conservation, LLC conveying a 98-acre well 
site to Pima County and relinquishing the water rights it controls. The 
net result is a water savings of 1,050 acre-feet per year. This will 
help preserve the Cienega Creek riparian area that provides habitat for 
many bird species including, the endangered Southwestern Willow 
Flycatcher, and important lowland populations of amphibians and 
reptiles. Second, the bill provides the Forest Service with badly-
needed road access through the Empirita-Simonson property to the 
Whetstone Mountains, a popular recreation and hunting destination.
    This legislation is the product of consensus-building between the 
Bureau of Land Management, the National Park Service, local officials, 
and community groups. It is a balanced exchange that is fair and in the 
public interest. I urge my colleagues to work with me to approve this 
legislation at the earliest possible date.
                                 ______
                                 
  Prepared Statement of Hon. Joseph R. Biden, Jr., U.S. Senator From 
                          Delaware, on S. 1709
    Mr. Chairman, distinguished Members of the Subcommittee, I thank 
you for giving me the opportunity to speak in support of S. 1709, the 
National Underground Railroad Network to Freedom Reauthorization Act of 
2007. I have introduced this legislation with my good friend and 
colleague from Pennsylvania, Senator Specter, and I am pleased that we 
are joined in this effort by Senators Alexander, Bayh, Cardin, Carper, 
Clinton, Cochran, Kennedy, Kerry, Levin, Nelson and Obama.
    The original Act, signed into law in 1998, has increased public 
awareness of the Underground Railroad--a cornerstone in African 
American heritage and history--with sites and programs in 29 states and 
the District of Columbia. This is the only national program dedicated 
to the preservation, interpretation and dissemination of Underground 
Railroad history. Reauthorization of this bill will allow this 
important work to continue.
    Throughout this nation there are sites in the Underground Railroad 
Network that, while still standing, have suffered structural damage. 
There are also many sites that no longer house a physical structure, 
but still are important to recognize. A good example is the Thomas 
Garrett House, located in Wilmington in my home state of Delaware. The 
Garrett House was the last station on the Underground Railroad before 
the slaves reached freedom in Pennsylvania. It has been estimated that 
Garrett, a well known Quaker, helped more than 2,000 runaway slaves 
escape from the Southern states. The legislation being introduced today 
will not only help pay to repair damaged structures, but also to 
educate the general public about those sites that are no longer in 
existence, like the Thomas Garrett House.
    The Underground Railroad Network is a special part of American 
history that we cannot afford to let slip away. Our legislation will 
preserve these invaluable memorials and educational resources by 
raising the authorization level from $500,000 to $2.5 million. We must 
move now to ensure that the brave acts of these individuals, and the 
struggles of those who sought freedom, are preserved for future 
generations to observe and honor.
    A companion bill was introduced in the House of Representatives, 
H.R. 1239, by Representative Alcee L. Hastings and my friend and 
colleague from Delaware, Representative Mike Castle. The House has 
passed the measure and I hope that my colleagues in the Senate will 
move quickly and act on this bill.
    It is my honor, Mr. Chairman, to be here today, supporting this 
bill so that this part of our nation's past will not be forgotten.
                                 ______
                                 
   Prepared Statement of Hon. Frank R. Lautenberg, U.S. Senator From 
                         New Jersey, on S. 148
    The Great Falls in Paterson is the place that Alexander Hamilton 
selected to launch what we have come to call the American Dream. In the 
1790s, Hamilton announced to the world that Paterson would welcome 
workers and entrepreneurs and expand opportunities for people of all 
backgrounds, races, religions, and nationalities.
    Unlike so many of Hamilton's contemporaries who called for a rural 
agrarian society based on slave labor, Hamilton's economy would be 
built through the work of free men and women. Hamilton's fight for 
immigrants, and his battle against slavery, was part of an inclusive 
view of how all Americans would benefit from a growing modern economy 
based on freedom. Much of this was rooted in the fact that Alexander 
Hamilton was himself a poor immigrant to America who believed that our 
nation's future was dependent on others who would work hard to take 
advantage of the boundless opportunities that America offered.
    Hamilton sought to create an economic model in Paterson not 
dependent primarily on one industry, but rather focused on diverse 
manufacturers. In particular, his 1791 Report to the Congress called 
for a wide variety of industries in America--including cotton, 
sailcloth, flax, paper, nails, steel and ironwork for carriages, and 
silk. As a result, Paterson became a leading manufacturer in every one 
of these industries.
    Paterson's water-powered mills were manufacturing cotton in the 
1790s. These mills produced all of the sailcloth for every ship in the 
American Navy at one point in the first half of the nineteenth century. 
Paterson industrialists began silk production in 1827 and beginning in 
the late 1800's, Paterson became the largest silk manufacturing and 
dyeing center in the world.
    One of America's leading economic historians, Professor Richard 
Sylla of the NYU Stern School of Business, said in his Senate testimony 
that Hamilton sought to make Paterson an ``incubator'' of 
entrepreneurial startup businesses. Paterson entrepreneurs succeeded in 
realizing Hamilton's vision.
    I particularly appreciate Hamilton's efforts in Paterson because I 
was raised in Paterson as the son of poor, hard-working immigrant 
parents. My father worked in the silk mills of Paterson when Paterson 
was known as the Silk City. After serving in the Army during World War 
II, I joined with two friends who were brothers and whose parents also 
were immigrants to Paterson and together, we created in Paterson 
America's first major payroll services company. We worked very hard to 
build this small entrepreneurial startup company into one of the 
largest computing services companies in the world.
    Notwithstanding the objections of the National Park Service, 
Congress in 2001 directed the Secretary of the Interior to study making 
the Paterson Great Falls National Historic District a part of the 
National Park System. Now, six years later and after spending over 
$250,000 on the study, the National Park Service claims Hamilton's 
efforts and vision do not merit the designation of a national park.
    More than 25 of the leading historians and other experts in America 
have documented why the draft National Park Service Study is wrong. It 
is shocking to read the way these distinguished scholars characterize 
the key Park Service findings: ``a serious misreading of the historical 
record'' . . . ``seriously deficient'' . . . ``demonstrably wrong'' . . 
. ``analytically flawed and violates fundamental principals the 
professionals use in studying historic resources.''
    The fact is the Great Falls represent not only natural beauty, but 
also the beginnings of American industry. Alexander Hamilton saw the 
possibilities in 1778. He established the Society for Useful 
Manufacturers in 1791 and the Industrial Revolution was launched. Great 
Falls National Historic District still stands as a testament to the 
American Dream of economic independence and should become America's 
next national historical park.

    At this time, I'd like to recognize a member, Senator 
Murkowski for any statement she may have to make.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
the opportunity to very briefly present my statement on S. 
1808. I will not be able to stay with the subcommittee this 
afternoon, as I have a scheduling conflict with a hearing in 
Foreign Relations, as we speak.
    S. 1808, the Denali National Park in Alaska Railroad Land 
Exchange Act of 2007 reflects a joint effort by the National 
Park Service and the Alaska Railroad. Mr. Wenk of the National 
Park Service and Mr. Brooks of the Alaska Railroad will, you'll 
hear from them. I want to welcome Mr. Brooks to the committee. 
He's come a long way to be with us and greatly appreciate the 
work that he does for the Alaska Railroad.
    They will both explain S. 1808, which would allow both 
entities, both the Park Service and the Alaska Railroad, to 
exchange lands, so that the Alaska Railroad can build a much-
needed train turnaround track in Denali National Park. This 
wide track would allow more frequent trains and more flexible 
rail schedules, thus accommodating the ever increasing number 
of rail passengers that visit our park.
    In the words of Mr. Brooks, ``This is a win-win for the 
Alaska Railroad, for the National Park Service, and the 
hundreds of thousands of visitors that would benefit from 
access to our Nation's treasured Denali National Park.'' I am 
also pleased to report that only did the National Park Service 
and the Alaska Railroad support the legislation, but the 
National Park Conservation Association also has submitted a 
statement in support of S. 1808.
    Mr. Chairman, I would ask that this statement be included 
as part of the hearing record.
    I do appreciate, again, the opportunity to kind of go out 
of turn and appreciate the consideration of the Chairman and 
this consideration of this important legislation.
    Senator Akaka. Your statement will be included in the 
record.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much.
    Senator Menendez.

STATEMENT OF HON. ROBERT MENENDEZ, U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. Let me start 
off, Mr. Chairman, by thanking you and the Ranking Member for 
holding this hearing on various of these parks applications, 
but particularly on the Paterson Great Falls National Park Act 
of 2007. I look forward to working with both of you to try to 
enact this important legislation.
    I know that we will be having witnesses today. I believe 
Congressman Pascrell is going to, hopefully, appear before the 
committee, Mr. Leonard Zax, who have been tireless advocates on 
behalf of the Park. My senior Senator, Senator Lautenberg has 
asked me to express his regrets for not being able to attend 
today's hearing, but he remains deeply and personally committed 
to seeing this legislation pass.
    To understand Paterson and the Great Falls Park, one has to 
understand the man most responsible for the city's founding, 
Alexander Hamilton. He lived the American dream. When he came 
to this country as a teenager, he did not have wealth, he did 
not have land, and he did not have a respected family name. 
Hamilton came here with nothing other than his talent, his 
intellect, and his willingness to work hard to better himself. 
From these meager beginnings, Hamilton became a Revolutionary 
War Army officer, a lawyer, a founder of our Nation, a 
politician, a leading statesman, a financier, and perhaps 
America's most important political theorist.
    Today, the concept of the American dream is so widely 
accepted, it is almost a cliche, but what people forget, is 
that at the time of our Nation's birth, there was no agreement 
on what achieving the American dream truly was. Some thought 
our future was largely an agrarian one, based on land ownership 
handed down from generation to generation. Others thought our 
society would be based on exploiting slave labor. Still others 
believed we needed to copy the model for success Europe by 
installing a class of elites to lead the country.
    Alexander Hamilton's vision of the American dream was 
different. He, more clearly than any other American at the time 
of the founding, understood our future would be based on giving 
immigrants the opportunity to come to this country in freedom, 
use their natural talents to make a life for themselves and 
their families. In return for this opportunity, immigrants 
would help transform this country into the world's leading 
industrial power.
    In order to make this idea a reality, Hamilton formed the 
Society for Establishing Useful Manufacturers. This company 
helped make Hamilton's vision a reality by making Paterson, New 
Jersey into an industrial giant. By 1816, Paterson became a 
national leader in textiles, paper, steel, and iron work. In 
the 1850s, Paterson was the Nation's leader in locomotive 
manufacturing, and later in the century, Paterson became the 
world's leader in the production of silk.
    Over the years, these industries created jobs and 
opportunities for waves of immigrants, including the Irish, 
English, German, Polish, Jewish, Syrian, and Italian 
communities. Here they worked hard, raised families, and 
achieved the same American dream that Hamilton himself enjoyed, 
and the same American dream he envisioned for the Nation.
    Today, the American dream is alive and well in Paterson, as 
growing communities of Latino and Middle Eastern families make 
their homes here. This unique national historical treasure 
deserves to be a National Historical Park, but the National 
Park Service apparently disagrees.
    The Park Service, when looking to see if a site can be 
added to the National Park system, evaluates the site on four 
criteria. The site must be nationally significant, the site 
must be a suitable addition to the National Parks system, must 
be a feasible addition to the system, and must be in need of 
direct National Park Service funding and management.
    Any objective evaluation of the Great Falls, would find 
that the Park easily meets these criteria. Even the Park 
Service admits that the Great Falls is a nationally significant 
cultural resource. But the Park Service draft study of the park 
somehow finds that the Great Falls does not meet the other 
three criteria.
    The Park Service seems to think that the Paterson Great 
Falls are not a suitable addition to the Park Service, because 
its characteristics are found elsewhere in the National Park 
system. I could not disagree more strongly.
    As I described earlier, the Great Falls Park represents 
Alexander Hamilton's unique vision of America come true. No 
other site in the Nation more richly represents the remarkable 
transformation of a rural agrarian society based in slavery 
into a modern global economy based in freedom. I'm sure Mr. 
Zax, a witness here today, will go into much greater detail on 
this point.
    Finally, in arguing that the Park does not meet the 
remaining two criteria, the Park Service seems to make two 
seemingly contradictory arguments. On the one hand, the Park 
Service argues that they can not afford the added expense 
beyond the committed State funds. But on the other hand, it 
says that the State will fully protect this site of national 
importance and properly present it to the public.
    The truth is, is that the State has pledged to fund roughly 
half of the resources needed to make this site into a wonderful 
National Park. This makes the Park both affordable and 
feasible, but it also points out that without designating the 
Park a unit of the National Park Service, the Great Falls will 
not be presented or protected in the manner it deserves.
    I therefore urge the committee to join me in supporting 
passage of the Great Falls National Park Act of 2007. This 
truly unique Park deserves Federal recognition and protection.
    Last, Mr. Chairman, I want to briefly say that I support S. 
1039 to extend authorization of the New Jersey Coastal Heritage 
Route by 4 years, from 2007 to 2011. In 1988, Congress 
authorized the Secretary of the Interior to designate this 
route along coastal New Jersey to provide for public 
appreciation and enjoyment of important fish and wildlife 
habitats, geologic and geographical land forms, cultural 
resources, and migration routes in coastal New Jersey.
    I ask my colleagues to support this bill, to extend funding 
for the important trail through September 30, 2011.
    Once again, Mr. Chairman, thank you for putting this on, 
and the Ranking Member on your hearing list. I see my colleague 
from New Jersey, from the House of Representatives, who I have 
the privilege of serving with. I know the appropriate time, 
after Senator Levin and Senator Allard, you'll have the 
opportunity to recognize him.
    Thank you.
    Senator Akaka. Thank you very much, Senator Menendez.
    Let me call on our Ranking Member, Senator Burr, for your 
statement.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Thank you, Mr. Chairman. I will be extremely 
brief. My apologies for my tardiness, because we do have a full 
agenda today, covering a wide range of topics, each important 
in its own way and we'll thoroughly cover those.
    I wanted to take the opportunity to assure my colleagues 
that are here, that just because of the Burr historical 
relationship to Alexander Hamilton, I'm not going to recuse 
myself, but I will try not to let that influence how I judge 
this legislation.
    Mr. Chairman, thank you for putting this panel together. I 
look forward to the testimonies.
    Senator Menendez. Mr. Chairman, very briefly, we can, I can 
tell the Ranking Member, we're happy to weave that history into 
the process.
    Senator Akaka. Thank you very much, Senator Burr.
    Now I would like to call on Senator Allard for your 
testimony. Thank you so much for being here.

         STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR 
                         FROM COLORADO

    Senator Allard. Thank you, Mr. Chairman. I want to thank 
you, Chairman Akaka, as well as our ranking member Burr for the 
committee's consideration of Senate Bill 128. Its title is, the 
Cache La Poudre River and National Heritage Area Technical 
Amendments Act. That's what it is, it is a, basically its 
primary is that it is a technical amendment to the Cache La 
Poudre River National Heritage Area. I'd like to thank you for 
allowing me the opportunity to comment on this legislation and 
for your leadership on issues affecting our Nation's parks.
    The area around the Cache La Poudre has a unique and rich 
history that, like much of the West, is tied to water. The 
Cache La Poudre River played an important role in the 
development of Water Law in the West, including the idea of 
prior appropriation of water. The Prior Appropriation of Water 
Law is unique, is universal throughout the Western part of the 
United States. Those of you who come from States where they 
have plenty of water use a different system of water tied to 
riparian rights.
    Understanding the significance and history of prior 
appropriations is vital, as much of the Water Law in the 
Western United States is based on it. The objective of the 
Cache La Poudre Heritage Area is to interpret the area's 
cultural, historic, and natural resources within the theme of 
Western water development.
    Under the original legislation established in the Heritage 
Area, the Secretary of Interior was to appoint a Commission to 
work with the National Park Service and manage the area. But 
because of a technicality, the Secretary was unable to appoint 
the Commission. In response, local citizens stepped forward and 
formed the Poudre Heritage Alliance. It's a volunteer 
organization that helps support the Heritage Area until an 
official Commission can be named and it can't be named until 
after we take care of those technical things that are in this 
bill.
    The legislation being reviewed today would rectify this 
technical problem, would provide for the establishment of an 
official Commission to help manage the area. This bipartisan 
bill enjoys the support of numerous local citizens, elected 
officials, as evidenced by the letters of support that I will 
submit to the committee.
    Senator Allard. I'm hopeful the committee will agree with 
these individuals and view this legislation favorably.
    Chairman Akaka and Ranking Member Burr, thank you and the 
committee for your time and consideration.
    [The prepared statement of Senator Allard follows:]
 Prepared Statement of Hon. Wayne Allard, U.S. Senator From Colorado, 
                               on S. 128
    Thank you, Chairman Akaka and Ranking Member Burr, for the 
committee's consideration of S.128, the Cache la Poudre River National 
Heritage Area Technical Amendments Act.
    I would also like to thank you for allowing me the opportunity to 
comment on this legislation and for your leadership on issues affecting 
our nation's parks.
    The area around the Cache La Poudre River has a unique and rich 
history that, like much in the West, is tied to water.
    The Cache la Poudre River played an important role in the 
development of water law in the west, including the idea of prior 
appropriation of water.
    Understanding the significance and history of prior appropriation 
is vital, as much of the water law in the Western United States is 
based on it.
    The objective of the Cache la Poudre Heritage Area is to interpret 
the area's cultural, historic and natural resources within the theme of 
western water development.
    Under the original legislation establishing the Heritage Area, the 
Secretary of Interior was to appoint a commission to work with the 
National Parks Service and manage the Area, but because of a 
technicality the Secretary was unable to appoint the commission.
    In response local citizens stepped up and formed the Poudre 
Heritage Alliance, a voluntary organization to help support the 
Heritage Area until an official commission could be named.
    The legislation being reviewed today would rectify this technical 
problem and would provide for the establishment of an official 
commission to help manage the area.
    This bipartisan bill enjoys the support of numerous local citizens 
and elected officials, as evidenced by the letters of support that I 
will submit to the Committee.
    I am hopeful the committee will agree with these individuals and 
view this legislation favorably.
    Chairman Akaka, Ranking member Burr, thank you and the Committee 
for your time and consideration.

    Senator Akaka. Thank you very much, Senator Allard.
    Now we would like to hear from Senator Levin.

          STATEMENT OF HON. CARL LEVIN, U.S. SENATOR 
                         FROM MICHIGAN

    Senator Levin. Mr. Chairman, Ranking Member Burr, and 
Senator Menendez, thank you for holding this hearing.
    One of the items on your agenda today is a very important 
bill, not just to the State of Michigan, but to the Nation, 
because it regards an existing National Historical Park called 
the Keweenaw National Historical Park.
    It's in that part of Michigan, which some of you are 
familiar with, which kind of looks like a little bit like a 
shark's fin, at the top of the upper peninsula. It's an 
extraordinary site. It's the site of the world's purest copper. 
It's the only place in the world where large scale economically 
recoverable, 97 percent pure native copper is found.
    It was the site where, when Horace Greeley told young men 
in those days, to go west. ``Go west, go west young man.'' That 
was the west he was referring to. It was the Keweenaw Peninsula 
up in Michigan. It had a major role in copper production and 
all the technologies which go into copper production. It 
produced, I think, about half of the world's copper during the 
1880s, and had a major role in the Civil War. It has a major 
role in our social and labor history and in the history of 
mining, and a park was created there 15 years ago called the 
Keweenaw National Historical Park.
    There has been some great progress made in that park. It's 
in a part of Michigan which doesn't have a lot of people, and 
has a lot of unemployment. But now, more and more visitors are 
coming to the area. It's a very strong visitors attraction 
because of the way the National Park Service has really done a 
wonderful job with local people, of growing a National 
Historical Park.
    There are three parts to this amendment--or to this bill, 
excuse me--which are important to us. One has to do with the 
fact that one part of the area--and this is an Historical Park 
which covers a large area and has a lot of private in-holdings 
in it--one part of this is a former smelter, which is on a site 
that is polluted and will need to be cleaned up. The question 
is, should the Park Service be able to use their regular 
criteria on that, as to that site? As to whether to acquire it, 
and if so, under what conditions should they acquire it? They 
have criteria to protect the Treasury and the taxpayers from 
acquiring a site which should not be acquired until it's 
properly cleaned-up.
    But we put something in the law 15 years ago which 
prohibits it. This criteria is unique, I believe, to this Park, 
and needs to be removed from the law so the National Park 
Service can apply the regular criteria, whatever they are. 
We're not trying to change the National Park Service criteria, 
in terms of acquisition of a contaminated site. We want them to 
have the discretion to apply their normal criteria to the 
acquisition of a contaminated site. So we want to remove a 
legal impediment to their normal criteria being applied.
    In addition, this bill would also apply the usual match to 
this Park, in terms of public and nonpublic funding. Right now 
it's, I think, probably unique in the country, that the match 
requirement is four to one, $4 local for each Federal dollar. 
Most other national parks do not have this kind of a 
requirement. We're asking that a one to one match be applied. 
Some parks have no local match at all. Others have a one to one 
or a two to one. This Park requires a four to one match.
    The park is located in an area that can not possibly afford 
that kind of a local match and it should not be singled out, in 
effect, for that kind of a local match, when other units in the 
Park Service do not generally have that kind of a requirement.
    Finally, there would be an increase in the authorization of 
appropriations. It's different amounts in different areas, so I 
won't go into the details of that, but there is an increase in 
authorization, which is requested in this bill. We would very 
much hope that the committee could be supportive of this 
legislation. Senator Stabenow, of course, is a co-sponsor of 
it.
    One final thing. I just want to thank the Park Service for 
two things. No. 1, the way in which they have really taken to 
this park. They are an incredibly talented agency. They are a 
beloved agency of the people of the United States. I don't know 
what the public opinion polls would show in terms of the 
favorable, unfavorable position of the National Park Service, 
but I'm not sure there's any agency of the Government, perhaps, 
that's higher than them. They are truly respected.
    We are grateful to them for all of the inputs and the 
efforts that they have made, and for all the restoration of 
buildings that has gone on already, making this into a true 
attraction. I believe that they support the bill. They'll be 
speaking for themselves later, but I think that they do support 
this legislation. I'll let, again, them speak for themselves.
    But in any event, I thank them for that. I thank them for 
all they've done for all the parks in this country, including 
the ones in my home State of Michigan.
    Thank you for holding this hearing, Mr. Chairman and 
Ranking Member Burr. Senator Salazar, nice to see you here.
    [The prepared statement of Senator Levin follows:]
  Prepared Statement of Hon. Carl Levin, U.S. Senator From Michigan, 
                               on S. 189
    I want to thank Chairman Akaka and Ranking Member Burr for holding 
this hearing on important legislation relating to the Keweenaw National 
Historical Park.
    This legislation would improve the park's ability to carry out its 
statutory mission to preserve the nationally significant historical and 
cultural sites, structures, and districts in Michigan's Keweenaw 
Peninsula for the education, benefit, and inspiration of present and 
future generations. The Keweenaw National Historical Park is home to an 
incredible treasure of historic resources. This area is the only site 
in the country where prehistoric, aboriginal mining of copper occurred. 
In the 1800s, reports of the vast copper resources prompted a mining 
rush, attracting entrepreneurs and tens of thousands of immigrants to 
the region. By 1849, the Keweenaw Peninsula provided 85 percent of the 
nation's copper production, powering America's industrial revolution.
    The legislation that your subcommittee is considering today would 
do three things. The bill would: (1) change the matching requirement 
for federal funds from a 4:1 ratio to a 1:1 ratio; (2) increase the 
authorized level of funds to be appropriated for the park; and (3) 
eliminate the prohibition on the Department of the Interior from 
acquiring any lands that have become contaminated with hazardous 
substances.
                      change in match requirements
    Unlike most National Parks, private individuals and groups own and 
operate most of the historic properties in the park. There are 19 of 
these partnership sites, which are known as ``Keweenaw Heritage 
Sites,'' that significantly contribute to the preservation and 
celebration of the cultural and natural resources of the area. The 
Keweenaw Heritage Sites include an underground mine with one of the 
world's deepest shafts, the oldest municipally-built opera house in the 
country (which continues to host a variety of theatrical and musical 
events), a Civil War fort, and a museum with one of the world's most 
extensive mineral collections. These cooperating heritage sites enhance 
the visitor's experience at the park. However, these sites are simply 
not in the position to raise the match of $4 for every $1 in federal 
funds, which is the current requirement in Keweenaw's enabling 
legislation. The heritage sites rely entirely on donations and/or 
nominal entrance fees. Also, the Keweenaw Peninsula is one of the most 
economically depressed areas in Michigan, having an unemployment rate 
last year of 9.9%, which was nearly double that of the national 
unemployment rate, and Keweenaw had a per-capita income in 2005 of 
$25,740, which was about 75 percent of the national average.
    According to the National Park Service, most of the 391 NPS units 
do not require any non-federal match of federal funds. And, for those 
National Park System units that do require a match, it is typically in 
the ratio of 1:1 or 2:1. In contrast, the Keweenaw National Historical 
Park requires $4 in non-federal funds for every $1 of federal funds 
that are used to provide financial and technical assistance to mark, 
interpret, and restore non-federal properties within the park. This is 
an incredibly burdensome requirement for the private partners that help 
to carry out the mission of the park. This legislation would reduce the 
burden on the local community, while still requiring a match.
                        acquisition of property
    The bill before you addresses another issue of fairness for the 
park. Unlike most other NPS units, the Keweenaw National Historical 
Park is prohibited from acquiring any land that has become contaminated 
with hazardous substances. S. 189 would restore parity to the National 
Park System by removing this restriction.
    Importantly, this bill does not in any way force the National Park 
Service to acquire any such land, it simply removes the land 
acquisition restriction. Removing this restriction would increase 
flexibility for the Keweenaw National Historical Park, and would be 
especially helpful for properties that may have minimal contamination. 
Given the industrial history of the area, many of the historical 
properties may be contaminated. And even if the park were never to 
acquire a single additional property, removing this restriction would 
at the very least allow the park to consider acquiring certain parcels 
of land for preservation. As a partnership park, the majority of the 
historical buildings are not owned by the National Park Service; the 
NPS owns only five buildings within the park boundaries. However, at 
some point in the future, the park may be in the position to acquire 
property of historical significance that may be contaminated.
    Importantly, one of the most valuable historic properties within 
the park's boundary is the Quincy Smelter site, which is one of the 
last 19th century copper smelter sites remaining in the world. The 
buildings on this site are quickly deteriorating, and the current 
owners are contemplating demolition of these historical treasures due 
to the complications surrounding stabilization and lack of funding. 
Even though it is the National Park Service's position that it will not 
acquire this property due to contamination and associated cost 
concerns, removing this restriction would allow the park service to at 
least consider acquiring the property after cleanup plans and funding 
are in place.
                    increase in authorization levels
    Finally, this bill increases the appropriation ceilings for three 
categories of park activity: (1) the authorization of appropriations 
for the development and acquisition of land would be increased from $25 
million to $50 million; (2) the authorization for financial and 
technical assistance would be increased from $3 million to $25 million; 
and (3) the annual authorization for the Keweenaw Historic Preservation 
Advisory Commission would be increased from $100,000 to $250,000. These 
increases are necessary because as the park moves forward in assisting 
with the preservation and interpretation of the numerous historical 
properties within the park boundaries, the park will eventually hit 
these authorization ceilings. According to the National Park Service, 
the park has already spent $13.5 million on development activities. 
Although this is only about one-half of the current ceiling of $25 
million, because the park is rather new, and does not even have a 
visitor center, from a long-term perspective it is important to 
increase this ceiling so that the park has freedom in moving forward 
into the future with acquisition and development activities.
    The increase for the Keweenaw Historic Preservation Advisory 
Commission is especially important. As a partnership park, it is 
essential that the Advisory Commission has the funds necessary to carry 
out its statutory charge, which includes assisting the park with local 
and state government coordination, carrying out programs to enhance 
appreciation of park historic resources, and selecting sites for 
interpretation and preservation through cooperative agreements with 
non-Federal parties. At a $100,000 level, the Advisory Commission is 
limited in the assistance it can provide. At a level of $250,000, the 
Advisory Commission would be able to more fully meet its legislated 
responsibilities to advise and assist the park. With the increased 
level of appropriations authorized, the Advisory Commission could hire 
professional staff members and leverage corporate, foundation, and 
individual gifts for projects and programs in collaboration with the 
park and area partners. Of importance, the 19 heritage sites need the 
assistance of the Advisory Commission, and this increase would help 
improve these sites, and keep them in operation.
    In summary, this legislation would help the park to fulfill its 
mission to preserve and bring to life the vibrant history of Michigan's 
``copper country''--an essential part of the nation's history of 
industrial and technological development, immigration, labor relations, 
and natural resources. Thank you for holding this hearing, and I look 
forward to working with the Committee to pass this important 
legislation.

    Senator Akaka. Thank you very much, Senator Levin, for you. 
It sounds really personal, the way you provide your statement, 
and we thank you very much for that.
    Senator Levin. It is indeed that. We put a lot of effort 
into this. One other quick comment.
    This is way up in the most northern part of the State of 
Michigan, but it was such a booming mining area in the mid-19th 
century when Michigan became a State, that it's town called 
Kalumet, which was the middle of this mining bonanza, which 
brought all of the people from, a lot of people from the east, 
people from all over the world. So there's a huge ethnic 
diversity that came to that town, came to that area.
    But it almost became the capitol of Michigan, although it's 
the most remote part of the State, a town called Kalumet, a 
very small town now. But the boom was so huge that it was a 
final contest between Lansing, our current capitol in the 
middle of the State, geographically central, but which had 
competition for the upper peninsula, Keweenaw Peninsula. That's 
how major an economic part of this State and country.
    Again, was a major part of the Civil War and the reason the 
North prevailed, because of the copper that was available to 
the military in the Union, that was not available in the South. 
So there's huge history here, and thank you for considering 
this bill.
    Senator Akaka. Thank you very much, Senator Levin.
    Senator Salazar. Mr. Chairman.
    Senator Akaka. Senator Salazar.
    Senator Salazar. If I may just say, as a surrogate son of 
Michigan, since I went to law school in Ann Arbor at the 
University of Michigan. I know this place and I think it is a 
great piece of legislation that Senator Levin has brought 
before the committee, and I hope that we favorably consider it.
    Senator Akaka. Thank you very much. Senator Salazar, let me 
call you for your remarks or testimony at this time.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Senator Akaka. You 
know that my colleague, Senator Allard, was here earlier on and 
testified concerning the Cache La Poudre legislation that is 
before us.
    I want to just spend a few minutes making a quick comment 
about that legislation. The bill itself is very 
straightforward. It fixes a problem in the law that was, for 
the Heritage Area that was established back in 1996. Because of 
the glitch in the statute, the Secretary of Interior has been 
unable to appoint a Commission to manage the Heritage area. The 
bill designates a local non-profit organization, the Poudre 
Heritage Alliance.
    I'm familiar with the organization. It's a good 
organization. The organization is designated as the management 
entity for the Heritage area and extends the authorization for 
the area for an additional 10 years at a very modest funding 
level.
    The bill has very strong support from communities and 
stakeholders in my State of Colorado, including the cities of 
Fort Collins, Greeley, Windsor, and the Northern Colorado Water 
Conservancy District. We're proud of the Poudre River and its 
history. I will add, I will make the rest of my statement, I 
will just make it a part of the record. I would hope that the 
committee----
    Senator Akaka. We'll include it in the record.
    Senator Salazar. Thank you, Mr. Chairman. I would hope that 
the committee helps us in moving this legislation forward.
    [The prepared statement of Senator Salazar follows:]
  Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado, 
                               on S. 128
    Thank you, Chairman Akaka and Ranking Member Burr, for holding this 
hearing today.
    I want to talk for a couple minutes about S.128, a bill that 
Senator Allard and I introduced to amend the Cache La Poudre River 
Corridor National Heritage Area Act.
    The bill itself is very straightforward. It fixes a problem in the 
law that established the heritage area in 1996. Because of the glitch 
in the statute, the Secretary of the Interior has been unable to 
appoint a commission to manage the heritage area. This bill designates 
a local non-profit organization, the Poudre Heritage Alliance, as the 
management entity for the heritage area, and extends the authorization 
for the area for an additional 10 years, at a very modest funding 
level.
    The bill has the strong support of the local communities and 
stakeholders, including Fort Collins, Greeley, Windsor, and the 
Northern Colorado Water Conservancy District.
    We in Colorado are very proud of the Poudre River and the history 
that grew up along its banks. The river's name goes back to 1836, when 
a party of French fur trappers got stuck in heavy snow as they traveled 
along the Front Range. They had to lighten their loads before heading 
to the mountains, so they buried their excess supplies, mainly gun 
powder and lead shot, before moving on. One of the members of the 
expedition came back to the area later as settler, and remembered that 
it was the place where they ``hid the powder,'' so the river took on 
the French name ``Cache''--for hiding place--and ``Poudre''--for 
powder.
    As more settlers came to Larimer County and the banks of the Poudre 
River in the late 19th century, they built an expensive and expansive 
system of ditches to irrigate their fields. Farmers banded together on 
cooperative projects to reduce the labor required to move water from 
the Poudre River to their crops. Eventually, they established private 
irrigation companies--mutual ditch companies--to finance larger storage 
projects.
    As their irrigation infrastructure became more sophisticated, the 
settlers of the area established a system for determining who had 
priority on the water in the river. The doctrine of prior appropriation 
which they helped develop has become the foundation of Colorado water 
law and of water law throughout much of the American West.
    The Cache La Poudre National Heritage Area helps preserve and share 
these vital stories of the Poudre River and of the origins of our water 
law. It is a heritage of which are proud.
    Mr. Chairman, thank you again for holding this hearing. I hope we 
can pass S.128 promptly out of this committee.
    Thank you.

    Senator Akaka. Thank you very much, Senator.
    Now, our next witness is Congressman Bill Pascrell, who is 
the--who is here to testify on S. 148, the Paterson Great Falls 
National Park proposal, and you sponsor a companion measure in 
the House of Representatives.
    Congressman Pascrell, I want to welcome you to this 
subcommittee and look forward to your statement to the 
committee.

 STATEMENT OF HON. BILL PASCRELL, U.S. REPRESENTATIVE FROM NEW 
                             JERSEY

    Mr. Pascrell. Thank you, Senator. I wanted to be here and I 
want to thank the, yourself and the members of the committee 
for allowing me to discuss the Paterson Great Falls. I was the 
Mayor of Paterson before running for the Congress of the United 
States. I've lived there all my life, so I have visceral 
relationship here and I think you'll understand that.
    I'm confident that you will find that the Great Falls 
Historic District is uniquely deserving of a National Park 
Service unit designation. Fifteen miles west of New York City, 
the Great Falls was the second largest waterfall in colonial 
America.
    At the Great Falls, Alexander Hamilton conceived the plan 
to harness the force of water to power the new industries that 
would secure our economic independence. Hamilton told Congress 
and the American people that at the Great Falls, he'd begin to 
implement his ambitious strategy to transform an agricultural 
society dependent upon slavery, into a modern economy based on 
freedom.
    True to Hamilton's vision, Paterson became a great 
manufacturing city, producing the Colt revolver, the first 
submarine, the aircraft engine for the first transatlantic 
flight, more locomotives than any city in this Nation, Mr. 
Chairman, and more silk than any city in the world.
    Scholars have concluded that Pierre L'Enfant's innovative 
water power system in Paterson and many factories built later, 
constitute the finest remaining collection of engineering and 
architectural structures, representing each stage of America's 
progress, from a weak agrarian society to the leader in global 
economy.
    In a special Bicentennial speech in Paterson, the late 
President Gerald R. Ford in 1976--I know this quite well, Mr. 
Chairman, because I introduced him on that day, a Democrat was 
introducing a Republican President--it was greatest, one of the 
great thrills of my life. ``We can see the Great Falls as a 
symbol of the industrial might, which helps to make America the 
most powerful Nation in the world.''
    As a lifelong resident of Paterson and the city's former 
Mayor, I continue to live there, work there, in the shadow of 
the Great Falls of Passaic. I fought for many years to bring 
much-deserved recognition to this natural wonder and this 
historic landmark.
    So many years later, we're at that much, we're much closer 
to making the dream of a National Park in Paterson a reality. 
The legislation we are here to discuss today, that Paterson 
Great Falls National Park Act, would achieve this long sought 
after goal. The legislation enjoys bipartisan, widespread 
support. Every member of the Jersey delegation, Democrat and 
Republican, supports this piece of legislation and have put 
their name on in support, not afraid to do that.
    National conservation and historic preservation 
organizations, our Nation's most renowned Hamilton scholars, 
distinguished professors at prestigious universities, have 
documented that this historic district is worthy of a national 
historic designation. Editorial boards, Federal, State, local 
officials and community groups have also endorsed the campaign 
to create a National Park Service.
    Some have argued that because the State of New Jersey, the 
city of Paterson, and other entities are working to protect and 
preserve the Great Falls Historic District, that we do not need 
a National Historic Park there as well. This is completely 
false, Mr. Chairman.
    Governor Corzine himself, has maintained that the State of 
New Jersey cannot preserve, protect the Falls Historic District 
of the public without Federal Government assistance. The 
National Park Service has a long history of Federal-State 
cooperation, from Lowell, Massachusetts to the redwood in 
California. It is Park Service policy to foster State and 
Federal partnerships to fund and manage parks. The Great Falls 
should be no different.
    In conclusion, let me say this, Mr. Chairman. If the Great 
Falls district were added to the Park System, Federal resources 
could be leveraged to revitalize the Great Falls area. Not only 
is Paterson depending on this, but the entire area is depending 
on this, refurbishing this beautiful, the historic mill 
buildings, maintaining and protecting the waterfall.
    Through this Federal partnership, the Great Falls would be 
transformed into an attraction for visitors and Patersonians 
alike, that could lead to the economic revitalization of my old 
city, my own city, being a living reminder of our Nation's rich 
industrial history.
    Congress must act now to pass this vital piece of 
legislation. I really want to thank you, Mr. Chairman, and 
members of the committee. I stand ready to answer any questions 
that you might ask. This is not important to me, it's important 
to the entire area and I trust that you will do the right 
thing.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pascrell follows:]
  Prepared Statement of Hon. Bill Pascrell, U.S. Representative From 
                         New Jersey, on S. 148
    Mr. Chairman and distinguished Members of the Subcommittee, I very 
much appreciate your having me here today to discuss the Paterson Great 
Falls National Park Act of 2007, which I introduced in the House of 
Representatives.
    I am grateful for the opportunity to talk about an issue that is 
very close to my heart--the possible creation of a National Historical 
Park at the Great Falls Historic District in Paterson, New Jersey. I am 
confident that you will find that the Great Falls Historic District is 
uniquely deserving of being designated a National Park Service unit.
    Fifteen miles west of New York City, the Great Falls was the second 
largest waterfall in colonial America. No other natural wonder in 
America has played such an important role in our nation's historic 
quest for freedom and prosperity. At the Great Falls, Alexander 
Hamilton conceived and a plan to harness the force of water to power 
the new industries that would secure our economic independence.
    Hamilton told Congress and the American people that at the Great 
Falls he would begin to implement his ambitious strategy to transform a 
rural agricultural society, dependent upon slavery, into a modern 
economy based on freedom. True to Hamilton's vision, Paterson became a 
great manufacturing city, producing the Colt revolver, the first 
submarine, the aircraft engine for the first trans-Atlantic flight, 
more locomotives than any city in the nation, and more silk than any 
city in the world.
    Scholars have concluded that Pierre L'Enfant's innovative water 
power system in Paterson, and many factories built later, constitute 
the finest remaining collection of engineering and architectural 
structures representing each stage of America's progress from a weak 
agrarian society to a leader in the global economy.
    Notably, the Great Falls Historic District is the only National 
Historic District that includes both a National Natural Resource and a 
National Historic Landmark. In a special Bicentennial speech in 
Paterson with the spectacular natural beauty of the Great Falls in the 
background, the late President Gerald R. Ford said, ``We can see the 
Great Falls as a symbol of the industrial might which helps to make 
America the most powerful nation in the world.''
    As a lifelong resident of Paterson and the city's former mayor, I 
continue to live and work in the shadow of the Great Falls of the 
Passaic. I have fought for many years to bring much deserved 
recognition to this natural wonder and historic landmark.
    In the 1970s, I worked closely with Mary Ellen Kramer, who was the 
driving force in gaining Federal recognition of the Great Falls 
Historic District. I was there on that great day in June 1976 when 
President Ford came to Paterson and designated the Great Falls a 
National Historic Landmark. As Mayor of Paterson, I worked closely with 
fellow Patersonian Senator Frank Lautenberg, who was a warrior for this 
worthy cause.
    Now, so many years later, we are that much closer to making the 
dream of a National Park in Paterson a reality. The legislation we are 
here to discuss today, the Paterson Great Falls National Park Act of 
2007, would achieve this long sought-after goal. The House bill is 
cosponsored by every Member of New Jersey's Congressional delegation, 
both Democrats and Republicans.
    National conservation and historic preservation organizations, our 
nation's most renowned Hamilton scholars, an esteemed former 
Smithsonian Institution curator, and distinguished professors at Yale, 
Princeton, Harvard, NYU, Brown and other universities have documented 
that this historic district meets all of the standards to become a 
National Historical Park.
    Editorial boards, federal, state, and local officials and community 
groups, including New Jersey's Governor Corzine, have also endorsed the 
campaign to award a National Park Service designation to the Falls.
    Some have argued that because the State of New Jersey, the City of 
Paterson, and other entities are working to protect and preserve the 
Great Falls Historic District, that we do not need a National Park 
there as well. This is completely false.
    Governor Corzine himself has maintained that the State of New 
Jersey cannot preserve, protect, and present the Great Falls Historic 
District to the public without Federal Government assistance. 
Additionally, in order to attract private investment, it is imperative 
that the site be designated a National Park. In the long-term, major 
private donors will require the integrity, professionalism, continuity, 
and permanence of the National Park System.
    The National Park Service has a long history of federal-state 
cooperation, from Lowell in Massachusetts to Redwood in California. It 
is Park Service policy to foster state and federal partnerships to fund 
and manage parks, and Great Falls should be no different.
    Mr. Chairman, if the Great Falls District were added to the Park 
System, federal resources could be leveraged to revitalize the Great 
Falls area, refurbishing the beautiful, historic mill buildings and 
maintaining and protecting the waterfall.
    Through this federal partnership, the Great Falls would be 
transformed into an attraction for visitors and Patersonians alike that 
could lead to the economic revitalization of Paterson, and be a living 
reminder of our nation's rich industrial history.
    Congress must act now to pass this vital piece of legislation, so 
that we may fully recognize these cultural and historic landmarks that 
have played such a seminal role in America's history.
    Thank you for your time.

    Senator Akaka. Thank you very much, Congressman. We 
appreciate your statement here and know also that this is very 
close to you as former Mayor of that area. We'll certainly 
consider this when we consider all of these bills. Thank you 
very much.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Senator Akaka. Yes.
    Our next witness is Dan Wenk, the Deputy Director of the 
National Park Service, who will testify on behalf of the 
Administration on all 11 bills.
    Dan, welcome back again, to the subcommittee. We will 
include all of your statements in the record and would 
appreciate it if you could briefly summarize the Department's 
position on each bill. Once you've completed you comments, 
we'll begin a round of questions. So thank you again, and you 
may begin with your statement.

  STATEMENT OF DANIEL N. WENK, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Wenk. Mr. Chairman, thank you for the opportunity to 
appear before the subcommittee to present the Administration's 
view of 11 subjects on today's agenda. I would like to submit 
our full statements on each of these subjects to the record and 
summarize the Administration's positions on these bills.
    The Department supports the following bills: S. 189, which 
would amend the legislation that established the Keweenaw 
National Historical Park; S. 867 and H.R. 299, which would 
adjust the boundary for Lowell National Historical Park; S. 
1039, which would extend the authorization for the New Jersey 
Coastal Heritage Trail Route for an additional 4 years; S. 
1341, which would provide for a land exchange involving the 
Bureau of Land Management and a private developer that involves 
a boundary adjustment for the La Cienegas National Conservation 
Area and for Saguaro National Park; S. 1476, which would 
authorize a special resource study for the Tule Lake 
Segregation Center; S. 1709 and H.R. 1239, which would amend 
the National Underground Railroad Network to Freedom Act of 
1998; S. 1808, which would authorize the exchange of exclusive 
use easements between the National Park Service and the Alaska 
Railroad within Denali National Park; and S. 1960, which would 
authorize a special resource study of Estate Grange and other 
sites related to Alexander Hamilton's life on St. Croix in the 
Virgin Islands.
    In addition, the Department does not object to S. 128, 
which would amend the legislation that established the Cache La 
Poudre River Corridor.
    The reasons for our positions on these bills are explained 
in detail in our full statements. For several of the bills I 
just mentioned, we are requesting the committee make minor 
adjustments or amendments to the bill language. Explanations of 
these requested amendments are also contained in the full 
statements.
    The Department opposes the remaining two bills and I will 
briefly explain our position. S. 148 would establish the 
Paterson Great Falls National Park. The Special Resource Study 
conducted on this area, which is still under departmental 
review, has preliminarily concluded that the resources of this 
area do not meet the congressionally required criteria for 
designation as a unit of the National Park System.
    Since a majority of the proposed unit is already being 
managed by the State of New Jersey as a State Park, there is no 
need for the National Park Service management of the area. In 
addition, the bill includes within the boundary of the proposed 
unit, a resource with no relationship to the documented period 
of significance, the Hinchliffe Stadium. The bill contains 
provisions that raise important concerns about how the proposed 
unit would be effectively and efficiently managed by the 
National Park Service.
    The draft study for the Great Falls Historic District does 
suggest a pathway to effective partnership with the State of 
New Jersey, to protect and interpret the nationally significant 
resources of the district. That would be through a designation 
of the district as an affiliated area of the National Park 
System. That route would involve assistance from the National 
Park Service, but not direct management by the National Park 
Service.
    S. 697 would establish the Steel Industry National Historic 
Site. The National Park Service completed a special resource 
study of the sites included in the proposed new unit in 2002. 
The study concluded that the sites were not feasible to 
administer as a unit of the National Park System, that the site 
of the Homestead Lockout, a Seminole event in American labor 
history, lacked integrity and there was no need for NPS 
management.
    The study also concluded that local management framework 
could adequately protect and manage these historic resources, 
since they are all located within the Rivers of Steel Heritage 
area. Rather than establishing a new unit of the National Park 
System, the study recommended that the sites proposed for this 
unit and some other sites, be designated as an affiliated area 
of the National Park System, which would permit a viable 
Federal-local partnership for resource protection and public 
education.
    Mr. Chairman, that concludes my statement. I would be 
pleased to answer your questions.
    [The prepared statements of Mr. Wenk follow:]
 Prepared Statement of Daniel N. Wenk, Deputy Director, National Park 
                  Service, Department of the Interior
                                 s. 148
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
148, a bill to establish the Paterson Great Falls National Park in the 
State of New Jersey. The Department opposes S. 148.
    The Department has three main objections to the bill. First, the 
Special Resource Study authorized by P.L. 107-59 and still under final 
Departmental review, has preliminarily concluded that the resources of 
the Great Falls Historic District do not meet congressionally required 
criteria for designation as a unit of the National Park System. Second, 
the bill includes within the boundary of the proposed unit, a resource 
with no relationship to the documented period of historic significance 
of the Great Falls Historic District or of any determined national 
significance under established National Historic Landmark criteria. And 
third, the bill also contains a number of sections that raise crucially 
important concerns as to how the proposed unit would be effectively and 
efficiently managed by the National Park Service.
    The history of the Great Falls Historic District is rich in the 
nation's late 18th and early 19th century movement into the industrial 
revolution. Conceived by Alexander Hamilton as the demonstration of his 
Report on Manufactures to Congress, the venture was of clear historic 
significance. While the Hamilton-inspired Society for the Establishment 
of Useful Manufactures (S.U.M.) did not achieve the early success 
envisioned by its architect, largely due to diversion of funds by its 
initial governor, William Duer, it became a very successful real estate 
leasing and water power purveyor into the mid 20th century. The S.U.M. 
water power system at the Great Falls, designed by Pierre C. L'Enfant, 
and constructed between 1794 and 1827, was an engineering achievement 
of major importance.
    Over time, industries at the Great Falls produced cotton and wool 
textiles, spun flax, hemp, jute, paper, and other products. The site 
was the location of Samuel Colt's unsuccessful first arms factory, and 
a major center for locomotive manufacturing and the production of silk 
fabrics. The latter activity of silk weaving and dyeing, which during 
its heyday produced half of the nation's silk products, earned Paterson 
the label of ``Silk City.'' The District was also an important place in 
labor history, with the unsuccessful Silk Strike of 1913 involving an 
estimated 24,000 workers spurred on by the labor organization, the 
Industrial Workers of the World, often referred to as the ``Wobblies.'' 
John Holland's first submarine, ``The Fenian Ram,'' built in New York, 
was fitted with its engine at the Great Falls and made its maiden 
voyage on the Passaic River. While the District was plagued by arson 
impacting or destroying many of its earliest and most important mills, 
the remaining structures have integrity and have been and continue to 
be rehabilitated for housing and other public and private adaptive 
reuses.
    During the course of the Special Resource Study and the public 
comment period for the report which ended on January 30, 2007, a number 
of Alexander Hamilton biographers, knowledgeable historians, and 
interested individuals have urged the designation of the District as a 
unit of the National Park System because of its seminal role in the 
industrial revolution and its association with Alexander Hamilton. The 
Department concurs that the history of the Great Falls Historic 
District and its remaining resources are of national significance. Its 
designations as a National Historic Landmark and National Natural 
Landmark attest to that significance.
    National significance, although the first criterion analyzed in any 
Special Resource Study, does not alone result in a recommendation to 
Congress for unit designation. The resource being studied must also be 
judged suitable and feasible for designation, and a determination must 
be made that there is a need for National Park Service (NPS) management 
of the resource. The National Park Service does not believe that the 
Great Falls Historic District meets these critical criteria nor is 
there a need for NPS management of, or presence at, the site.
    Suitability is the determination of whether comparable resources to 
those being studied are already adequately represented in the National 
Park System or protected by other public agencies including state and 
local governments or private organizations. The extant resources of the 
District primarily comprise the S.U.M. water power system and the 
remaining elements of a collection of 19th century mills used for the 
manufactures noted above. We believe that within the National Park 
System and among numerous other protected sites, there are similar 
resources adequate to interpret the major theme categories also 
associated with the Great Falls Historic District, whether they 
represent comparable manufacturing enterprises, early water power, 
labor unrest of the same period, or sites associated with Alexander 
Hamilton's contributions to our nation. In the National Park System, 
itself, Lowell National Historical Park contains comparable mill 
resources and tells the stories associated with our nation's industrial 
revolution, including those of immigrant workers and labor unrest. The 
John H. Chafee Blackstone River Valley National Heritage Area contains 
Slater's Mill, the first successful textile manufacturing enterprise in 
the nation. The Special Resource Study documents many examples of 
similar resources and themes within and outside of the National Park 
System. NPS sites associated with Alexander Hamilton include his home, 
Hamilton Grange, in New York City and, of course, Independence National 
Historical Park in Philadelphia.
    The feasibility analysis conducted by the National Park Service 
estimates the costs for planning, developing and operating a unit at 
the Great Falls to range from $20 to $34 million dollars over a ten-
year period. This estimate assumes a small staffing contingent and no 
major NPS ownership of resources at the site. In the difficult budget 
climate facing federal agencies, we believe these costs would 
negatively impact finite resources available to other units of the 
National Park System in the Northeast Region and that lesser and 
equally effective cost alternatives are available through a partnership 
between the NPS and the State of New Jersey. We believe the costs to 
implement the provisions of S. 148 would far exceed this estimate.
    In late 2004 the State of New Jersey established the Great Falls 
State Park in the Historic District. The boundaries of the park contain 
the primary resources related to the S.U.M. water power system and the 
earliest mill sites. The State has recently completed a design 
competition for phase 1 of the park and has pledged $10,000,000 for 
park improvements. The Department believes that the Division of Parks 
and Forestry of the New Jersey State Department of Environmental 
Protection, which manages both natural and cultural resources of 
national significance throughout the State, is fully capable of 
providing the stewardship necessary to protect the critical resources 
associated with Alexander Hamilton and the S.U.M. Therefore, we believe 
there is no need for NPS management of these resources. We understand 
that many state park systems are encountering necessary budgetary 
constraints similar to those of the National Park Service. We do not 
believe this constitutes a reason to supplant any state's management of 
resources.
    The Department also has strong concerns with a number of provisions 
of S. 148 that go beyond the fact that the Great Falls Historic 
District fails to meet congressionally required criteria for 
designation. The bill includes Hinchliffe Stadium within the proposed 
boundary of the unit. Hinchliffe Stadium, built during the 1930s, has 
important associations with the Negro Baseball Leagues, serving during 
periods as the home field for the New York Black Yankees. It is also 
the site where Larry Doby, the second African American to play in the 
previously all white major leagues, played high school baseball. The 
site is listed on the National Register of Historic Places, but 
currently is listed as ``locally,'' rather than ``nationally'' 
significant. To be considered as a unit of the National Park System, 
resources must be determined to meet the criteria for National Historic 
Landmark (NHL) designation. This resource is far from being considered 
for NHL status and no nomination for such a designation has been 
presented to the Department. Hinchliffe Stadium also has no connection 
to the NHL determined period of historical significance of the Great 
Falls Historic District, and we believe it should not be considered for 
unit designation. Costs associated with maintaining and improving the 
site would also be significant due to its present deteriorated 
condition.
    S. 148 contains other provisions that cause the Department concern. 
In section 6(d), for example, the bill provides a process for approval 
of the park's management plan more common to Affiliated Areas of the 
National Park System or national heritage areas. In section 7, the bill 
creates a federal commission to coordinate management of the park. In 
section 8, an advisory council is provided, also appointed by the 
Secretary, to advise the group created in section 7. In section 10(c), 
the bill appears to provide for authority to the Secretary to condemn 
property for Federal ownership under certain circumstances. Congress 
has been reluctant to extend this authority in recent park legislation.
    Section 11(b) provides a matching requirement that for every one 
federal dollar the value in cash or in-kind of three non-federal 
dollars must be available. In effect, annual funding to operate the 
national park unit would be contingent upon the availability of non-
federal donations. The Department has concerns with taking on this 
permanent funding obligation under the assumption that some of the 
costs would be covered through private fundraising since appropriations 
would be required if private funds proved to be insufficient. While 
philanthropic donations can and do help to enhance park activities, 
facilities and resources, they should not be relied upon to support 
core operations, including the salaries for permanent staff.
    We have specific concerns about the viability of raising funds for 
this purpose based on our past experience working in Paterson. While 
during the study period, advocates for unit designation have stated (as 
does section 2 (a)(10) of the bill) that significant funding for the 
park will be available from private donors if the unit is established, 
attempts to verify any tangible evidence of private funding interests 
were met with the simple explanation that ``They will not identify 
themselves unless and until the park is created.'' In 1996, Congress 
authorized $3.3 million through the Omnibus Parks and Public Lands 
Management Act (section 510) in technical assistance, grants, and 
infrastructure improvements. All funding required a 50 percent local 
match, yet over the past 11 years, no local matching funds have been 
made available under this authority.
    S. 148 contains other technical and substantive provisions of 
concern that are incompatible with current unit designation and park 
management practices.
    In conclusion, Mr. Chairman, the Special Resource Study of the 
Great Falls Historic District does suggest a pathway to an effective 
partnership with the State of New Jersey to protect and interpret the 
nationally significant resources of the District. It provides for 
possible congressional consideration of a Great Falls National Historic 
Site, as an Affiliated Area of the National Park System, with technical 
and financial assistance provided by the Secretary of the Interior to 
the State of New Jersey. We believe that time spent exploring this 
alternative could enhance the protection of the District's resources by 
establishing a strong partnership between the NPS and the New Jersey 
Department of Environmental Protection, one not dissimilar to the very 
productive partnership we have enjoyed with the State of New Jersey in 
its 25 years of management of the congressionally designated 1.1 
million acre New Jersey Pinelands National Reserve.
    Thank you for the opportunity to present the Department's position 
on this bill. This concludes my prepared remarks and I would be glad to 
answer any questions that you or the members of the committee may have.
                                 s. 189
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 189, a bill to remove the restriction on land 
acquisition, to decrease the matching funds requirement and to 
authorize additional appropriations for Keweenaw National Historical 
Park in the State of Michigan.
    The Department supports enactment of this legislation with one 
amendment described later in this statement.
    S. 189 would amend P.L. 102-543 to remove the restriction on 
acquiring contaminated property and decrease the ratio for matching 
fund requirements. It also would increase the appropriation ceilings 
for development and for financial and technical assistance to owners of 
non-Federal property, and increase the ceiling for the operations of 
the Keweenaw National Historical Park Advisory Commission. These 
changes would enable Keweenaw National Historical Park to acquire land 
in a manner consistent with other national park units, to better 
preserve nationally significant resources inside as well as related 
resources outside of park boundaries, and to better implement the 
operation of the park's Advisory Commission as envisioned for this 
ground-breaking partnership park.
    The Keweenaw National Historical Park was authorized by Congress in 
1992 through Public Law 102-543 to preserve a portion of the Keweenaw 
Peninsula in the State of Michigan where the prehistoric, aboriginal 
mining of copper occurred. Artifacts made from this copper were traded 
as far south as Alabama.
    The ensuing copper mining industry ``pioneered deep shaft, hard 
rock mining, milling, and smelting techniques and advancements in 
related mining technologies later used throughout the world.'' The 
picture of copper mining is best represented in the Village of Calumet, 
the former Calumet and Hecla Mining Company properties, and the former 
Quincy Mining Company properties. The Calumet National Historic 
Landmark District and the Quincy Mining Company National Historic 
Landmark District comprise the vast majority of the land within park 
boundaries. However, other resources outside the park boundary 
significantly contribute to ``interpret[ing] the historic synergism 
between the geological, aboriginal, sociological, cultural, 
technological, and corporate forces that relate the story of copper on 
the Keweenaw Peninsula.''
    The park has been unable to acquire key historic sites within the 
park boundaries because of the park-specific restriction in Section 
4(d) of Public Law 102-543 on acquiring contaminated property. For 
example, the park was unable to pursue acquisition of the 
``Coppertown'' site, which includes the historic Calument & Hecla (C&H) 
Pattern Shop, the C&H Pattern Storage Warehouse, and the associated 
lands contributing to the cultural landscape of Calumet's core 
industrial area, due to contamination revealed in environmental site 
assessments. This acquisition restriction stopped the National Park 
Service (NPS) from further action on these important sites despite the 
limited extent of contaminants at this property and the desire of the 
park's Advisory Commission and the local community to consider their 
acquisition.
    Existing Department of the Interior policies and procedures require 
a thorough environmental assessment and review prior to acquisition of 
real property, with an additional review and professional assessment of 
those areas found to possess contamination issues. Those areas are then 
subjected to a graduated approval process, beginning at the Regional 
Director level, going through the NPS Director, and on up to the 
Secretary of the Interior, depending on the projected costs of 
remediation.
    The park-specific ban from NPS ownership of contaminated property 
applies even when mitigation has been undertaken to meet U.S. 
Environmental Protection Agency and Michigan Department of 
Environmental Quality requirements. This ban also prevents the park 
from considering alternatives such as acquiring preservation easements. 
The current restriction would prohibit acquisition even after a common 
remediation action such as capping contaminated soils is completed 
since the site would still contain contaminants. S. 189 would strike 
Section 4(d) of Public Law 102-543, allowing the NPS to acquire or to 
enter into partnerships for the acquisition of at-risk sites and other 
historic properties within the park boundaries while still requiring 
the areas to be subject to existing Servicewide safeguards. Those 
safeguards include a requirement in the National Park Service 
acquisition regulations that a contaminants study be prepared before 
the acquisition of park lands. In addition, the NPS will consider 
requiring indemnification agreements from current owners before 
acquisition of previously contaminated lands for this unit.
    The Keweenaw region was built by and subsisted entirely on the 
wealth generated by the copper industry for more than 100 years. When 
the industry collapsed, the companies departed, leaving the Copper 
Country economically depressed. Community expectations of the 
establishment of a national park on the Keweenaw Peninsula included the 
development of heritage tourism to assist in economic recovery. In the 
fifteen years since the inception of the park, even though the park was 
given authority to provide financial assistance to owners of property 
containing nationally significant resources to foster historic 
preservation and visitor services development, there has rarely been an 
opportunity for the park to provide assistance due to the uncommonly 
high 4 to 1 match requirement. Depressed communities are hard pressed 
to provide four-fifths of the cost of preservation projects. The park's 
ability to foster a preservation ethic of nationally significant 
resources through partnerships rather than ownership and improve 
visitor services goals would be significantly enhanced by a decrease in 
the match requirement for financial and technical assistance to the 
more common 1 to 1 ratio. The increased ability to effect bricks-and-
mortar preservation projects will, in turn, benefit the economic health 
of these communities. S. 189 would change the ratio from 4-to-1 to 1-
to-1, providing a greater opportunity for the park to work with 
partners and to support the preservation and interpretation of the 
rapidly deteriorating resources of the park.
    S. 189 also would raise the appropriations authorization ceiling 
for development from $25 million to $50 million. Since 2000, 
approximately $6 million has been spent on park-owned facilities for 
administrative use, and it is anticipated that another $7.5 million 
will be spent for both administrative and visitor use over the next 
three years. The park's General Management Plan (GMP) called for the 
early development of partnerships and assistance programs, followed by 
park-owned visitor facilities. The park is now poised to enter into 
this facility development phase as prescribed. While the park does not 
know the total amount that would be spent on implementing this phase of 
the GMP, having an increased ceiling would allow the park to proceed 
with the plan and not be hindered by reaching a specific ceiling in the 
midst of planned activities.
    Additionally, S. 189 would authorize Congress to appropriate up to 
$250,000 annually to meet the needs of the Keweenaw National Historical 
Park Advisory Commission and would eliminate a required match of funds 
by the Commission. The Commission was authorized in 1992 to interface 
with the park's external partners and owners of historic properties and 
raise funds for park purposes. It has also been charged in part, to 
``carry out historical, educational, or cultural programs which 
encourage or enhance appreciation of the historic resources in the 
park, surrounding areas, and on the Keweenaw Peninsula.'' Although the 
Commission has put forth valiant efforts to meet its charge, it will be 
unable to effectively fulfill its mandates without recurring base 
funding. The present limit of $100,000 on appropriations for the 
Commission would fund only the most minimal staff, or allow the 
Commission to only minimally reimburse the NPS for NPS-supplied-staff 
as required in the enabling legislation. This increase in the 
authorization ceiling and the elimination of matching requirements 
would allow for the sustained and viable operation of the Commission. 
With sustained operations, the Commission would be able to raise funds 
for park purposes, including financial and technical assistance to 
partner sites, and to fulfill its charge to carry out historical, 
educational, or cultural programs.
    Finally, we recommend striking a provision in S. 189 concerning the 
ceiling on technical and financial assistance. The park has provided 
financial and technical assistance to owners of historic properties 
nearly entirely out of park operating funds. It is a primary function 
of this partnership park. It is expected that such assistance will 
continue through the use of discretionary park funds rather than 
specific appropriations for such purposes. Therefore, we recommend 
striking the language from the bill that seeks to increase the ceiling 
on financial and technical assistance from $3 million to $25 million 
and inserting language that eliminates this ceiling. This will result 
in the law not identifying a specific amount for the park to provide 
for such purposes and in having the park continue to fund this 
assistance through the park's base budget rather than providing a 
separate authorization for it. We have attached the proposed amendment 
to the testimony.
    If enacted, the amendments in S. 189 would significantly enhance 
park development and operations by eliminating overly restrictive 
property acquisition criteria, by reducing unrealistic matching fund 
requirements, by increasing appropriation ceilings to levels that would 
support the mandates and purposes of the park, and by fulfilling the 
partnership provisions that are unique to this park unit.
    Mr. Chairman, this concludes my testimony. I would be glad to 
answer any questions that you or other members of the subcommittee may 
have.
Suggested amendment to S. 189
    On page 2, line 10 strike subparagraph (B) in its entirety and 
insert a new subparagraph (B):

          (B) by striking ``, and $3,000,000 for financial and 
        technical assistance to owners of non-Federal property as 
        provided in section 8''.
                          s. 867 and h.r. 299
    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 867 and H.R. 299, bills to adjust the boundary of Lowell National 
Historical Park, and for other purposes.
    The Department supports enactment of these bills.
    These bills would authorize the Secretary of the Interior to 
acquire five small tracts of land, totaling less than one acre, and to 
include these tracts in the boundary of the Lowell National Historical 
Park. These five small parcels are important to the park's operation.
    Lowell National Historical Park preserves and interprets the 
nationally significant historic and cultural sites, structures and 
districts in Lowell, Massachusetts, that represent the most significant 
planned industrial city in the United States and symbolize, in physical 
form, the Industrial Revolution. The park tells the human story of the 
Industrial Revolution and the changing role of technology in a 19th and 
20th century setting. The cultural heritage of many of the ethnic 
groups that immigrated to the United States during the 19th and early 
20th century, and which continues today, is still preserved in Lowell's 
neighborhoods. The park provides a vehicle for economic progress in the 
community, encouraging creative and cooperative preservation and 
interpretive programs.
    The tracts included in this bill are needed to complete development 
of the Canalway, a linear park and walkway along Lowell's 5.6-mile 
historic power canal system. The acquisition of these tracts will 
provide the access points necessary for development, maintenance, and 
visitor protection in order to complete the Canalway. Approximately two 
miles of the walkway along Lowell's 5.6-mile canal system remain 
incomplete. Acquisition rights and associated boundary changes are 
needed to ensure that park visitors will have access to the entire 
system and to give the park the right to develop and maintain these 
canal walkways.
    S. 867 and H.R. 299 would authorize the Secretary to acquire the 
tracts in fee, or by easement, purchase or donation, and if necessary, 
by means of condemnation. The original 1978 legislation establishing 
Lowell National Historical Park contains condemnation authority for the 
Secretary and the now defunct Lowell Historic Preservation Commission. 
The National Park Service (NPS) inherited the assets of the Commission 
when it ceased operations in 1995. Although condemnation authority has 
not been used in 20 years, it is needed now because NPS has been unable 
to obtain clear title to one of these small tracts through the usual 
means of title and record searches.
    Dating back to the 1800s, tract ownership is uncertain and NPS has 
not been able to locate or determine the owners. The NPS would use 
condemnation authority to gain clear title only if owners of the 
parcels cannot be identified after further attempts through notice in 
local newspapers is unsuccessful. The Lowell City Council will be 
consulted and condemnation authority will be used only with its 
concurrence, as required in the park's enabling legislation. If the 
Lowell City Council would oppose our intention to use condemnation 
authority, the park would not proceed.
    As has been the practice of the Lowell National Historical Park 
throughout its Canalway acquisition program, donated easements and fee 
acquisition will be sought as a first course of action. In the event 
that property owners are unwilling to donate fee or easement rights, 
funding for these acquisitions will be sought through public and 
private funding sources.
    The proposed legislation is supported by the Commonwealth of 
Massachusetts, the City of Lowell, the Lowell Historic Board, and the 
Lowell Plan/Lowell Development and Financial Corporation.
    Mr. Chairman that concludes my testimony and I will be happy to 
answer any questions from you or members of the subcommittee.
                                s. 1341
    Thank you for the opportunity to testify on S. 1341, the Las 
Cienegas Enhancement and Saguaro National Park Boundary Adjustment Act.
    S. 1341 provides for the conveyance of Federal land managed by the 
Bureau of Land Management (BLM) in southern Arizona to a private 
developer in exchange for environmentally significant lands to be 
included within the Saguaro National Park and the Las Cienegas National 
Conservation Area (NCA). During the 109th Congress, the BLM testified 
before the House Resources Committee on legislation that provided for 
the exchange of the Las Cienegas NCA parcel but that did not include 
the Saguaro National Park parcel, and, at that time, suggested a number 
of modifications to that legislation.
    The Department appreciates that S. 1341 incorporates the vast 
majority of our recommendations. We support S. 1341 and would like to 
provide a few additional amendments to ensure that the bill is in 
keeping with our land exchange practices.
    S. 1341 authorizes an exchange of land between the Department of 
the Interior and Las Cienegas LLC. The federal land to be conveyed 
totals approximately 1,200 acres and is referred to in the bill as the 
``Sahuarita parcel of land.'' This property is BLM-managed land south 
of Tucson near Corona de Tucson. The land is low-lying Sonoran desert 
and has been preliminarily identified for disposal by the BLM through 
its land use planning process.
    The bill would bring two parcels of land into Federal ownership. 
The first is approximately 2,392 acres of land referred to in the bill 
as the ``Empirita-Simonson parcel of land.'' This property lies north 
of the Las Cienegas NCA managed by the BLM in southern Arizona. The 
lands are currently private property but mostly lie within the 
``Sonoita Valley Acquisition Planning District'' established by Public 
Law 106-538, which designated the Las Cienegas NCA. The Act directed 
the Department of the Interior to acquire lands from willing sellers 
within the planning district for inclusion within the NCA to further 
protect the important resource values for which the NCA was designated. 
In addition, these lands would provide important access to the 
Whetstone Mountains which are managed by the Forest Service. Upon 
acquisition, the bill provides that the parcel would be administered as 
part of the La Cienegas NCA.
    The second parcel of land consists of 160 acres and is referred to 
as the Bloom property. This tract is undeveloped and is immediately 
adjacent to the boundary of the West District of Saguaro National Park. 
Park planning documents dating back to 1993 have identified this 
property for acquisition, if available. This tract contains important 
wildlife corridors and high resource values that would complement the 
resources already present in the park. The area surrounding the park 
has seen significant population increases during the last decade and 
protecting remaining undeveloped areas is a priority for both the park 
and local communities. Upon acquisition, the bill provides that the 
parcel would be administered as part of Saguaro National Park.
    We recommend three modifications to the bill. First, we would 
recommend striking section 3(b)(3)(B), which allows a waiver of section 
206(b) of the Federal Land Policy and Management Act of 1976 (43 U.S.C. 
1716(b)) with regard to limiting equalization payments to 25 percent of 
the value of the Federal land. The inclusion in the bill of section 
3(b)(3)(A)(iii), which allows for the reduction of acreages to bring 
the exchange within the 25 percent ceiling, eliminates the need for 
section 3(b)(3)(B) and is consistent with BLM policy on equalization of 
payments. Second, we urge that the timeframes for completing the land 
exchanges in section 4(e) be extended from one year to 18 months to 
allow adequate time to complete all of the actions necessary for a land 
exchange. Third, we would suggest a technical correction to the acreage 
total for the Empirita-Simonson parcel of land.
    We support section 4(b) of the bill to remove the Elgin Landfill 
from the boundaries of the Las Cienegas NCA; its inclusion within the 
boundaries of the NCA was an error in need of correction and this 
provision will address that problem.
    Thank you for the opportunity to testify on S. 1341, I will be 
happy to answer any questions.
                         s. 1709 and h.r. 1239
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1709 and H.R. 1239, bills to amend the National Underground Railroad 
Network to Freedom Act of 1998. Both bills would adjust the authorized 
funding levels for the National Underground Railroad Network to Freedom 
program and for the associated grant program. S. 1709 would also 
require a minimum number of staff for the program.
    The Department supports enactment of H.R. 1239 as passed by the 
House. We support increasing the authorization ceiling for operation of 
the National Underground Railroad Network to Freedom program and 
decreasing the authorization for the associated grant program, as both 
H.R. 1239 and S. 1709 would do. However, we object to requiring a 
minimum number of staff for the program, as S. 1709 would do. That 
provision was also included H.R. 1239 as introduced, but H.R. 1239 was 
amended to remove that provision before it was passed by the House.
    The Network to Freedom program was authorized by Congress in 1998 
through Public Law 105-203 to coordinate and facilitate Federal and 
non-Federal activities to commemorate, honor, and interpret the history 
of the Underground Railroad--the story of extraordinary actions of 
ordinary men and women working in common purpose to free a people. The 
law calls for producing and disseminating educational materials, 
entering into agreements to provide technical assistance to a variety 
of public and private entities in the United States, Mexico, Canada, 
and the Caribbean, and creating a symbol for the network. The network 
was to include both units and programs within the National Park Service 
and other entities outside the Service that had a verifiable connection 
to the Underground Railroad story.
    Since the program was established, 328 sites, programs, and 
facilities in 30 States and the District of Columbia have been included 
in the Network to Freedom. Through this program, which is national in 
scope but managed from the Midwest Regional Office, the National Park 
Service coordinates preservation and education efforts nationwide, 
integrating local historical sites, museums, and interpretive programs 
into a mosaic of community, regional, and national stories of the 
Underground Railroad.
    In 2000, Congress authorized the Underground Railroad matching 
grants program through Public Law 106-291 to provide support for 
preservation of buildings and other structures and related research to 
members of the network. Funds for these matching grants have been 
appropriated three times--$250,000 in Fiscal 2002; $295,800 in Fiscal 
2005, and $375,000 in Fiscal 2006. In total, 52 grants have been 
awarded for projects. Several projects involved stabilizing and 
preserving historic buildings, such as Eleutherian College in Indiana, 
Constitution Hall in Topeka, Kansas, Mayhew Cabin in Nebraska, and the 
Oswego School District Public Library in New York. Other projects 
focused on expanding research in support of site interpretation, such 
as the archeological survey at John Rankin House in Ohio, or education, 
such as the ``Discovering New Bedford's Underground Railroad History'' 
program in Massachusetts, a cooperative project among three local 
partners.
    Through its establishment, the Network to Freedom has brought 
traditional National Park Service strengths in preservation, 
interpretation, and planning to new communities. The program carries 
the message about the cultural and historic aspect of national parks 
directly to communities of color and opens the door for public 
participation in the expansion and design of the program at a 
grassroots level. The program has become an essential part of our 
ongoing effort to enhance diversity in our parks and programs.
    The Network to Freedom's work with outside partners led to the 
establishment of Friends of the Network to Freedom in 2006. The Friends 
group will work to raise funds to support cooperative projects, but the 
funding will not substitute for regular operations funding.
    H.R. 1239 and S. 1709 would increase the authorization ceiling for 
operating the Network to Freedom program from $500,000 annually, the 
amount that was set in the 1998 law, to $2 million. Along with 
increasing the funding level, S. 1709 would require the Secretary to 
appoint at least eight full-time equivalent staff to carry out the 
program. In addition, both bills would reduce the authorization ceiling 
for the Underground Railroad grant program from $2.5 million annually, 
the amount set in the 2000 law, to $500,000.
    When the Network to Freedom program was first authorized, it 
appeared that $500,000 annually would be sufficient to operate the 
program. However, with the addition of the grant program, the growth of 
the network to more than 300 members, and nine years worth of increases 
in pay and other fixed costs, the program could justify more than 
$500,000 a year in subsequent budget requests. NPS is spending $487,000 
in FY 2007. An authorization ceiling of $2 million would enable the 
Administration to request, and Congress to appropriate, additional 
funding for this program, subject to overall NPS priorities and the 
availability of funds.
    For the grant program, we believe it is appropriate to reduce the 
authorization ceiling from $2.5 million annually to $500,000. In the 
seven years of its existence, Congress has not appropriated any amount 
larger than $375,000 for grants. With the amounts provided, program 
staff has been able to provide grants to nearly all network members who 
have sought them and who have also been able to raise the necessary 
matching funds.
    S. 1709 would require NPS to increase the staff of Network to 
Freedom program from six to eight. We do not believe it is appropriate 
to establish a minimum staffing requirement in law. The National Park 
Service needs to have the flexibility to determine appropriate staffing 
based on program needs and available funds. Establishing a minimum 
number of staff in law could hinder efforts to achieve management 
efficiencies. If the committee acts on S. 1709, we recommend striking 
Section 2, as was done in the House-passed version of H.R. 1239.
    In addition, we do not support providing for funds appropriated 
pursuant to this authorization to remain available until expended for 
operations funding, as S. 1709 would do. Allowing such funding to be 
available until expended would establish budgetary treatment for this 
program that is different from all other operations funding in the 
National Park Service. We do support allowing funding for grants to be 
available until expended, as S. 1709 would also do. If the committee 
acts on S. 1709, we recommend amending Section 3 to make this 
distinction. H.R. 1239, as passed by the House, does not provide for 
funding to be available until expended for either type of spending.
    Mr. Chairman, that concludes my testimony and I am prepared to 
answer any questions that you or other members of the committee might 
have at this time.
                                s. 1969
    Mr. Chairman, thank you for the opportunity to provide the 
Department of the Interior's views on S. 1969, a bill to authorize the 
Secretary of the Interior to conduct a special resource study to 
determine the suitability and feasibility of designating Estate Grange 
and other sites related to Alexander Hamilton's life on the island of 
St. Croix in the United States Virgin Islands as a unit of the National 
Park System, and for other purposes.
    The Department supports S. 1969. However, the Department feels that 
priority should be given to the 37 previously authorized studies for 
potential units of the National Park System, potential new National 
Heritage Areas, and potential additions to the National Trails System 
and National Wild and Scenic River System that have not yet been 
transmitted to the Congress.
    Studies of this type typically take approximately three years to 
complete after funds are made available. We estimate the cost for this 
study to be approximately $250,000.
    S. 1969 would authorize the Secretary of the Interior, in 
consultation with the Governor of the Virgin Islands, to conduct a 
special resource study of Estate Grange and other sites and resources 
associated with the life of Alexander Hamilton on St. Croix, in the 
U.S. Virgin Islands. The study would evaluate the sites according to 
established criteria to determine whether it is appropriate for 
addition to the National Park System, or whether it is better suited to 
protection by another entity.
    Hamilton was born out of wedlock in Charlestown, Nevis, the capital 
of the island of Nevis, Saint Kitts and Nevis, Leeward Islands, West 
Indies to James A. Hamilton, the fourth son of a Scottish laird, and 
Rachel Faucett Lavien, of part French Huguenot descent. There is, 
however, some evidence that Hamilton's biological father may have been 
a Nevis merchant named Thomas Stevens.
    In 1765, a business assignment led James Hamilton to move the 
family to Christiansted, St. Croix. James then abandoned Rachel and 
their two sons. After James left, Rachel supported the family by 
keeping a small store in Christiansted. She contracted a ``severe 
fever'' and died on February 19, 1768, leaving Hamilton effectively 
orphaned.
    After his mother's death, Hamilton was twice adopted and worked as 
a clerk with a local import-export firm with ties to the New York area. 
Impressed with his writings, the local community created a fund to send 
him to New Jersey for a formal education. He was attending King's 
College in New York when the Revolutionary War began.
    During the Revolutionary War, Hamilton served as an artillery 
captain, was an aide-de-camp to General George Washington, and led 
three battalions at the Battle of Yorktown.
    One of America's first constitutional lawyers, he was a leader in 
calling the U.S. Constitutional Convention in 1787 and was one of the 
two chief authors of the Federalist Papers, the most cited contemporary 
interpretation of intent for the United States Constitution. Under 
President Washington, Hamilton became the first Secretary of the 
Treasury.
    The Estate Grange, a former rum factory and sugar plantation, was 
once the home of Hamilton's mother and she is buried on the premises. 
The 115-acre estate is situated approximately 1.5 to 2 miles southwest 
of Christiansted National Historic Site and is owned by the Armstrong 
Trust.
    In 1886, the Great House, which has five bedrooms and four baths, 
was used as a convalescent home for Danish gendarmes stricken by yellow 
fever at the Christiansted barracks. In later years the Great house was 
modified, by subsequent owners, by adding a grand staircase on the 
southwest corner of the building and converting the gallery to a dining 
room. The basement, with arched window openings and passageways, 
includes stone and coral-walled bedrooms, as-well-as storage areas.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions you or the other members of the subcommittee may 
have.
                                 s. 128
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 128, a bill to amend the Cache la Poudre River 
Corridor Act to designate a new management entity, make certain 
technical and conforming amendments, enhance private property 
protections, and for other purposes.
    The Department has no objection to S. 128 if amended as described 
in this testimony to make the bill similar to other recent national 
heritage area bills. The Administration usually does not support 
extending the time period for financial assistance to national heritage 
areas, but is willing to accept an extension in this case, given the 
statutory problems in establishing a management entity.
    The Cache la Poudre River Corridor was established on October 19, 
1996 by P.L. 104-323. The National Park Service (NPS), working with 
former Senator Hank Brown and members of the community, completed a 
resource study that focused on the area's history of water and water 
rights. Water rights continue to be an important issue in the west, and 
the Cache la Poudre River Corridor provides a unique opportunity to 
tell the story of the natural history of 19th century settlement, 
irrigation, and establishment of water rights in an arid environment.
    S. 128 would correct a number of technical errors, provide a more 
accurate definition of the national heritage area's boundary, change 
the management of the heritage area to a private not-for-profit 
organization from a federal commission, include the proper spelling of 
the Cache la Poudre River, and change the name of the area to more 
accurately reflect the purpose for which the area was established.
    Congress established the Cache la Poudre River heritage area in 
1996, however, it has never been fully operational due to concerns from 
the Department of Justice over language used in the law to appoint 
members to the operating commission that potentially conflict with the 
appointments clause of the Constitution. The NPS and members of the 
Colorado delegation have been working for several years to reach an 
agreement on legislative language that meets the concerns laid out by 
the Department of Justice, preserves the regional administration of the 
area, and protects private property rights. S. 128 meets these goals.
    The most significant change in S. 128 is the management entity. It 
replaces a federally appointed advisory commission with a local 
501(c)(3) organization, the Poudre Heritage Alliance. Established in 
2002, this group has continued to lead the program, meeting regularly 
with the public, conducting research and developing the elements of the 
required management plan. The Alliance represents a broad spectrum of 
the area's residents, organizations, and agencies that were involved in 
the planning for the National Heritage Area.
    The NPS exercises limited oversight of national heritage areas. The 
current management of those areas is the responsibility of qualified 
management entities, with NPS providing financial and technical 
assistance to help with visitor education and planning if needed. Cache 
la Poudre, however, has received limited financial assistance, because 
of the problems in establishing a qualified management entity. NPS has 
provided some planning and research assistance over the past 10 years.
    S. 128 would extend the authority to receive financial assistance 
until 10 years after enactment of this bill. In most cases, that would 
raise concerns about postponing the time when the heritage area becomes 
self-sufficient. In this case, however, the previous delays in 
designating a qualified management entity have significantly limited 
both the progress in establishing the heritage area and the financial 
assistance provided. Over 10 years, NPS has provided approximately 
$340,000 in financial assistance to the Cache la Poudre River heritage 
area, which is less than one-tenth of what was provided to other 
heritage areas established at the same time.
    The bill also authorizes the development of a management plan 
within three years of enactment and authorizes the use of federal funds 
to develop and implement that plan. If the plan is not submitted within 
three years of enactment of this Act, the Heritage Area becomes 
ineligible for federal funding until a plan is submitted to the 
Secretary. Additionally, the Secretary may, at the request of the 
management entity, provide technical assistance and enter into 
cooperative agreements with other public and private entities.
    S. 128 contains safeguards to protect private property, including a 
prohibition on the use of federal funds to acquire property. The bill 
proposes no new restrictions with regard to private property rights and 
does not convey any water right or water restrictions to the federal 
government.
    S. 128 would also correct a number of errors in the original 
legislation. The first correction would be the proper spelling of the 
river, with a lower case ``l'' for Cache la Poudre. It replaces the 
original name of the heritage area from Cache La Poudre River Corridor 
to Cache la Poudre River National Heritage Area. It also replaces a 
listing of flood plain map references with a map developed specifically 
for the area.
    It appears that the amendments that the bill suggests to P. L. 104-
323 result in contradictory language regarding land acquisition within 
the heritage area. We would like to work with the Subcommittee to 
clarify this language and make it similar to other heritage areas.
    We also suggest including an additional requirement for an 
evaluation to be conducted by the Secretary, three years prior to the 
cessation of federal funding under this act. The evaluation would 
examine the accomplishments of the heritage area in meeting the goals 
of the management plan, analyze the leveraging and impact of 
investments to the heritage area, identify the critical components of 
the management structure and sustainability of the heritage area, and 
recommend what future role, if any, the NPS should have with respect to 
the heritage area.
    Lastly, legislative language regarding National Heritage Areas has 
evolved since 1996 when the Cache la Poudre Heritage Corridor was 
enacted. We recommend amending the bill further to make the amended act 
similar to other, more recent heritage area legislation. We would be 
happy to work with the Subcommittee to develop these amendments.
    Mr. Chairman that concludes my prepared remarks. I would be pleased 
to answer any questions you or other members of the Subcommittee may 
have.
                                 s. 697
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 697 to establish the Steel 
Industry National Historic Site in the State of Pennsylvania.
    The Department opposes enactment of this legislation.
    S. 697 would establish a unit of the National Park System 
comprising resources related to the former United States Steel 
Homestead Works in the boroughs of Munhall, Rankin, and Swissvale, 
Pennsylvania. The resources include the site of the Battle of 
Homestead, which is important to labor history in the United States, 
the remnants of the Carrie Furnace, and the Hot Metal Bridge connecting 
mill sites in Rankin and Munhall.
    The resources cited in the bill are representative of what was once 
a larger and historically important steel industry complex in the 
Pittsburgh region and the rise of the labor movement by steelworkers. 
The ``Homestead Lockout,'' is one of the seminal events in American 
Labor history. We believe the resources are worthy of preservation and 
have significant interpretive value to the people of the United States 
and to those who may visit the site from other nations. They enable 
visitors to understand the role of steel manufacturing in our nation's 
history and the manner in which labor and management interacted before 
and during a most important time in the development of organized labor 
in the United States. This is the place that enriched men such as 
Andrew Carnegie and J.P. Morgan, and in which immigrant workers and 
their descendents produced quality steel for U.S. and world markets.
    The National Park Service (NPS) completed a Special Resource Study 
involving these sites in 2002. The study concluded that the sites were 
not feasible to administer as a unit of the National Park System; that 
the site of the ``Homestead Lockout'' lacked integrity; and, that there 
was no need for NPS management. The configuration and condition of the 
resources--scattered sites in varying states of repair, uncertainty 
regarding the protection of the resource setting over time (e.g. the 
area adjacent to the Homestead Landing Site is now a shopping center), 
and significant improvement and operational costs exposure--led to the 
conclusion that the site did not meet criteria for designation as a 
unit of the National Park System. The costs associated with 
stabilization and rehabilitation of the Carrie Furnace and the 
Homestead Site, alone, were estimated in the study to be in excess of 
$14 million. With the addition of costs for exhibits and visitor 
services facilities, the total capital costs would rise to over 
$36,600,000.
    The study also concluded that a local management framework could 
adequately protect and manage these historic resources since they are 
all located within the Rivers of Steel National Heritage Area. Rather 
than establishing a unit of the National Park System, the study 
recommended that these and additional historically important resources, 
including properties in the Homestead National Register Historic 
District and the Bost Building (a National Historic Landmark and the 
site of union headquarters during the strike), be designated as an 
affiliated area of the National Park System. An affiliated area 
designation would suggest a significantly reduced federal contribution 
for capital and associated operational costs, while increasing the 
opportunities for a wider scale of resource protection measures and 
visitor experiences at nearby critically related resources. Local 
partners would contribute the larger share of costs for rehabilitation 
and interpretive facilities and services. The Bost Building, now owned 
and operated by the Steel Industry Heritage Corporation, the management 
entity for the Rivers of Steel National Heritage Area, would be the 
initial focal point of the affiliated area. We believe that an 
affiliated area status would permit a viable federal/local partnership 
for resource protection and enjoyment.
    Establishment of a national historic site, as an affiliated area, 
would include a wider array of relevant resources than proposed in S. 
697, without NPS ownership and management, but with technical and 
financial assistance, appears to be a better approach to protecting 
these resources for public education and enjoyment. This level of 
federal recognition and involvement could be a catalyst for greater 
local commitments and initiatives, and would serve to enhance public 
understanding, interest and appreciation of the roles of labor and 
management in the ``Big Steel'' era. We believe, based on the financial 
leveraging history of the Rivers of Steel National Heritage Area, that 
there is sufficient local capacity to contribute substantially to the 
preservation and interpretation of these resources.
    Mr. Chairman that concludes my statement and I am prepared to 
answer any questions that members of the subcommittee may wish to ask.
                                s. 1039
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the Department of the Interior's views on S. 1039 
a bill to extend the authorization for the New Jersey Coastal Heritage 
Trail Route for an additional four years.
    The Department supports enactment of this bill with two amendments.
    The Act of October 20, 1988 authorized the Secretary to designate a 
vehicular tour route in coastal New Jersey and to prepare an inventory 
of sites along the route. An interpretive program was also mandated to 
provide for public appreciation, education, understanding and enjoyment 
of important fish and wildlife habitats, geologic and geographical 
landforms, cultural resources, and migration routes in coastal New 
Jersey. The Secretary was authorized to provide technical assistance, 
prepare and distribute information, and erect signs along the route. 
The trail links national wildlife refuges, national parklands, National 
Historic Landmarks, and National Register sites with important historic 
communities, state parks, natural areas, and other resources to tell 
the story of New Jersey's role in shaping U.S. history and in providing 
internationally important habitats for bird and other migrations.
    The trail, an affiliated area of the National Park System, is a 
partnership among the National Park Service, the State of New Jersey, 
and many local government and private non-profit partners. Through 
interpretation of five themes (Maritime History, Coastal Habitats, 
Wildlife Migration, Relaxation & Inspiration, and Historic 
Settlements), the trail brings attention to important natural and 
cultural resources along coastal New Jersey. The trail demonstrates the 
potential of new public/private partnerships that allow the National 
Park Service to meet its core mission of natural and cultural resource 
preservation along with interpretation and public education in a cost-
efficient manner through technical assistance while reducing 
operational responsibilities. No federal funds are used for operations, 
maintenance, or repair of any road or related structure.
    Extending the authorization of the trail would enable the National 
Park Service to complete implementation of the trail plan, as supported 
by the public and our partners. Without additional time and funding, 
the New Jersey Coastal Heritage Trail Route will be left incomplete. 
Implementation of the plan is also critical in building a base of 
sustainable partners and developing a strategy for the long-term 
management of the trail. Additionally, commitments to trail partners 
would go unfulfilled, and many additional natural and cultural 
resources would not receive the partnership assistance leveraged by the 
trail.
    Public Law 109-338, the National Heritage Areas Act of 2006, 
reauthorized federal funding for the New Jersey Coastal Heritage Trail 
Route until September 30, 2007, while also requiring a strategic plan 
to be prepared by the Secretary three years after funds are made 
available. The current sunset date of September 30, 2007 does not 
provide adequate time to complete the preparation of the strategic 
plan. The strategic plan is an important tool to help the trail develop 
a long-term management strategy that includes a variety of options for 
sustainability of the trail. In order to carry out this provision, the 
authorization for federal funding for the trail should be extended to 
September 30, 2011, to match the time period for the completion and 
transmittal of the strategic plan.
    The Department recommends two amendments to the bill. First, we 
recommend that the long title of the bill be amended to use the 
generally accepted name of the trail, which is the New Jersey Coastal 
Heritage Trail Route. Second, the current authorization of 
appropriations for the New Jersey Coastal Heritage Trail Route is 
limited to the Secretary providing technical assistance and funds for 
the design and fabrication of interpretive materials, devices and 
signs. All federals funds under the enabling legislation require a non-
federal, one-to-one match. We recommend that S. 1039 be amended to 
authorize the Secretary to use federal funding to complete the 
strategic plan since the current authorization does not allow for funds 
to be used for this purpose.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.
                                s. 1476
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1476, a bill to conduct a special resources study of the Tule Lake 
Segregation Center in Modoc County, California, to determine the 
suitability and feasibility of establishing a unit of the National Park 
System.
    The Department supports this legislation with amendments described 
later in this statement. The study authorized by S. 1476 would provide 
the opportunity to evaluate options for preserving and interpreting the 
largest and most heavily guarded of the ten internment camps where 
Japanese American citizens from west coast states were forced to live 
during World War II under Executive Order 9066. However, the Department 
feels that priority should be given to the 37 previously authorized 
studies for potential units of the National Park System, potential new 
National Heritage Areas, and potential additions to the National Trails 
System and National Wild and Scenic River System that have not yet been 
transmitted to the Congress.
    Tule Lake, which housed more than 18,000 internees at its peak, was 
the only internment camp that was converted to a maximum-security 
segregation center for evacuees from all the relocation centers who 
resisted internment. It was the only camp that had its own jail. It had 
the most guard towers and the largest number of military police of any 
of the camps. During its operation, the center was the site of several 
acts of resistance and declarations of martial law and military 
control.
    The Tule Lake site features more surviving historic features and 
resources in original locations than all of the other former internment 
camps combined. The original jail structure is, for the former 
internees, the most significant symbol of internment anywhere in the 
United States. In 2006, the Secretary of the Interior designated 42 
acres of the Tule Lake Segregation Center as a National Historic 
Landmark. The designation confirmed the national significance of the 
site, one of the key criteria a resource must meet to be considered an 
appropriate candidate for establishment as a unit of the National Park 
System. The work done on the nomination for National Historic Landmark 
designation would provide a foundation for the study that would be 
authorized by S. 1476.
    The National Park Service administers two sites that were used as 
internment camps for Japanese Americans during World War II: Manzanar 
National Historic Site, in central California, which was authorized by 
Congress in 1992, and Minidoka Internment National Monument, in 
southern Idaho, which was established by presidential proclamation in 
2001. However, neither site has the unique historic resources or story 
that Tule Lake has as the only designated segregation center among the 
ten internment camps.
    The study would evaluate the site according to criteria provided by 
law to determine whether it is appropriate for addition to the National 
Park System, or whether it is better suited to protection by another 
entity. In carrying out the study, the National Park Service would work 
closely with the Bureau of Reclamation, the Bureau of Land Management, 
and the California Department of Transportation, which are the primary 
land managers, as well as private land owners in the area, local 
agencies, and groups interested in the preservation of Japanese 
American internment sites, including the Tule Lake Committee. The study 
would cost an estimated $150,000 to $200,000.
    S. 1476 provides for the study to be completed within one year 
after funds are made available for it. We recommend that the bill be 
amended to provide for the study to be completed within three years 
after funds are made available, which is the standard time frame for 
conducting special resource studies. We would also like to work with 
the committee to simplify the language of S. 1476 in several places.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions that you or other members of the committee might 
have.
                                s. 1808
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1808, a bill to authorize the 
exchange of exclusive use easements between the National Park Service 
and the Alaska Railroad within Denali National Park.
    The Department supports S. 1808.
    S. 1808 would authorize the Secretary of the Interior to convey to 
the Alaska Railroad (Railroad) an exclusive use easement to not more 
than 25 acres of land in exchange for the Railroad's relinquishment of 
an exclusive use easement of equal size to the federal government. The 
bill would limit the use of the easement conveyed to the Railroad to 
activities necessary for the operation of the railway. The bill would 
also require the Railroad to pay the costs associated with the 
exchange, including the costs for surveys and compliance with the 
National Environmental Policy Act (NEPA). To complete the exchange, the 
Alaska Legislature would have to approve any release of Railroad land 
interests as the Alaska Railroad is a state-owned corporation. The 
exchange would have to be carried out within five years after 
enactment.
    Both easements in question are located within Denali National Park 
on land owned by the federal government. The exchange of easements 
would not affect federal ownership of underlying lands. The easement 
conveyed to the Railroad would be used to build a train turn-around at 
Denali National Park. The easement relinquished by the Railroad would 
be managed in its natural state as part of Denali National Park. If it 
is adjacent to the Denali Wilderness, this bill would add the land to 
the wilderness.
    The Alaska Railroad provides passenger rail service from Whittier, 
Anchorage, and Fairbanks to Denali National Park. In 2005, the Alaska 
Railroad carried more than 260,000 passengers to Denali National Park. 
In 2006, that number rose to over 300,000. The Railroad's ability to 
manage this increasing traffic is limited by the lack of a turn-around 
at Denali. Under current conditions, trains carrying visitors from 
Anchorage to Denali must continue to Fairbanks. Trains traveling south 
from Fairbanks to Denali must likewise continue to Anchorage. To 
accommodate existing traffic, the Railroad concentrates passenger 
service into two trains to Denali per day, one in the morning and one 
in the afternoon. These trains average 20 coach cars in length and 
carry up to 1,500 passengers each. The arrival of so many visitors to 
the park at one time often causes congestion, crowding, and traffic. 
For example, visitors who travel by train to Denali Park Station must 
travel by bus to enter the park. The concentration of rail traffic 
results in two major ``pulses'' of buses that leave the park entrance 
and travel into the park each day.
    A turnaround would allow trains to run round trips from either 
Fairbanks or Anchorage to the park. It would offer the Railroad the 
ability to economically use smaller trains and to offer more trips to 
the park each day. This expanded schedule would, in turn, allow the 
park to smooth out the bus schedule and provide a less crowded 
experience for visitors.
    The lands that would be affected by this bill are within the 
boundary of Denali National Park and owned by the federal government. 
The Alaska Railroad Transfer Act of 1982 (45 U.S.C. Sections 1201-1214) 
conveyed to the state an exclusive use easement to the Railroad for the 
approximately 35 miles of track through park. This Act limited the use 
of the easement to activities necessary for the operation of the 
railway and mandated that the state operate the Railroad subject to 
laws and regulations for the protection of park values. S. 1808 would 
apply these same conditions to the easement it conveys to the Railroad.
    Although not specified in the bill, the proposed location of the 
turn-around is approximately four miles south of Denali Park Station on 
land that has been determined to be unsuitable for wilderness 
designation. The Railroad has identified four parcels of land that are 
of interest to the National Park Service.
    The National Park Service believes that full public involvement in 
the planning process should occur prior to deciding if a land exchange 
should occur. This would occur through the NEPA compliance that is 
provided for in the proposed legislation.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or the other members of the subcommittee may 
have.

    Senator Akaka. Thank you very much, Mr. Wenk.
    As I noted in my opening statement, most of these appear to 
be non-controversial. So I'd like to take a minute and focus on 
the bills that you raise concerns about.
    S. 148, Paterson Great Falls National Park, the proponents 
of S. 148, the Paterson Great Falls National Park Bill contend 
that the Park Service study is flawed. That many noted 
historians and scholars have criticized the Park Service's 
findings. Are you aware of these criticisms and do you have any 
comment to make on them?
    Mr. Wenk. Yes, we are. We're currently in the process where 
we're evaluating or looking at our responses to the public 
comments. We are aware of the opinions that have been generated 
by individuals from throughout the country. We are, that will 
be part of our response when we send the package up to Congress 
early in 2008.
    Senator Akaka. Your testimony notes that one of the Park 
Service concerns with S. 148 is that there are other sites in 
the National Park System that interpret similar themes, as the 
proposed Paterson Great Falls Park would. But isn't it common 
to have several parks that interpret related themes? If the 
resources at Paterson are nationally significant, as your 
testimony suggests, why is it a problem to add one more site to 
help tell these stories?
    Mr. Wenk. The question, certainly there are other sites. 
There's sites such as the Lowell National Historical Park, 
there's Slater's Mill within the John H. Chafee Blackstone 
River Valley National Heritage Corridor, that are protected as 
similar resources.
    I believe that we are looking at the cost that's associated 
with the site, the fact that there are limited resources for 
the protection of these areas. We think that the story of that 
era is adequately told in the other areas, and so that it is 
not necessary.
    It also has already been afforded protection by the State 
and local governments, for protection of the area.
    Senator Akaka. My next question concerns S. 697, the 
proposed Steel Industry National Historic Site. Is your primary 
concern that the site would be too expensive to administer or 
is it that the resources are not nationally significant and 
appropriate for National Park designation?
    Mr. Wenk. The Carrie Furnace area has been determined to 
have national significance, however the cost--one of the sites 
that was identified, the Bost Warehouse, that site is actually 
outside of the proposed boundary.
    The Homestead area, that area lacks integrity for 
consideration as part of the site.
    Having said that, the cost is a major component. Between 
the cost of rehabilitation and the interpretive work that would 
need to be done, we believe the cost would approach $40 million 
if this was determined to be a Historical Park.
    Senator Akaka. My next question is on S. 1341, the land 
exchange in southern Arizona.
    I understand that this bill primarily affects the Bureau of 
Land Management. But I wonder if you can clarify one issue. The 
bill requires the lands to be exchanged, to be of equal value 
as of the date of enactment. My understanding is that the 
standard valuation practice is to require the values to be 
equal at the time the lands are appraised. Does the Department 
have any concern with this provision?
    Mr. Wenk. I think you're correct, that is our position, 
that it is at the time of the appraisal. I think that is a 
correction that would need to be made to make it consistent 
with other exchanges that we have throughout the country. Thank 
you.
    Senator Akaka. My final question to you concerns S. 1808, 
the authorization for the land exchange between the National 
Park Service and the Alaska Railroad at Denali National Park.
    This bill requires the lands exchange to be on an equal 
acre basis, not equal value. Why is it appropriate to focus on 
acreage instead of value as is more typical for land exchanges?
    Mr. Wenk. This is all currently Federal land and these are 
easements that we're exchanging. So the exchange of the 
easement would, we believe is an appropriate equal--acreage 
would be an appropriate way to look at the exchange. We believe 
there's sufficient acreage and believe it's an appropriate 
thing to do to improve, both our ability to manage and the 
delivery of visitors to the Park.
    Senator Akaka. The bill doesn't specify which particular 
lands or easements are to be exchanged. Would it be appropriate 
to specifically identify in the bill the parcels to be 
exchanged?
    Mr. Wenk. We've not yet done the environmental analysis to 
look at all the various options that would be available for 
exchange. Until that is done, we do not know which parcels may 
be the best interest of the exchange for the public.
    Senator Akaka. Thank you very much, Mr. Wenk.
    Senator.
    Senator Burr. Thank you, Mr. Chairman.
    Senator Akaka. Senator Burr.
    Senator Burr. Welcome. I'll try to run through these as 
quick as I can.
    Paterson Great Falls Park--how many acres of the proposed 
area are in private ownership and how much will remain in 
private ownership, were it designated?
    Mr. Wenk. It's my understanding that there, that the only 
thing that would be looked at for Federal ownership would be 
those areas necessary for the administration. I can't give you 
a specific number. I know that we do not intend to acquire, we 
would only acquire land through willing sellers.
    Senator Burr. I get the impression that we've already got a 
Historic District Congressionally created. We're trying to 
rectify elsewhere in the country, in holdings that might exist. 
Wouldn't this go against the grain of what we're trying to 
rectify out there, were we to?
    Mr. Wenk. I believe that we're looking at this, the overall 
management of the site is one of the issues that we have in 
terms of the criteria, in terms of the feasibility of managing 
the site. So certainly, we are concerned about all aspects that 
would relate to difficulty with that management.
    Certainly we do try to eliminate in-holdings when we 
believe they're in parks across the country, when they're 
important to the overall management of the park area. I 
believe, as this is proposed, that I think about a third of the 
proposed National Historic Site would include a State park 
within the boundary of the park area, as it's proposed.
    Senator Burr. OK. The Keweenaw National Historic Park 
matching funds. Do you know how many parks we have that in 
their enacting legislation, provided for matching funds, based 
upon some leverage of private funds?
    Mr. Wenk. It's not uncommon, but I cannot give you the 
number. We can provide the number for you, I'm sure.
    Senator Burr. Let me ask you, and if you don't know the 
answer, would you get it back for us?
    Mr. Wenk. Sure.
    [The information follows:]

    The National Park Service does not know the exact number of parks 
whose enabling legislation requires matching federal funds with non-
federal funds. A few examples of parks that do have this requirement 
include Boston Harbor Islands National Recreation Area, in 
Massachusetts, that requires a 3:1 match of non-federal dollars to 
federal dollars, and New Bedford Whaling National Historical Park, also 
in Massachusetts, that requires a 3:1 match for cooperative agreements 
and a 1:1 match for visitor and interpretive facilities. The majority 
of park units do not require a non-federal match for operations.

    Senator Burr. Under the Centennial Fund, would that create 
an opportunity for this park, or any park that currently has 
matching funds, to then double dip?
    Mr. Wenk. Currently, we are not including land acquisition. 
The projects that were presented to Congress, in terms of the 
centennial challenge, I believe, about 200 different projects 
that we had certified eligible, none of those were land 
acquisition projects. We are looking at those separately to try 
and to determine the criteria that should be used. So I believe 
the answer is, we do not yet know on the land acquisition side, 
how we're going to look at the Centennial Challenge funds. 
That's something we're still developing.
    Senator Burr. Can I just throw that out as a cautionary 
note?
    Mr. Wenk. Yes.
    Senator Burr. It's one of the things, as we try to come to 
some finality on that legislation, that the intent here is not 
to create additional pots--it is to have a program leveraging 
private support with matching Federal support, which I embrace, 
wholeheartedly.
    The Steel Industry National Historic Site Designation. 
Clearly, I understand the cost that would be incurred of 
repairs to the structures. How many other National Heritage 
Areas or portions of such areas have been designated within the 
National Park System?
    Mr. Wenk. National Historic Heritage Areas, we have 37 that 
have been designated, to date. If you're asking me how many 
different park areas have been designated within those 
National----
    Senator Burr. As units?
    Mr. Wenk. Once again, I will have to get you that number, 
sir.
    Senator Burr. Thank you.
    Mr. Wenk. To give you, specifically.
    [The information follows:]

    Of the 37 National Heritage Areas, none are units of the National 
Park System. However, 28 contain within their boundaries, one or more 
units of the National Park System.

    Senator Burr. How many structures are there on this 
proposed site?
    Mr. Wenk. I'm sorry, I do not know the answer.
    Senator Burr. OK. Has a study been conducted to determine 
the suitability and feasibility of designating the site as a 
unit of the National Park System and if it was, what were those 
findings?
    Mr. Wenk. The Carrie Furnace site has been designated a 
National Historic Landmark, I believe, and that in itself gives 
it national significance.
    Excuse me for 1 minute.
    Yes, I'm sorry. There was study done. It was done in 2002 
and it determined that it did not meet the criteria for 
inclusion as a National Park Area.
    Senator Burr. Thank you. I'd be remiss if I didn't ask this 
last one, relative to the Alexander Hamilton Site Study at 
Virgin Islands. How many existing National Park Units currently 
interpret the life and contributions of Alexander Hamilton?
    Mr. Wenk. Certainly, the Hamilton Grange, his home, 
Independence in Philadelphia, Federal Hall in New York all have 
a significant interpretation, I believe, of Alexander Hamilton.
    Senator Burr. Do we know what it would cost to conduct the 
proposed study?
    Mr. Wenk. The study itself would probably cost around 
$200,000. We would look at about a 1-year period of time to 
complete it.
    Senator Burr. Great. Thank you.
    Senator Akaka. Thank you very much, Senator Burr.
    I want to thank you very much. I'm sorry.
    Senator Menendez, your questions?
    Senator Menendez. Thank you, Mr. Chairman. Thank you very 
much.
    Mr. Wenk, even though the hearing today is before the 
Senate bill, you're familiar that there is a House bill that 
has passed the committee, are you not?
    Mr. Wenk. Yes, I am familiar.
    Senator Menendez. In that House bill, it has been amended 
in various ways, rather significant ways. They eliminated a 
section allowing the NPS to exercise eminent domain. They 
streamlined the management and advisory committee. They changed 
the designation to a National Historical Park. They eliminated 
Hinchliffe Field, which you mentioned as one of your objections 
from the park because it was not studied. If those amendments 
were made to the pending Senate bill, would you still be in 
opposition to it?
    Mr. Wenk. Yes, we would. The questions of suitability and 
feasibility still remain on the criteria.
    Senator Menendez. All right. So you oppose the House bill 
that has passed the committee?
    Mr. Wenk. Yes.
    Senator Menendez. OK. That will likely pass the House of 
Representatives in full, shortly. All right.
    Let me ask you this. At an early stage of the Paterson's 
Great Falls study, the National Park Service launched a special 
web page devoted to the Paterson study. For all the years the 
study continued, the web page noted that the Administration, 
``Does not support addition of new units to the National Parks 
system.'' What effect did the Administration policy have on the 
Paterson study?
    Mr. Wenk. I guess I'm not able to quantify.
    Senator Menendez. But it had some effect, did it not?
    Mr. Wenk. I would--I'm not aware of any effect that it had 
on it.
    Senator Menendez. Why would you have put, during all of the 
period of time of the Paterson study, right on that web page 
where you were soliciting, supposedly, commentary and 
invitation during the comment period, that the Administration 
does not support addition of new units to the National Parks 
system. Doesn't that undermine the very essence of why we seek 
public comment? I tell people we, ``Well, the Administration 
doesn't want any more parks so----''
    Mr. Wenk. I believe the statement is made so that we are, 
we have not taken a position while we're in the study period.
    Senator Menendez. That's a very unique reason. Did you do 
that with every website that you put out?
    Mr. Wenk. I would have to check and see, sir.
    Senator Menendez. Would you answer that for the committee, 
please?
    Mr. Wenk. Yes, I will.
    [The information follows:]

    The message on the website was inadvertently placed there and once 
discovered, was immediately removed since it did not reflect current 
Departmental policies regarding new areas. I am unaware if this 
occurred on ony other Nationl Park Service websites during the study 
period. The National Park Service follows standard guidelines and 
requirements for conducting special resource studies as directed by 
Congress. Given the high number of public comments submitted in support 
of designation during the study period, it would seem that the message 
did not have an impact on public input.

    Senator Menendez. The Park Service published a draft of the 
Paterson Great Falls study for public comment in November 2005 
and invited the public to provide comments by January 30, 2006. 
It's astonishing to read the letters of some of the most 
distinguished scholars in America, characterize what the Park 
Service did in the Paterson study.
    Let me just use a few of their words. The use words like 
``misreads the historical record,'' ``seriously deficient,'' 
``demonstrably wrong,'' ``false,'' ``a serious misreading of 
the historical record.'' As a result of getting all these 
letters from leading scholars, what changes did the Park 
Service make in the draft study? Any?
    Mr. Wenk. I'm not aware of the specific changes. I do know 
that we're, at the present time, looking at all the public 
comments and that will be part of our transmittal to you early 
in 2008.
    Senator Menendez. But you haven't made any changes in the 
draft study, as a result of all those comments.
    Mr. Wenk. Those, the changes will be made in the subsequent 
document, sir.
    Senator Menendez. Now, the Park Service says that the 
Paterson, what Paterson represents is already covered elsewhere 
in the National Park System, in part because water, power, and 
industry are covered in Lowell National Historical Park.
    Let me read to you testimony that I think is before the 
committee, Mr. Chairman, from Eric DeLony, the former chief of 
the Historic American Engineering Record of the National Park 
Service, the U.S. Department of Interior. He says, ``The range 
of these works is unique in the nation.'' He goes on to say, 
``Paterson's varied and evolving nature of manufacturing also 
differentiates the area from other National Park System sites 
that deal with the discrete aspects of industry.
    Although Lowell serves a valuable role in the National 
Parks system as an example of the 19th century cotton industry, 
Paterson represents so much more. Paterson ventured into silk 
textiles as early as the 1830s, eventually becoming the largest 
silk producer in the world,'' not America, in the world, ``and 
making America a major force in international commerce.''
    It goes on to talk about it being a hub for non-textile 
manufacturing, the first revolving pistol assembled in 
Paterson, of the Colt gun mill. During the 19th and 20th 
century, Paterson playing a major role in producing forms of 
nearly every type of transportation, locomotives, submarines, 
bridges, the engine for the Spirit of Saint Louis, the B-17 
Flying Fortress of World War II. ``No other site,'' this is his 
testimony, ``in the National Park Service, not even those that 
illustrate the cultural theme of industry, comes close to the 
breadth of Paterson's story.''
    Now, how does that reconcile, you gave an answer to Senator 
Akaka about, this is taken care of by Lowell. That's seems to 
be a far different cry.
    Mr. Wenk. These are all, I understand the question. I 
understand the presentation of the differences between the two 
site areas. That is part of the things that we will be 
resolving as we're looking at the comments and as we transmit 
this to the Senate.
    Senator Menendez. Mr. Chairman, I have your indulgence for 
another 2 minutes?
    Senator Akaka. Yes.
    Senator Menendez. Thank you.
    Mr. Wenk, to suggest, when the Park Service says that what 
Paterson represents is already covered elsewhere, lies in 
Lowell. Would that mean that the Air and Space Museum would not 
have been built because of the Wright Brothers National 
Memorial at Kittyhawk?
    Mr. Wenk. I don't----
    Senator Menendez. Would that mean that the World War II 
Memorial would not have been built because the U.S.S. Arizona 
Memorial, where the Japanese attacked Pearl Harbor would have 
been ineligible?
    Mr. Wenk. I don't believe so.
    Senator Menendez. Finally, did not Governor Corzine write a 
letter to Secretary Kempthorne on September 11th of last year, 
that said, ``The State of New Jersey alone, can not, can not 
protect the resources of the Great Falls and properly present 
them to the public without an NPS unit in Paterson.''
    How is it that when you have a State that can't meet the 
wherewithal on its own to protect what you, yourself, as an 
agency says, has national historical significance--how can you 
conclude that the, how the study concluded the State would be 
doing, or including the fact that the State of New Jersey is 
willing to put down $10 million toward this? But that, in fact, 
it is unfeasible when the State is willing to put $10 million 
down? It doesn't have the money to achieve what your estimate 
is, but when the State puts $10 million down, I don't know how 
often you get those type of offers.
    Mr. Wenk. I would suggest we are--the offer is, while it's 
not unique, it's not common. I think that we're looking at it 
as a----
    Senator Menendez. It's a very significant park.
    Mr. Wenk. It is. We're looking at it as, the study 
recommends that we have a pathway to a future through an 
affiliated area, and that kind of an offer would coincide very 
directly with an affiliated area that we would work with the 
State to manage.
    Senator Menendez. Finally, Mr. Chairman, Mr. Zax who, I 
think, may offer testimony at some point today--but I want to, 
while I'm here, draw our attention to page 19 of, well this was 
a submission to Secretary Kempthorne.
    It says, ``The draft study clearly errs in concluding that 
Hamilton's economic vision as realized not by the SUM in 
Paterson, but by the Boston Associates in Lowell, and other New 
England mill towns.
    Hamilton worked to create an economy that would allow 
immigrants to share directly in America's boundless 
opportunities. Contrary to the draft study's strained argument, 
the Boston Associates--a group of wealthy Boston Brahmian 
families, connected through interlocking corporate directorates 
and marriage--never sought to achieve Hamilton's vision of 
opportunity for all. Unlike Hamilton, one of the most ardent 
opponents of slavery at the time, the Boston Associates played 
a role in attempting to quell the Northern anti-slavery 
crusade.''
    Now, these historians seem to me to have a far better grasp 
of why the Paterson Great Falls should be a National Park. It 
seems like the Park Service is way off base with this 
historical aspects of this.
    So, Mr. Chairman, I have a lot more which I will include 
for the record, with the Chair's permission, and also a series 
of questions for the Service. So, not to delay the committee 
any longer, but there is a very compelling side, and even the 
descendants of Aaron Burr, I know, believe in truth and 
justice, and will give us an opportunity for a fair hearing in 
the process.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you, Senator Menendez.
    Ranking Member Burr, do you have any further questions?
    Senator Burr. I don't think so.
    Senator Akaka. I want to thank you for your responses and 
we will see you again.
    So, at this point, I want to call the next panel, and ask 
them to take a seat at the witness table.
    The panel includes Mr. Tom Brooks, the Chief Engineer for 
the Alaska Railroad from Anchorage, Alaska and Mr. Augie 
Carlino, the President and CEO of the Steel Industry Heritage 
Corporation, from Homestead, Pennsylvania, and Mr. Leonard Zax, 
a partner with the Latham & Watkins law firm here in 
Washington, who is representing the New Jersey Community 
Development Corporation.
    I want you to know that we'll include your complete 
statements in the hearing record, and I'd ask each of you to 
please summarize your testimony, and limit your remarks to no 
more than 5 minutes.
    Mr. Brooks, will you please proceed?

  STATEMENT OF TOM BROOKS, ASSISTANT VICE PRESIDENT AND CHIEF 
            ENGINEER, ALASKA RAILROAD, ANCHORAGE, AK

    Mr. Brooks. Thank you, Mr. Chairman and members of the 
subcommittee for the opportunity to speak to you today, on 
behalf of the Alaska Railroads.
    My name is Tom Brooks, and I'm the Assistant Vice 
President, and Chief Engineer with the Alaska Railroad. The 
Alaska Railroad is a State-owned railroad, carrying both 
passengers and freight. It was originally built, and operated, 
by the U.S. Government in the early 1900s through the enabling 
statute adopted by Congress in 1914.
    It was sold to the State of Alaska in January 1985. The 
500-mile long mainline runs from the South-Central city of 
Seward, to the interior city of Fairbanks, as the enabling act 
required. The Alaska Railroad carried over a half a million 
passengers in 2006.
    The Alaska Railroad provides passenger service to Denali 
National Park through S. 1808. The bill being considered at 
this hearing, the Alaska Railroad with the help of Senator 
Murkowski, seeks to exchange up to 25 acres of Denali National 
Park land for an equal amount of Alaska Railroad land, in order 
to build a turnaround for our trains. The formerly Alaska 
Railroad land given to the National Park Service would be 
designated as wilderness lands.
    The Alaska Railroad has been carrying passengers to this 
National Park since the early 1920s, long before rail access to 
our National Parks came into vogue. The number of rail 
passengers to Denali National Park has been increasing each 
year, and in 2001 about 200,000 passengers used the Denali rail 
station, and in 2006, the number grew to over 300,000.
    The Alaska Railroad has accommodated this growth by adding 
additional direct trains, however, the options to improve 
service further are limited because our trains can not be 
turned around.
    The existence of a turnaround track, known as a wide track, 
in Denali would allow more frequent trains and more flexible 
rail schedules, thus accommodating the continued growth and 
development of rail access to the Park.
    There was originally a turnaround track at the Denali rail 
station, which was too short for modern train lengths, and thus 
with Railroad concurrence, converted to Park Service use in the 
1980s.
    Besides enhancing visitor access options, there are other 
public benefits of a turnaround track at the Park. The rail 
mode of transportation offers less highway congestions, 
improved public safety, and less environmental impact than the 
highway alternative. Improved access to Park land through 
public transportation is a national policy goal, as evidenced 
by the Department of Transportation's Transit in the Parks 
Program, created by Congress in 2005.
    The National Park Service and the Alaska region of the 
National Parks Conservation Association both support the land 
exchanges described in the bill. The Association has written a 
letter of support, which I will submit for the record, and we 
are pleased that there is a companion bill in the other body.
    Thus, S. 1808 is a win-win for the Alaska Railroad, the 
National Park Service and the hundreds of thousands of visitors 
who would benefit from access to our Nation's treasured Denali 
National Park.
    Thank you for the opportunity to appear before the 
committee today, and I'll be happy to answer any questions the 
committee might have.
    [The prepared statement of Mr. Brooks follows:]
 Prepared Statement of Tom Brooks, Assistant Vice President and Chief 
          Engineer, Alaska Railroad, Anchorage, AK, on S. 1808
    Thank you, Mr. Chairman and members of the subcommittee, for your 
invitation to speak with you today on behalf of the Alaska Railroad. My 
name is Tom Brooks, and I am Assistant Vice President and Chief 
Engineer at the Alaska Railroad.
    The Alaska Railroad is a State-owned railroad carrying both 
passengers and freight. The Alaska Railroad was originally built and 
operated by the U.S. Government in the early 1900's through the 
enabling statute adopted by the U.S. Congress in 1914. It was sold to 
the State of Alaska in January 1985. The 500-mile-long mainline runs 
from the south central city of Seward to the interior city of Fairbanks 
as the enabling act required. The Alaska Railroad carried over a half-
million passengers in 2006.
    The Alaska Railroad provides passenger service to Denali National 
Park. Through S. 1808, the bill being considered at this hearing, the 
Alaska Railroad, with the help of Senator Murkowski, seeks to exchange 
up to 25 acres of Denali National Park land for an equal amount of 
Alaska Railroad land, in order to build a turnaround for our trains. 
The formerly Alaska Railroad land given to the National Park Service 
would be designated as wilderness lands.
    The Alaska Railroad has been carrying passengers to this national 
park since the early 1920s, long before rail access into our national 
parks came into vogue. The number of rail passengers to Denali National 
Park has been increasing each year. In 2001, 198,737 passengers used 
the Denali Park Rail Station, and in 2006 that number grew to 303,741 
passengers. The Alaska Railroad has accommodated this growth by adding 
additional direct trains; however, the options to improve service are 
limited because trains cannot be turned around. The existence of a 
turnaround track, known as a ``wye track,'' at Denali would allow more 
frequent trains and more flexible rail schedules, thus accommodating 
the continued growth and development of rail access to Denali Park. 
There was originally a turnaround track at the Denali Rail Station, 
which was too short for modern train lengths and thus, with Railroad 
concurrence, converted to Park Service use in the 1980s.
    Besides enhancing visitor access options, there are other public 
benefits of a turnaround track at Denali National Park. The rail mode 
of transportation offers less highway traffic congestion, improved 
public safety, and less environmental impact than the highway 
alternative. Improved access to parkland through public transportation 
is a national policy goal, as evidenced by the Department of 
Transportation's Transit in the Parks program created by Congress in 
2005.
    The National Park Service and the Alaska Region of the National 
Parks Conservation Association both support the land exchange as 
described in the bill. The Association has written a letter of support, 
which I will submit for the record. We are also pleased that there is a 
companion bill in the other body.
    S. 1808 is thus a win-win for the Alaska Railroad, the National 
Park Service and the hundreds of thousands of visitors that would 
benefit from access to our nation's treasured Denali National Park.
    Thank you for the opportunity to appear before the Committee today. 
I will be happy to answer any questions the Committee might have.

    Senator Akaka. Thank you very much.
    Now we'll hear from August Carlino.

   STATEMENT OF AUGUST R. CARLINO, CEO AND PRESIDENT, STEEL 
          INDUSTRY HERITAGE CORPORATION, HOMESTEAD, PA

    Mr. Carlino. Mr. Chairman, good afternoon. Thank you for 
inviting me here to testify on S. 697, the Steel Industry 
National Historic Site Act.
    I've submitted my testimony for the record, and I won't go 
into the detailed history of the significance of Homestead 
Works Steel Mill, that's outlined in my testimony, has been 
written about by scholars, worldwide.
    I will tell you that this bill is strongly supported by the 
Pennsylvania delegation, and I'm grateful to our two Senators, 
Senator Specter, for his long support, and Senator Bob Casey 
for his support, as well.
    This effort dates back to try and designate portions of the 
Homestead Works as a National Park Service, actually, to 
Senator John Heinz when he was a member of this esteemed body. 
This effort has taken almost 20 years to get to this point, and 
I'm grateful for the committee for having a hearing here today 
on the bill.
    I would just go off-track a little bit from my written 
testimony and summary, and say to you that I think Senator 
Menendez from New Jersey has uncovered some serious problems 
with the way feasibility studies and suitability studies are 
conducted, particularly with relationship to industrial sites, 
that can create contradictory findings.
    I won't profess to know everything that my colleague 
sitting next to me knows about Paterson, but as a person who 
has worked in Homestead for almost 20 years, and has studied 
it, I will tell you that the suitability and feasibility and 
the Special Resource Study is flawed when the process starts--
as the Senator pointed out--with the statement that, ``We will 
not create any new National Parks.''
    When that is the determined outcome at the beginning of a 
Special Resource Study, the results are basically predictable 
as to what you would get, and that is a recommendation that 
comes out--for which Homestead's did--of not recommending it as 
a National Historic Site, a unit of the National Park Service.
    In fact, as we went through the National Historic Landmark 
process to nominate the Carrie blast furnaces in the Battle of 
Homestead Site, two very interesting scenarios came up. We were 
planning to submit the whole National Historic Landmark Study 
as one basic application, but we were advised by the Park 
Service to split the properties up into three, one of which 
included the blast furnace, one of which included the battle 
site, and the other which included the Boast Building, which 
was the headquarter for the Union in 1892, during the strike.
    The Boast Building was designated, the Carrie Furnace 
National Historic Landmark, was basically stonewalled, and the 
battle site was rejected. Rejected not because it lacked 
integrity--because it's all there--the landing site is there, 
the war facility is there, the building that existed at the 
time of 1892 that was the command battle site was there.
    What caused the integrity problem was that a building 
identical to the pump house was added onto it in 1896. As steel 
mills would do--they were in expansion mode at that point--to 
build the United States.
    So, the new building, which didn't date to 1892, but was 
identical in specifications, was added to it. I offered that 
there was a simple solution to it--not that I would propose 
doing it--but we could have torn down that 1896 building, and 
met, then, the historic standards. None of the Park Service 
historians in the room supported that.
    They also asked us to do a Special Resource Study of 
national view, in order to support the Carrie Furnace 
contentions we were making in the landmark study. Our 
Congressman, Mike Doyle, had a meeting with Park Service 
administration, and suggested that wasn't our responsibility, 
it was the Park Service's responsibility to do so.
    So they set out on a National Historic Context Study, to 
determine if the application that we submitted for a National 
Historic Landmark was actually true. If came in stronger in 
recommendation for Homestead and Carrie Furnaces than our own 
application was submitted, and it is what allowed, I believe, 
Carrie Furnaces to be designated in 2005 as a National Historic 
Landmark.
    Senator, and members of the committee I will say this--
there are other places where you can interpret steel history, 
just as there are other places in the system of the National 
Parks that you can interpret, for example, Civil War history. 
But, if you interpret those sites of steel history without 
Homestead, it would be like interpreting the history of steel 
without--or the history of the Civil War without Gettysburg. 
That's how significant this site is.
    If it is not designated, these resources will be lost. 
There is no capacity, locally, for long-term management. The 
other contradictory part of the Park Service testimony is, they 
suggest that we have the opportunity for long-term management, 
and yet just two or 3 months ago, they were here before this 
committee testifying against our reauthorization.
    This is truly a rare industrial resource that, if it is 
lost, it will be gone forever, and the story of that element of 
America's rise of industrial might as it's related to steel 
will not be able to be told anywhere else in this country. I 
implore you to consider this bill for your approval.
    Thank you for your time.
    [The prepared statement of Mr. Carlino follows:]
   Prepared Statement of August R. Carlino, CEO and President, Steel 
        Industry Heritage Corporation, Homestead, PA, on S. 697
    Mr. Chairman and other distinguished members of the subcommittee, 
my name is August R. Carlino and I am President and Chief Executive 
Officer of the Steel Industry Heritage Corporation. The Steel Industry 
Heritage Corporation (SIHC) is a non-profit heritage tourism and 
economic development organization based in Homestead, Pennsylvania. 
SIHC is the management entity for the Rivers of Steel National Heritage 
Area, one of 37 National Heritage Areas designated by Congress.
    Thank you for inviting me to testify today before the Subcommittee 
on National Parks on S. 697, the Steel Industry National Historic Site 
Act. I am grateful to Senator Arlen Specter and Senator Robert Casey 
for their willingness to sponsor, and support, this legislation you are 
considering today.
    The Steel Industry National Historic Site Act has had a very long 
life, and has been introduced and re-introduced many times over the 
past several Congresses. In fact, the consideration of a National 
Historic Site for the properties included in S. 697 dates back to the 
late 1980s, as the permanent closure and dismantling of many of the 
steel mills in the Pittsburgh Industrial District began to occur. At 
that time in Pittsburgh, civic, corporate, labor and community groups 
realized the demolition of mills would cause a lasting change to the 
region's socio-economic landscape and have national implications. It 
was their vision to preserve a part of a steel mill to tell the story 
of Pittsburgh's steel-making history to the nation.
    During the late 19th and 20th centuries, the Pittsburgh region was 
the world's leading producer of iron and steel. The region's proximity 
to raw materials, ease of shipping and abundant capital wealth and 
labor encouraged the construction of huge integrated production 
facilities, bordered by supporting manufacturing facilities, coal 
mines, coking ovens, machine shop and foundries, all of which were 
linked by an expanse of railroads. This and the Allegheny, Monongahela 
and Ohio rivers made it the center of the nation's iron and steel 
industry. The centerpiece of this industrial complex was the U.S. Steel 
Homestead Works, located on the shores of the Monongahela River just 
upstream from the City of Pittsburgh. It was the closing of this mill 
in 1984 which sparked a regional effort to save its most significant 
features and to pursue its designation as a unit of the National Park 
System.
    The Homestead Works, which date back to Andrew Carnegie, has a 
storied and turbulent history. Built in 1906-1907, the Carrie Blast 
Furnaces enabled the Homestead Works to become the largest producer of 
iron and steel in the world. The Furnace's output of iron often set 
production records with each shift, and helped set the daily commodity 
price for steel. By the end of World War II, Carrie Blast Furnaces 6 
and 7, located on the northern shore of the Monongahela River in the 
Boroughs of Swissvale and Rankin, were each producing between 900 and 
1,000 tons of iron daily, or between 300,000 and 350,000 tons of iron 
each year per furnace. Iron from the furnaces was made into steel on 
the southern side of the mill, transported from the furnace complex to 
the steel mill side across the Rankin Hot Metal Bridge. On the southern 
shore in the Boroughs of Homestead, West Homestead, Munhall and 
Whitaker, the massive mill complex of the Homestead Works made the 
steel that went into many of America's and the world's most prominent 
structures including the Panama Canal lock gates, the George Washington 
Bridge, the Empire State Building, the Chrysler Building, Rockefeller 
Tower, the Sears Tower, the Golden Gate Bridge and the United Nations 
Building. Additionally, Homestead was the center of armament production 
for the United States during both world wars, turning out armor plate, 
munitions, weapons and steel for America's war needs.
    Of all the remaining blast furnaces nationwide, Carrie 6 and 7 have 
the greatest concentration of pre-World War II equipment. The facility 
was the cornerstone of the Pittsburgh Industrial District, a sprawling 
interconnected mosaic of mills, mines, aluminum and glass factories, 
machine shops, foundries, railroad, and river barge facilities that 
stretched more than 150 linear miles along the shores of the region's 
rivers.
    The proposed National Historic Site in S. 697 also includes the 
Pump House and Water Tower, a five-acre site situated within the 
Homestead Works in Munhall Borough, directly across the river from the 
Carrie Furnaces. It was at this site, a river landing within the 
Homestead Works for off-loading of materials, that the infamous Battle 
of Homestead occurred between Pinkerton Guards and striking steel 
workers who had been locked out of the mill. This battle, which took 
place on July 6, 1892, was a pivotal moment in United States labor-
management history. As much as it is studied today, the consequences of 
that day still has ramifications in labor relations in the U.S., and is 
viewed as hallowed ground by organized labor and the community for the 
lives that were lost there. The dramatic events of that lockout and 
battle, are ``among the most famous of American history'' and a 
``savage and significant'' story, according to labor historian Paul 
Krause. At the root of the battle in 1892 was Carnegie, with his 
determination at any cost to drive down wages through modernization and 
technology advancements in iron and steel production, matched against 
the might and strength of the most powerful union remaining in the 
steel industry, the Amalgamated Association of Iron and Steelworkers, 
who desired to protect wages and jobs as the mill's and the steel 
industry's production processes advanced.
    Individually, these sites would warrant some form of protection and 
preservation as they represent significant elements of America's 
industrial legacy. Collectively and when linked by the Rankin Hot Metal 
Bridge, the Battle of Homestead site and the Carrie Furnaces are 
monuments of national significance which tell a story of America's rise 
as the world's greatest industrial and economic power. This is a story 
that cannot be told or interpreted anywhere else in the United States, 
and the reason why S. 697 proposes the creation of a National Historic 
Site for the properties.
    In the early 1990s, this fact was recognized by the late Senator 
John Heinz. Through his efforts, feasibility plans and studies were 
conducted by the National Park Service and the Pennsylvania Historical 
and Museum Commission to determine what properties of the closed 
Homestead mill needed to be saved from demolition, and how those saved 
sites might be preserved and interpreted. While his death was 
unfortunate, the project moved forward with strong leadership and 
legislative sponsorship from Senator Specter and Congressman Mike 
Doyle. The support for S. 697 is widespread, including past funding for 
planning and development, and the potential for substantial capital 
funding from the Commonwealth of Pennsylvania, the many Pittsburgh-
based foundations, and a planned capital campaign to be conducted by 
the Steel Industry Heritage Corporation, chaired by top executives of 
the U.S. Steel Corporation and the United Steel Workers of America.
    Local governments have also committed to the long-term preservation 
of these resources, as Allegheny County has purchased the Blast Furnace 
complex and its surrounding 130-plus acres with plans of revitalizing 
the brownfield into a modern mixed-use industrial and commercial 
complex with the proposed National Historic Site as the anchor for the 
redevelopment project. The Rankin Hot Metal Bridge will serve as an 
interpretive link between the iron and steel sides of the mill, and as 
transportation link between the two sides, as both a roadway and a 
connector in the soon-to-be-completed rail-trail, the Great Allegheny 
Passage, which will connect Pittsburgh with Washington, DC by 2010.
    The properties included within S. 697, the Steel Industry National 
Historic Site Act, represent a rare, if not the only, opportunity to 
preserve one of the nation's most significant industrial complexes. 
Homestead's association with steel making, labor organizing, great 
American capitalists like Andrew Carnegie and Henry Clay Frick, and its 
extant working-class communities with ancestries rooted in Eastern, 
Southern European and African American traditions, present the 
opportunity to develop a National Historic Site that tells a part of 
the story of America that is unrepresented in the National Park System 
today. All of the partners, both public and private, have diligently, 
at times doggedly, worked to get to the point we are at here today--
this esteemed body's consideration of the legislation that would 
preserve Homestead's legacy for future generations in the world's most 
premiere historical conservation institution, the National Park System. 
I urge your favorable consideration of S. 697, and I am happy to answer 
any questions you might have.
    Thank you for your consideration of this important legislation.

    Senator Akaka. Thank you very much, Mr. Carlino.
    Now we'll hear from Mr. Zax.

STATEMENT OF LEONARD A. ZAX, PARTNER, LATHAM & WATKINS, LLP, ON 
   BEHALF OF THE NEW JERSEY COMMUNITY DEVELOPMENT CORPORATION

    Mr. Zax. Thank you, Chairman Akaka, and Ranking Member 
Burr.
    On behalf of the New Jersey Community Development 
Corporation, I am honored to testify in support of the Paterson 
National Park legislation. My colleagues in my New Jersey and 
Washington offices and I take special pride in our pro bono 
work for New Jersey Community Development Corporation, a 
private non-profit corporation, whose mission is to improve the 
quality of life for low and moderate-income citizens.
    NJCDC joins many national organizations, including the 
National Trust for Historic Preservation, the National Parks 
Conservation Association, the NAACP, and the Sierra Club, that 
urge the creation of the Paterson National Park.
    Also supporting the Paterson National Park are former 
Cabinet member who served in the Administrations of Presidents 
Gerald R. Ford, Ronald Reagan, George H.W. Bush, Bill Clinton, 
and George W. Bush.
    Local and National newspapers have published many 
editorials that support making the Paterson Great Falls 
National Historic District a part of the National Park System. 
The New York Times just published its third editorial, this one 
referencing the hearing today, in urging Congress to create 
this National Park.
    The Paterson Great Falls is the place that Alexander 
Hamilton selected to begin to attain two quintessential 
American goals. First, to achieve economic independence and 
second, to launch the American dream. At the Great Falls, 
Hamilton began to create an economy requiring not slavery, but 
freedom, rewarding not social status, but hard work, and 
promoting not discrimination against some, but opportunities 
for all.
    He outlined these goals in his great State paper delivered 
to the Congress, the Report on Manufacturers, explaining that 
the United States must produce its own goods to avoid 
dependence on foreign products, particularly for military 
supplies.
    His report specifically refers to his plan to create the 
city of Paterson to begin implementing his strategy. He was not 
content to have, simply, a theoretical treaty to deliver to the 
Congress, he wanted to show how it could be done. How, through 
the spirit of imitation, other cities, some 25 and 30 years 
late, like Lowell, could begin to implement similar plans 
involving different individual manufacturing enterprises.
    Following Hamilton's plan for Paterson, the city became a 
great manufacturing city. Paterson factories produced the first 
sail cloth, a new form of cotton cloth that would not mildew, 
for every ship in the American Navy. The first Colt revolvers 
and the first motorized submarine. Famed products of the plants 
of Paterson, eluded to briefly, include the aircraft engines 
for the Spirit of Saint Louis, for many World War II bombers, 
and for the Enola Gay that dropped the bomb that ended the war.
    Hamilton created opportunities for all in Paterson, and 
that was a radical thing to suggest and try to achieve in his 
day. Hamilton worked to create an economy in Paterson, driven 
by the labor of free men and women, rather than slaves, in a 
society that rewarded hard work, rather than inherited 
privilege.
    The testimony of scholars submitted to this committee 
sharply criticized the Park Service study. I'll say only in my 
limited time, and expand for the record, that this Park Service 
draft study distorts and ignores crucial evidence of Paterson's 
role in American history, violates the Park Service's own 
policies, and makes unsubstantiated conclusions in the face of 
direct and compelling evidence presented by distinguished 
scholars to the contrary.
    More that 30 million citizens live within a 3-hour drive of 
the Paterson Great Falls. Many citizens who feel little or no 
connection with our National Parks and the Founding Fathers 
will find much greater meaning within Paterson's authenticity 
and diversity. That is just one reason why support for the 
Paterson National Park continues to grow.
    Hispanic and African-American, Muslim and Jewish, Catholic, 
and Baptist citizens support a National Historical Park in 
Paterson. Corporate executives and laborers, environmentalists 
and property right advocates, bankers and community activist, 
scholars and school children, historic preservationists and 
developers, and I will add, Republicans and Democrats support 
this cause. Only the Administration now opposes it.
    I have never in my 30-some years working in housing and 
community development efforts around the country, seen a 
project that enjoys this breadth and depth of public support. 
So we urge you to support this legislation, to create the 
Paterson Great Falls National Park.
    [The prepared statement of Mr. Zax follows:]
 Prepared Statement of Leonard A. Zax, Partner, Latham & Watkins, LLP, 
     on Behalf of the New Jersey Community Development Corporation
    Chairman Akaka and Senator Burr: On behalf of the New Jersey 
Community Development Corporation (NJCDC), I am honored to testify in 
support of the Paterson National Historical Park legislation. My 
colleagues in our firm's New Jersey and Washington offices and I take 
special pride in our pro bono work for NJCDC, a private nonprofit 
organization whose mission is to improve the quality of life for 
Paterson's citizens.
    NJCDC joins many national organizations--including the National 
Trust for Historic Preservation, National Parks Conservation 
Association, NAACP, and the Sierra Club--that support the Paterson 
National Historical Park. Also supporting a Paterson National 
Historical Park are former Cabinet members who served in the 
Administrations of Presidents Gerald R. Ford, Ronald Reagan, George 
H.W. Bush, Bill Clinton, and George W. Bush. (Exhibit 1 lists 
supporters.)*
---------------------------------------------------------------------------
    * Exhibits 1-3 have been retained in subcommittee files.
---------------------------------------------------------------------------
    Leading newspapers have published many editorials that support 
making the Paterson Great Falls National Historic District a part of 
the National Park System. The New York Times just published its third 
editorial endorsing the park.
    The list of individual supporters includes the preeminent Hamilton 
biographers of our time, renowned former Smithsonian curators, the 
former chief of the National Park Service Historic American Engineering 
Record, professors at every university in the Ivy League, N.Y.U., Duke, 
Williams--and at state universities from Massachusetts to Michigan and 
Arizona.
    Three generations of my family came of age in Paterson during the 
twentieth century. My grandparents settled in Paterson in the early 
1900s, coming to America from Eastern Europe to seek freedom and 
opportunities. One of my grandfathers worked in a silk mill at a time 
that Paterson was known throughout the world as the Silk City. My other 
grandfather built modest housing for immigrant families, including his 
own--and also including Senator Lautenberg's family. My father, a 
lawyer who chaired the local bar association committee on immigration, 
for many years presented a copy of the Bill of Rights to new citizens 
who left other countries and came to Paterson seeking a better life for 
their families.
            alexander hamilton and the paterson great falls
    At the Great Falls in Paterson, Alexander Hamilton began 
implementation of his far-reaching plan to achieve the economic 
independence that secured America's future and launched the American 
dream.
    At the Great Falls Hamilton began to create an economy requiring 
not slavery but freedom, rewarding not social status but hard work, and 
promoting not discrimination against some but opportunities for all.
    On a special Bicentennial visit to Paterson, President Gerald R. 
Ford proclaimed the unique place of the Paterson Great Falls in 
American history:

          The industrial history of the Great Falls goes back to the 
        very first years of our United States, and this engineering 
        achievement embodied our most basic political and economic 
        goals--independence and prosperity.

    In 1792 Hamilton announced to Congress and the American people that 
at the Great Falls in New Jersey he would found the City of Paterson as 
the first major step in his ambitious plan to secure the new nation's 
economic independence and begin transforming a rural agrarian society 
based in slavery into a modern economy based in freedom.
    Though today we often take America's economic power and liberties 
as given, in Hamilton's time neither was guaranteed. Political 
independence proclaimed by the Declaration of Independence and won in 
the Revolutionary War did not secure economic independence. Long after 
the British surrendered, America remained heavily dependent on England 
for virtually everything from clothing to military supplies.
    Hamilton believed that political independence was only the first 
step toward achieving economic independence. He wrote that America 
would never be free from Britain, nor from any other foreign oppressor, 
so long as our nation remained dependent on foreign manufacturers.
    Hamilton alone among America's Founders championed the spirit of 
enterprise and opportunity that would transform a Third World nation 
into the greatest economic power ever known.
            paterson great falls national historic district
    Although Hamilton's economic and political legacy is now secure, 
the fate of the Paterson Great Falls Historic District--so central to 
that legacy--is much less certain.
    More than 25 distinguished historians, city planners, and historic 
preservation experts have analyzed the unique resources and narratives 
that a national historical park in Paterson would add to the National 
Park System.
    These scholars conclude:

          (1) Hamilton's vision of economic independence and economic 
        opportunity is a critical theme of American history not 
        adequately represented in the National Park System or anywhere 
        in the United States.
          (2) The Paterson Great Falls National Historic District is 
        the best place to present and interpret Hamilton's vision of 
        economic independence and of economic opportunity for all 
        Americans.
          unique combination of natural and cultural resources
    The Great Falls provides not only stunning natural beauty for a 
National Park Service unit in Paterson. All of the members of the New 
Jersey Congressional Delegation point out in a letter to the Secretary 
of the Interior that ``New Jersey's Great Falls is the only National 
Historic District that includes both a National Natural Landmark and a 
National Historic Landmark.'' (Exhibit 2)
    And the National Parks Conservation Association points out, ``No 
other natural wonder in America has played a more important role in our 
nation's historic quest for freedom and prosperity.'' (Exhibit 3)
    During the Revolutionary War, Hamilton met with the Marquis de 
Lafayette and George Washington at the Great Falls, where General 
Washington established his headquarters for a time. After the war, 
Hamilton chose to begin implementing his industrial plan at the Great 
Falls to use the awesome force of the Great Falls to provide power for 
future factories. Hamilton commissioned Pierre L'Enfant--who had just 
completed the plan for Washington, D.C.--to design an unprecedented 
water power system in Paterson.
    As the President of the National Trust for Historic Preservation, 
Richard Moe, writes in a letter to the Director of the National Park 
Service, ``Scholars have concluded that Pierre L'Enfant's innovative 
waterpower system at the Great Falls--and many factories built later--
constitute the finest remaining collection of engineering and 
architectural works representing each stage of America's progress from 
Hamilton's time to the twentieth century.''
    L'Enfant's water power system in Paterson is the only one in 
America that is directly linked to the Founding Father who set America 
on the path of its industrial development. The Great Falls was central 
to Hamilton's plan for a nation whose security would be bolstered by 
its economic independence, and whose modern economy would provide 
opportunities for immigrants.
    The distinguished former Smithsonian curator Robert Vogel writes:

          Paterson is the one place in America where it is possible 
        directly to connect the 18th century vision of a great 
        manufacturing nation, articulated by one of our Founding 
        Fathers, with the actual fruits of that vision in the following 
        centuries.
          Paterson's Great Falls Historic District includes a 
        combination of natural resources and buildings not represented 
        anywhere else in America. In Paterson there is a Pantheon of 
        important historical events in American industry: the Great 
        Falls that inspired Hamilton, the L'Enfant plan of hydraulic 
        raceways harnessing the power of a major river, the initial 
        Colt Revolver plant, the Holland submarine, the greatest 
        grouping of locomotive builders in America, and the largest 
        silk-producing center in the world.
                     hamilton's success in paterson
    Hamilton's vision of an economically independent America with 
opportunities for all succeeded in Paterson before any other place in 
America.
    Ron Chernow, author of the acclaimed biography of Alexander 
Hamilton, explains that Paterson ``became the home for this industrial 
laboratory, this futuristic city, this model of what America could 
be.''
    Hamilton wrote the charter for the Society for the Establishment of 
Useful Manufactures (S.U.M.), the first corporation in New Jersey. 
Because Hamilton recognized that the S.U.M. likely would suffer losses 
in its first manufacturing experiments, Hamilton's charter endowed the 
S.U.M. with broad powers to continue encouraging industries in Paterson 
through successive generations and economic cycles.
    Harvard University Professor Joseph Stancliffe Davis wrote in the 
definitive history of the S.U.M. that ``the Society's stock became a 
highly profitable investment.'' Professor Davis wrote in 1917 that the 
S.U.M. ``is one of the very few companies of the time to survive the 
vicissitudes of a century and maintain an unbroken existence down to 
the present day.''
    Over one hundred and fifty years after Hamilton founded the City, 
the WPA Federal Writers Project concluded that Paterson ``is one of the 
few American cities that have turned out almost exactly as they were 
planned.''
   hamilton achieved economic independence with paterson manufactures
    Hamilton wrote the Report on Manufactures, his great report to the 
Congress in 1791 explaining that the United States must produce its own 
goods to avoid dependence on foreign products, particularly for 
military supplies.
    In the first decades of the nineteenth century, John Colt, Deputy 
Director of the S.U.M. in Paterson, invented a form of cotton cloth 
that did not mildew and contributed to America's military self-
sufficiency by manufacturing the sailcloth for every ship in the United 
States Navy. Samuel Colt invented and first manufactured the Colt 
revolver in Paterson.
    Paterson was the birthplace of the world's first motorized 
submarine, and the City's role in the forefront of manufacturing for 
war and peace would continue well into the twentieth century. 
Paterson's factories produced nearly 140,000 aircraft engines, 
surpassing all other American cities. During World War II, Jimmy 
Doolittle raided Tokyo in daylight in planes powered by engines made in 
Paterson, and the Enola Gay bomber ended the war on a flight with 
Paterson engines.
    Paterson produced a wide variety of goods securing America's 
economic independence and helping make the nation a leader in 
international commerce. Paterson represents Hamilton's vision of 
diverse manufactures and economic independence in a way that no other 
place in America does or can.
           hamilton created opportunities for all in paterson
    Hamilton worked to create an economy in Paterson driven by the 
labor of free men and women rather than slaves, and a society that 
rewarded hard work rather than inherited privilege. As Ron Chernow 
observes in his bestselling biography of Hamilton:

          His America would be a meritocracy of infinite variety, with 
        a diversified marketplace absorbing people from all nations and 
        backgrounds . . . Hamilton's ideal economy is devoid of the 
        futile barbarities of the Southern plantations. Hamilton's list 
        of the advantages of manufacturing has a quintessentially 
        American ring: ``Additional employment to classes of the 
        community not ordinarily engaged in the business. The promoting 
        of emigration from foreign countries. The furnishing of greater 
        scope for the diversity of talents and dispositions which 
        discriminate men from each other.''

    Paterson is the best place to interpret Hamilton's industrial 
vision because--in sharp contrast to the New England mill towns built 
by the wealthy elite called the Boston Associates--Paterson actually 
provided the very opportunities that Hamilton sought.
    True to Hamilton's fervent desire to end slavery, some Paterson 
manufacturers were among the local visionaries of the larger national 
movement that became known as the Underground Railroad. Frederick 
Douglass wrote in his autobiography of escaping through Paterson 
following the John Brown uprising in Harpers Ferry.
    The Paterson industries not only provided entry-level jobs but also 
gave poor immigrants a genuine opportunity to rise to the top of 
society. The noted social historian Herbert Gutman systematically 
studied the leading mill owners in Paterson and concluded that ``the 
rags-to-riches promise was not a mere myth in Paterson.''
    Building upon the research from a series of articles in Scientific 
American in the nineteenth century, Professor Gutman wrote:

          Scientific American, groping for a simple sociological 
        generalization about these men, praised Paterson's early 
        enterprisers in these words: ``In the eastern states, 
        flourishing cities have been built up by corporations of 
        wealthy capitalists . . . . In Paterson, it was different. With 
        few exceptions, almost every manufacturer started, financially, 
        at zero, enlarging his establishment as the quicksilver 
        expanded in his purse.'' Scientific American was not guilty of 
        mouthing abstract rhetoric or just putting forth a paean of 
        traditional tribute to an invisible hero, the ``self-made 
        man.'' Instead, it accurately described the successful 
        locomotive, iron, and machinery manufacturers of the era, and 
        what it wrote applied as well to a group in 1840 and 1880 as in 
        1859.
           hamilton achieved diverse manufactures in paterson
    By 1816, Paterson was already a national leader in the production 
of many of the goods Hamilton listed in the great state paper he 
submitted to Congress, the Report on Manufactures. Just as Hamilton 
urged, Paterson avoided excessive dependence on any one industry and 
became an extraordinary center of invention and a major producer of a 
wide variety of goods.
    The author Christopher Norwood writes:

          In Paterson people did not just invent; they tried 
        everything--a repeating revolver, a submarine, an airplane that 
        could fly across the Atlantic. And Paterson did not just 
        manufacture; it produced articles that redefined the limits of 
        life. It is impossible to think of any other city whose 
        products cut so deeply into the texture of the United States 
        and not only transformed its national character, but 
        revolutionized American relations with the world.
       changing role of the united states in the world community
    In addition to interpreting Hamilton's economic vision of 
independence and opportunity, a Paterson National Park would be a place 
to feature other important supporting stories. The allotted time 
permits me to mention only one such supporting story that speaks 
directly to the times in which we live: the Silk City and the Silk Road 
today.
    National Park Service policies require that studies of potential 
new national parks analyze the ``multiple layers of history 
encapsulated within each resource.'' The NPS policies emphasize the 
importance of potential new national parks that represent ``the 
interaction between the United States and the world community.''
    Hamilton recognized the opportunity that silk production presented 
to American economy. His Report on Manufactures encouraged silk 
production, a recommendation that would increase America's involvement 
in international commerce.
    As early as 1794, the S.U.M. authorized the culture of mulberry 
trees in Paterson to promote the cultivation of silk. In the nineteenth 
century, industrialists would make Paterson the Silk City--the largest 
manufacturer of silk goods in the world. Silk holds a very special 
place in history. Paterson's central role in silk manufacturing formed 
a connection between America and the Asian, Middle Eastern, and 
European cultures that also cherished silk.
    As Richard Kurin of the Smithsonian Institution explains, ``Silk 
both epitomized and played a major role in the early development of 
what we now characterize as a global economic and cultural system.''
    In the late nineteenth century, historians began to describe the 
old routes of the global trade of silk as the ``Silk Road.'' In recent 
years, historians at the Smithsonian and universities around the world 
have expanded the traditional view of the Silk Road and have recognized 
that the historical connection between East and West exists to this 
day.
    In 1998 the cellist Yo-Yo Ma created the Silk Road Project, 
celebrating how people shared art and music along the modern Silk Road 
and promoting continuing cultural collaboration between Asia, Europe, 
and the Americas. The Aga Khan, Imam of the Shia Imami Ismaili Muslims 
and direct descendant of Muhammad, has contributed generously to the 
Silk Road Project, particularly in the Muslim nations.
    The Smithsonian organized--and the Park Service cosponsored--the 
2002 Folklife Festival to celebrate the modern Silk Road. The Aga Khan 
and Yo-Yo Ma joined Secretary of State Colin Powell in opening the 
festival.
    During the Folklife Festival, Richard Kennedy of the Smithsonian 
Institution observed:

          The Silk Road has extended to the United States and, since 
        the tragic events of September 11, understanding that 
        connection clearly has become more important. There is no 
        better time, then, to learn more about the roots of this vital 
        connection and to celebrate the long-standing relationships 
        that have existed between east and west and north and south.

    A Paterson National Historical Park would preserve and present a 
station on this contemporary Silk Road, providing a unique opportunity 
to connect with other cultures and build trust between cultures of the 
global Silk Road. Mohamed El-Filali, a leader of the Islamic community 
in Paterson, writes that a national park in Paterson would help 
Americans ``reach out and attempt to understand how other cultures can 
affect and enrich America's culture.''
    The National Parks Conservation Association points out that 
``Paterson can become the first NPS unit with strong Muslim American 
support in a city that has the second largest number of Muslims in any 
American city.''
    Dr. Alvin Felzenberg, a political scientist and an expert on New 
Jersey history, explains that Paterson is a station on the Silk Road 
not just because of its history as the Silk City but also because 
``large numbers of Islamic citizens continue to work in Paterson 
textile businesses, coming from places like Damascus to Paterson 
because of textile manufacturing in both cities.'' Dr. Felzenberg, who 
also served as the Principal Spokesman for the 9/11 Commission, writes 
that a Paterson National Park would create a connection between Muslims 
and the Park Service, while promoting valuable cultural interchanges 
between Muslims and other Americans.
    This supporting story of the modern Silk Road in a Paterson 
National Park would help prepare new generations of Americans for 
global citizenship.
                            civic engagement
    Many citizens who today feel little or no connection with our 
national parks and the Founding Fathers will find much greater meaning 
within Paterson's authenticity and diversity. The proposed Paterson 
National Park legislation has captured the imagination and spirit of a 
diverse group of citizens.

  <bullet> Latino citizens.--who make up more than half of Paterson's 
        population--support the Paterson National Park because Hamilton 
        was the most forceful advocate among the Founding Fathers for 
        the view that immigration strengthens the nation. They also 
        seek to celebrate Hamilton's role in helping to spread the 
        cause of freedom to the Spanish colonies in the Americas.
  <bullet> African-Americans.--who make up over one quarter of 
        Paterson's population--recognize Hamilton's vigorous fight 
        against slavery was an essential part of his inclusive view of 
        how all Americans would benefit from the growing modern economy 
        that he began in Paterson. African-American leaders also note 
        that Hinchliffe Stadium--the landmark home of the N.Y. Black 
        Yankees and the N.Y. Cubans in baseball's Negro Leagues--was 
        sited and planned by the renowned Olmsted Brothers firm right 
        next to the Great Falls.
  <bullet> Arab Americans.--who make up more than one-tenth of 
        Paterson's population--support the Paterson National Park as a 
        continuation of the Silk Road that united their homelands in 
        Central Asia with China and the West.
               need for national park service in paterson
    The record clearly supports the need for a National Park Service 
unit in Paterson. The Park Service's own cost estimates demonstrate 
that the $10 million assistance from the State of New Jersey is not 
sufficient funding to preserve the Great Falls Historic District and 
present its resources to the American people.
    As Governor Jon Corzine writes to the Secretary of the Interior: 
``The State of New Jersey alone cannot preserve and protect the Great 
Falls National Historic District and properly present it to the public 
without a National Park Service unit in Paterson.''
                         the park service study
    Despite opposition from the Administration for budgetary reasons, 
both the House and the Senate passed legislation by unanimous votes 
directing the Secretary of the Interior to conduct a study of whether 
the Paterson Great Falls National Historic District should become a 
part of the National Park System.
    Five years after President Bush signed the legislation into law, in 
November 2006 the National Park Service finally published its Paterson 
Study and invited comments from the public. As the House Resources 
Committee emphasized in its Report on this legislation, distinguished 
scholars sharply criticized the Study in detailed letters drawing from 
seminal texts and recent research.
    Here are typical phrases that some of America's most distinguished 
scholars use to describe the Park Service Study's conclusions: 
``misreads the historical record'' . . . ``seriously deficient'' . . . 
``truly absurd'' . . . ``demonstrably wrong'' . . . ``false'' . . . ``a 
serious misreading of the historical record'' . . . ``again, judging by 
the results of recent scholarship, the Study is wrong'' . . . 
``analytically flawed and violates fundamental principles that 
professionals use in studying historic resources.''
    A former senior Massachusetts official who worked on the creation 
of the Lowell National Historical Park and the Blackstone Valley 
National Heritage Corridor writes that the Study ``creates a false 
account that destroys the integrity of our nation's history.''
    The scholars dispute every supposed fact that the Park Service 
Study uses to conclude there should not be a Paterson National Park, 
including the Park Service claim that Hamilton's economic vision was 
first realized not in Paterson but by the Boston Associates at what is 
now the Lowell National Park.
    Historians find the Park Service's claim about Lowell reflects a 
fundamental misunderstanding of history because Hamilton's economic 
vision included two fundamental principles:

          (1) no tolerance for slavery; and
          (2) opportunities for poor immigrants lacking any social 
        pedigree to rise to the top of American society.

    Historians point out that in many respects Lowell represented the 
precise opposite of Hamilton's vision. The Boston Associates were 
members of what Professor Robert Dalzell of Williams College called the 
``Enterprising Elite''--wealthy families of Boston's high society whose 
primary mission was to achieve ``for both themselves and their 
descendants, what had always mattered most: a secure and remarkably 
durable position at the top of the social order.''
    Contrary to the Park Service Study's argument, the Boston 
Associates--a group of wealthy Boston families connected through 
interlocking corporate directorates and marriage--never sought nor 
achieved Hamilton's vision of opportunities for all.
    Unlike Hamilton, the most ardent opponent of slavery among the 
Founding Fathers, the New England mill owners played a role in 
attempting to quell the Northern anti-slavery crusade. United States 
Senator Charles Sumner of Massachusetts spoke of the ``unholy union . . 
. between cotton planters and flesh mongers of Louisiana and 
Mississippi and the cotton spinners and traffickers of New England--
between the lords of the lash and the lords of the loom.''
    Even the NPS Handbook for the Lowell National Historical Park 
recognizes:

          When an anti-slavery speaker came to Lowell in 1834, he drew 
        an angry stone-throwing mob. Mill owners and workers depended 
        on Southern cotton, and anyone who threatened the system was 
        unwelcome.

    The testimony from scholars provides more details on the numerous 
serious errors and flaws in the Park Service Study. The Study distorts 
and disregards crucial evidence of Paterson's role in American history, 
violates Park Service policies, and makes unsubstantiated conclusions 
in the face of direct and compelling evidence presented by 
distinguished scholars to the contrary.
                               conclusion
    S. 148 is the Senate version of H.R. 189. The House Report on H.R. 
189 responds to concerns the Administration raised in the House 
National Park Subcommittee hearing and repeats in the Administration's 
prepared testimony for today's Senate hearing. The Senate could support 
an amendment of S. 148 to reflect the amendment of H.R. 189 as reported 
by the House Resources Committee.
    National and local support for the Paterson National Historical 
Park continues to grow. Latino and African-American, Muslim and Jewish, 
Catholic and Baptist citizens support a national historical park in 
Paterson. Corporate executives and laborers, environmentalists and 
property rights advocates, bankers and community activists, scholars 
and schoolchildren, historic preservationists and developers support 
this cause.
    We live today in the economic world Hamilton envisioned and--
starting at the Great Falls in Paterson--played a major role in 
creating. We urge members of this Subcommittee to support the 
legislation to create the Paterson Great Falls National Historical 
Park.

    Senator Akaka. Thank you very much for your testimony.
    My first question is to Augie Carlino. Mr. Carlino, 
according to the Park Service, their study concluded that since 
the proposed National Historic Site was within the Rivers of 
Steel National Heritage Area, which you oversee, there is no 
need for National Park Service management. What is your 
response to this?
    Mr. Carlino. Mr. Chairman, as I said in summarizing and 
adding to my testimony, we are one of 37 National Heritage 
Areas, as you know, but we operate with very finite resources. 
That money goes into grants that go into Heritage Development 
Programs in seven counties in Southwestern Pennsylvania.
    As part of that work, and actually it was this project, the 
Homestead Works, which gave rise to the National Heritage Area, 
not the opposite. The Heritage Area didn't discover the 
Homestead Works site to propose it as a National Park. It was 
just the opposite.
    Because of that work, our capacity to own and manage a 
steel mill that remains of a 550-acre site, would be beyond our 
capacity. Over the time of our planning that we did in order to 
designate the National Heritage Area, with the Park Service 
involved in that planning, it became very clear during that 
planning effort that the National Park Project was going to be 
one of the projects proposed by the management plan of the 
Steel Industry Heritage Task Force at that time, which was the 
predecessor to the Rivers of Steel National Heritage Area 
Corporation. Park Service supported that as a recommended 
project of the management plan.
    So at this point in time, for them to say, ``We can operate 
it.'' As I said, with them coming to testify against our 
reauthorization, is contradictory. It also doesn't meet with 
what meets our management plan, in which the management plan 
called for the creation of a National Historic site at 
Homestead, which was approved and forwarded to this body by the 
National Park Service in 1996.
    Senator Akaka. The National Park Service is recommending 
that the proposed National Historic Site be administered as an 
affiliated area of the National Park System, which, in their 
words, ``Would suggest a sufficiently reduced Federal 
contribution, while having local partners contribute the 
largest share of costs.'' Do you have any comments on the 
affiliated area proposal?
    Mr. Carlino. I do, yes, sir. That was one of the questions 
that was vetted during the management planning process. It 
became clear, and it still is evident today, that while there 
is--and we enjoy substantial support of potential funding 
partners, including the Commonwealth of Pennsylvania, which has 
authorized line items in its capital budget for the creation of 
this site. From our many Pittsburgh-based foundations, 
including the Heinz Foundation, which is part of the Senator's 
legacy.
    The conclusion of all of those parties are that they would 
like to see a role for the Federal Government in this, but that 
role for them would need to be a way that the Federal 
Government comes in and owns and operates with their support 
coming in financially. So, if we lose the opportunity for the 
Park Service to be a management entity for this site, we will 
lose all the State and local support that is committed for the 
preservation of the site's long-term benefit.
    Senator Akaka. Thank you. Thank you, Mr. Carlino.
    Mr. Zax, your testimony takes issue with the Park Service's 
study. As I understand the Park Service's opposition, though 
it's not questioning the significance of the historic events 
that occurred in Paterson, but rather, they're saying that the 
site isn't suitable or feasible for Park Service management. 
What are your comments about these concerns?
    Mr. Zax. Surely. My comments are essentially the same as 
the scholars. The scholars addressed the issue of suitability. 
They addressed the claim and found it false, that what Paterson 
represents is already adequately represented within the 
National Park system at such places as Lowell. With all due 
respect to my friends from Massachusetts, Lowell is a wonderful 
National Historical Park.
    Interestingly enough, the National Park Service testified 
against creating the Lowell National Park during the Carter 
Administration. But the Congress created the National Park 
anyway and now the Park Service holds it up as a great example 
and a reason to deny funding to Paterson.
    But the business plan that Francis Lowell and his 
colleagues had in Lowell, was diametrically opposed to 
Hamilton's vision for Paterson. Their vision was--and they 
began implementing it generations later than Paterson's 
founding--their vision was that daughters of farmers in Western 
Massachusetts and Canada could come to Lowell, live in 
dormitories, work for three or four or 5 years, get enough 
money so they've earned their dowry, so they could go back to 
Western Massachusetts or back to Canada and get married to 
their farmer boyfriends there. It's beautiful to see this 
description of how that system works in Lowell.
    But frankly, that is not what Paterson is about. It's not 
what Hamilton envisioned. The Senator from New Jersey, Senator 
Menendez alluded earlier to the fact that, because Lowell was a 
cotton producing town. The power structure in Lowell looked the 
other way, with respect to slavery. One member of this body, 
the United States Senator from Massachusetts, Charles Sumner, 
referred to the relationship between the mill owners in Lowell 
and the slave holders of the South as an unholy alliance 
between the lords of the loom in Massachusetts and the lords of 
the lash on the plantations.
    Hamilton was, among our Founding Fathers, the most 
vigorously anti-slavery advocate. He was, himself, one of the 
first organizers of the New York Abolition Society, to fight 
slavery.
    Many of our founders had slaves. I'm not saying Francis 
Lowell and his colleagues, the Cabbots and the Lodges and the 
Appletons, who sat at the top of Boston society--I'm not saying 
they were pro-slavery, I'm sure they were not. But they were 
prepared to make a deal because they needed the cotton produce 
from the South. They needed the support of the Southern 
Senators and Congressman for tariff protections.
    That's just because in Lowell they had a very, very 
different business plan. Hamilton's business plan really bears 
much more of a relationship to what sustained this country 
between 1790 and between the War of 1812 and 1820 and 1825, 
before Lowell began.
    We were not economically independent. We were dependent 
upon Britain and Europe for every manufactured item, from 
clothing to military supplies. The Congress asked Alexander 
Hamilton, then the first Secretary of the Treasury, to produce 
a report on how we could make America less dependent on foreign 
production for essential supplies. A report that really 
resonates in the times in which we live, because of our 
excessive dependence on imported oil.
    Hamilton took a year, produced this extraordinary report, 
wrote most of it himself. Part of what he recommended was that 
this town of Paterson be created. He wrote the corporate 
documents for the first corporation. He hired Pierre L'Enfant 
to produce the complex water power system. He attended meetings 
of boards of directors. He secured an extraordinary charter, 
one of the first corporations in America, to provide for the 
assembly of land and the hiring of L'Enfant to create this 
power system, to show in a very visible and successful and 
effective way how to implement his dream for America. In 
Paterson, gentlemen, he succeeded.
    Senator Akaka. Thank you very much.
    Let me ask a question now to Tom--Tom Brooks.
    Mr. Brooks, is land within Denali National Park the only 
option for construction of a turnaround or is there a State 
land that could be used?
    Mr. Brooks. The railroad has lands that could be used for 
turnaround, but they're very inferior and wouldn't be able, we 
would not be able to provide the level of service that we would 
be able to do if we had a turnaround right at the Park.
    The most likely place is about 10 minutes or, excuse me, 10 
miles north of the Park. It goes, the track goes through a 
dangerous--dangerous may not be the right word--a narrow canyon 
with tight curves and it would take us about 2 hours from the 
time we arrived at the Park to until we got turned around and 
back to the Park. With the site that we're considering with the 
Park Service, we estimate we can get turned around in less than 
half an hour.
    Senator Akaka. Let me end with a similar to one I asked Mr. 
Wenk earlier. Have you identified specific parcels to be 
exchanged? If so, is there is a problem with specifying that in 
the bill?
    Mr. Brooks. We have talked, generally, with the Park about 
where the location of a turnaround track could be and where the 
lands for exchange would be. But we have not identified them 
specifically and we have agreed with the Park Service that we 
need to comply with the National Environmental Policy Act, 
which, in that process, we can't pin things down until we've 
done a thorough environmental analysis.
    Senator Akaka. Thank you very much.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Mr. Brooks, can I assume from your answer to Senator Akaka, 
that all the land that's exchanged is for the purposes of a 
turnaround?
    Mr. Brooks. The land we are obtaining is, and the land 
we're giving up isn't.
    Senator Burr. Correct. The land you're accessing from the 
Park----
    Mr. Brooks. Yes.
    Senator Burr [continuing]. Is for the sole purpose of a 
turnaround?
    Mr. Brooks. That is correct.
    Senator Burr. OK. Thank you.
    Mr. Carlino, are there any businesses located within the 
Historic Site designation?
    Mr. Carlino. There are no businesses located within the 
properties, as proposed in the bill. There are, adjacent to the 
Battle of Homestead site, there is a remnant of the steel mill 
of Homestead that is now being operated by an Italian steel 
company. Across the road, as a part of the old mill----
    Senator Burr. But that is not, that's not----
    Mr. Carlino. That's not in the--no, sir.
    Senator Burr. Thank you. How many structures are on the 
proposed site and what's the estimated cost of repair, and do 
you have an estimate of the annual maintenance cost?
    Mr. Carlino. We don't have an estimate of the annual 
maintenance cost. I believe CBO did a study on that a few years 
ago, when the Special Resource Study was done. I don't know 
what the numbers on that were, sir. But I could get those for 
you, I'm sure, or they might be available through Congressional 
Budget Office.
    At the Battle of Homestead site there are two buildings, 
the pump house and the water tower. That's about five acres of 
that surround those two buildings. There is a hot metal bridge, 
which is basically a railroad structure that was a connector 
between the iron producing side of the site, which is where the 
Carrie Furnaces are, and the steel mill side of the site, which 
is where the battle site is.
    Then at the Carrie Furnaces, there is two blast furnace 
complexes which make up a series of buildings, including ovens 
and stoves, a cast house, a blowing engine house, and another 
large building. I forget the name of that building right now, 
sir. But there's about five or six buildings there.
    Senator Burr. You are in year 10 of, if I remember 
correctly, the National Heritage Area expires in 2012 for you?
    Mr. Carlino. It would expire in 2012 or cap on the funding 
at $10 million.
    Senator Burr. You're close to having hit the cap, aren't 
you?
    Mr. Carlino. Yes, sir.
    Senator Burr. What is the annual budget for that Heritage 
Area?
    Mr. Carlino. On average we have a budget of about $2.5 
million a year that includes----
    Senator Burr. Does that include the $1 million that the 
Federal Government has kicked in?
    Mr. Carlino. When it has been $1 million, yes sir. That's 
why I say, it's on average about $2.5 million. Last year's 
appropriation was $780,000.
    Senator Burr. But you're at year 10.
    Mr. Carlino. Yes, sir.
    Senator Burr. You've almost hit your $10 million cap?
    Mr. Carlino. Yes, sir.
    Senator Burr. We have a $1 million annual cap. So you've 
been pretty close to a million dollars a year.
    Mr. Carlino. Yes, sir.
    Senator Burr. What percentage of that annual budget goes to 
personnel?
    Mr. Carlino. About 35 to 40 percent of that in various 
costs.
    Senator Burr. Over this 10-year life so far, how much money 
has been spent on repair and maintenance of the structures 
proposed for designation as the National Historic Site?
    Mr. Carlino. We were donated the pump house and water tower 
by the developer, which bought the property in 2000. We've 
spent roughly $200,000 to $300,000 on that. It's part of a 
trailhead site, the connection of the Great Allegheny Passage 
Trail that connecting Pittsburgh to Washington, D.C. We've made 
some other safety improvements on the site because people 
wanted to visit it.
    At the Carrie blast furnaces, we don't own it right now, 
Allegheny County owns it. They have asked us, as they just 
acquired it, to raise capital in order to begin the necessary 
stabilization of that property. We've raised approximately $1 
million for stabilization of that site, but we've not spent any 
yet on that site.
    For the railroad bridge, that was donated to us by Union 
Railroad back in 1999. That is such a huge engineering 
structure that we've had to do very little maintenance to that 
facility, except for changing navigational lights, in order to 
keep the channels on the Monongahela River signaled properly. 
So that maintenance and operation, I would say, including 
insurance, is about $100,000 a year.
    Senator Burr. OK. So roughly a million dollars over the 10 
years that you've put into restoration, reconstruction of 
buildings?
    Mr. Carlino. For the properties that we have access to, yes 
sir. Like I said, the Carrie Furnaces, that's still a rather 
crude abandoned site that has limited access.
    Senator Burr. Thank you.
    Mr. Zax, do you have any idea how many acres the proposed 
area covers?
    Mr. Zax. It covers about 108 acres.
    Senator Burr. How many people live within the boundaries 
that are proposed?
    Mr. Zax. I'd like to verify that with certainty, rather 
than estimating.
    Senator Burr. I'll take a guesstimate and we'll look for 
the certainty in a follow-up.
    Mr. Zax. I'd feel better just submitting for the record. 
I've been pressing Park Service to be so accurate. I don't want 
to----
    Senator Burr. I appreciate----
    Mr. Zax [continuing]. Be guilty myself.
    Senator Burr. I appreciate that. Can you give me an idea of 
how many businesses operate within the proposed boundaries? How 
many, if any of those, would become National Park Service 
concessions operations after the designation?
    Mr. Zax. Let me get to, if I may, what I think is the heart 
of your question. Everyone who lives, works, own property, or 
rents property in this area, supports this National Park. No 
privately owned property is necessary for this National Park. 
There will be private properties within the boundaries of the 
part, just are there are in Lowell.
    Senator Burr. What I'm trying to ascertain here, just for 
the purposes of the Chairman and myself and the members, is 
that where we have concessionaires on National Parks, we have 
the ability to charge franchise fees. We have the ability to 
compete those concessionaires. If in fact, incorporated in the 
boundaries are private businesses that then become 
concessionaires. We don't have the ability for franchise fees, 
we don't have the abilities to compete the businesses. My only 
point is to try to lay out for all the members what the 
precedent is we might set, whether it's Paterson or anything 
else.
    Because I have learned in the 13 years that I've been here, 
as soon as we deviate from what might be a historic pathway, we 
have a number of people beating at the door ready to go down 
that new pathway, which might send me to the, sort of the last 
question that I had, which was who would control the land use 
within the boundaries of this unit that's designated? Is it the 
Park Service?
    Mr. Zax. There is now local zoning that applies and local 
Historic Preservation Protection that applies, within the 
boundaries of the area. We would seek to have that continued. 
As I'm sure you and your staff know, upon passage of this 
legislation, there would be a period of time to produce a 
general management plan that would address all of the issues 
that you raise.
    I will say only that, in the case of Paterson, it's much 
easier than in the case of Lowell. Though the Park Service 
today tells us they're worried about the management problems in 
Paterson, it's going to be much easier to manage in Paterson 
than in Lowell. In fact----
    Senator Burr. Please----
    Mr. Zax [continuing]. Lowell has not been a problem in this 
regard.
    Senator Burr. Please understand, this is one member of the 
Senate that's not comparing this with something else. I'm 
purely focused on the precedent that we would set--if there is 
one--that differs from the precedent in place. I will assure 
you prior to the consideration by the committee of the bill, 
I'll do the remainder of my homework to find out. Do we have 
other facilities in the country, where we have a concentration 
of private business operating within the boundaries of a park? 
Do we have dual control agreements, where the Park Service is 
in control of some things, but private entities, companies, 
individuals, or--I guess, to have zoning you have to have some 
type of corporated or unincorporated city within the boundaries 
or town, however we want to call it.
    If in fact we don't find other properties that have that, 
then an additional consideration of the committee has to be, is 
that a precedent that we want to set for the future? It was not 
a series of questions that I asked the Park Service. I can 
follow-up with them in some written questions.
    Mr. Zax. I would like to respond for the record, as well.
    Senator Burr. Sure.
    Mr. Zax. Because one of the things that really made me and 
representatives of private foundations very interested in 
supporting other efforts around the park, to go to Lowell 
during the earlier part of this month, was to look at exactly 
this question. So let me, we have a little more work to do, but 
I certainly could respond to those inquiries during the 2-week 
period that this committee allows.
    Senator Burr. I would be grateful to you----
    Mr. Zax. Perfect.
    Senator Burr [continuing]. If you would provide that. Thank 
you.
    Senator Burr. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Burr.
    I want to thank our witnesses for testifying this 
afternoon. Some of you, Mr. Brooks in particular, have traveled 
a long way to appear here today, and I want to let you know 
that we appreciate your willingness to come to Washington to 
help us better understand these issues.
    Some members of the committee were not able to attend this 
hearing, and they may submit additional questions in writing. 
If we receive any, we'll forward them to you and ask that you 
respond to those, and we may include both the questions and 
answers in the official hearing.
    We have also to include in the record the testimonies for 
the record of Senator Biden and Senator Lautenberg, and we'll 
have a spot on the record.
    So again, thank you very much and thank you again for your 
testimony. The subcommittee is adjourned.
    [Whereupon, at 4:08 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of August R. Carlino to Questions From Senator Burr
    Question 1. Steel Industry National Historic Site Designation (S. 
697): How was it determined that a National Historic Site was the most 
appropriate designation?
    Answer. The Steel Industry National Historic Site was first 
proposed as the Steel Industry National Historic Park Act (H.R. 5030) 
in the 106th Congress by Congressman Mike Doyle of Pennsylvania. In the 
107th Congress the bill was reintroduced, and considered by the House 
Resources Committee, chaired then by Congressman Richard Pombo. It was 
the decision of the Chairman to re-title the bill to be a ``National 
Historic Site'' when the legislation was marked-up in Committee.
    Question 2. Steel Industry National Historic Site Designation (S. 
697): How many structures are on the proposed site and what is the 
estimated cost of repairs and annual maintenance?
    Answer. The property and structures to be designated in the bill 
include the Battle of Homestead site, Carrie Furnaces No. 6 and No. 7, 
and the Rankin Hot Metal Bridge. The Battle site includes two (2) 
structures, the pumphouse and water tower. The blast furnaces site 
includes the twelve (12) structures which make up the National Historic 
Landmark, including Carrie Furnaces No. 6 and No. 7, stationary car 
dumper, ore yard, ore bridge, stocking trestle, stock house, hoist 
house, cast house, blast plant, blowing engine house and AC power 
house. Also included in the NHL and a part of the site, is the Rankin 
Hot Metal bridge. In total, the S. 697 proposes fifteen structures (15) 
as a part of the proposed Steel Industry National Historic Site.
    In 2002, the Congressional Budget Office prepared an estimate for 
the cost of the legislation. CBO reported the cost to be slightly more 
than $53 million over a five-year period, including capital costs, 
operations and maintenance, and cooperative agreements.
    Question 3. Steel Industry National Historic Site Designation (S. 
697): How much has been spent on repair and maintenance of the 
structures proposed for designation as a National Historic Site each 
year in the past 10 years?
    Answer. Since SIHC acquired the Battle of Homestead site (pumphouse 
and water tower) in 2003, $83,939 has been expended on the site 
including insurance, utilities and restoration and repairs. As for the 
Carrie Furnaces, this site is owned by Allegheny County, and except for 
the costs incurred by SIHC to open the site for tours--insurance and 
site preparation totally $29,261 since 2006--there has not been any 
work performed in association with the maintenance or restoration of 
this facility. Since 2001, when SIHC acquired the Rankin Hot Metal 
Bridge by donation from Union Rail Road, $56,315 has been spent on 
maintenance, security and insurance.
    Question 4. Steel Industry National Historic Site Designation (S. 
697): Have you received any opposition to this designation? If so, who 
has opposed the designation and why?
    Answer. The only opponent to the legislation was the previous owner 
of the site, The Park Corporation. Their opposition is no longer a 
factor since they willingly sold all of their holdings in the entire 
brownfield site that includes the Carrie Furnaces to the County of 
Allegheny in 2005. The legislation is supported by Allegheny County, 
owners of the Carrie Furnaces, the Commonwealth of Pennsylvania, the 
surrounding boroughs, numerous civic and community organizations, along 
with local philanthropic foundations.
    Question 5. Steel Industry National Historic Site Designation (S. 
697): Will the Federal government be expected to purchase any of the 
land, buildings, or other property within the National Historic Site? 
If so, who is the current owner, how long have they owned the property, 
and what is the estimated cost?
    Answer. The legislation specifies that all land and structures 
within the proposed Steel Industry National Historic Site are to be 
transferred to the National Park Service by donation. This provision of 
the legislation is supported by both Allegheny County, which owns the 
Carrie Furnaces (since 2005) and the Steel Industry Heritage 
Corporation which owns the Battle of Homestead site (since 2003) and 
the Rankin Hot Metal Bridge (since 2001).
                                 ______
                                 
         Responses of Tom Brooks to Questions From Senator Burr
    Question 1. Denali National Park/Alaska Railroad Land Exchange (S. 
1808): What is the historical use of the non-Federal land being 
transferred to the National Park Service as a result of S. 1808?
    Answer. Basically, there has been little use of the land. The non-
Federal land was Federal until the Alaska Railroad was sold to the 
State of Alaska in 1985. While in the Federal domain, the railroad used 
minor portions of this area to ditch for drainage. In 1985, the land 
was reserved to the railroad for maintenance of the track and future 
rail realignment. This area is called the ``Moody Slide'', and is an 
area of naturally unstable ground. The lands proposed for exchange in 
S. 1808 are along the top of the slide.
    Question 2. Denali National Park/Alaska Railroad Land Exchange (S. 
1808): Does the non-Federal land involved in this exchange contain any 
form of development or history of hazardous waste contamination?
    Answer. As noted above, the land was used for minor drainage 
ditching when under Federal control. In addition, in about 1980 the 
Federal government permitted construction of an electrical pole line in 
this area. This pole line remains in service today and is the source of 
electrical power for the NPS Denali Park entrance area. The Alaska 
Railroad is not aware of any contamination in this area.
    Question 3. Denali National Park/Alaska Railroad Land Exchange (S. 
1808): How does the Alaska Railroad intend to use the land it obtains 
as a result of this exchange?
    Answer. The Alaska Railroad intends to use the land to construct 
track to turn trains around at Denali Park. Alternatives to a 
turnaround track are not viable. If a turnaround track is not created, 
options to expand and improve rail service to Denali Park will be 
limited.
                                 ______
                                 
       Responses of Leonard A. Zax to Questions From Senator Burr
    Question 1. Many structures within the area of the proposed 
National Park Unit were originally constructed for manufacturing 
purposes. How many of the original manufacturing buildings remain, what 
was the original use of each structure, and what is the current use?
    Answer. Some 40 structures and complexes originally constructed for 
manufacturing purposes are within the area. Tables A through D on 
attached Schedule 1 set forth the number, original use and current use.
    Although many of the structures within the boundaries of the 
proposed National Park Unit were originally constructed for 
manufacturing purposes, Alexander Hamilton and Pierre L'Enfant planned 
for Paterson to include housing as well. Some manufacturing continues 
there, but other industrial buildings have been restored for adaptive 
reuses, including housing, consistent with the best practices in 
historic preservation.
    Question 2. How many acres does the proposed area cover and 
approximately how many people live within the proposed boundary? What 
type of residences currently exist (e.g., single family homes, town 
homes, apartments, condominiums)?
    Answer. The proposed area covers approximately 115 acres, including 
the Hinchliffe Stadium property that is not in the bill the House 
enacted last night. The population is about 1,000 persons, with the 
majority residing in apartments. There are no single-family homes or 
townhouses. There are rental apartments and condominium units located 
in several rehabilitated mill structures. There are also other rental 
apartments in structures never used for manufacturing.
    Question 3. Will any of the historic structures within the proposed 
boundary of the national park be adaptively reused for residential 
buildings such as apartments or condominiums after designation? If so, 
what was the original use of the future residential building and how 
has the use changed since first built?
    Answer. There are seven historic mill renovation projects planned 
with private financing. Six of the historic buildings are planned as 
condominium or rental apartments. The seventh historic structure is 
proposed as commercial offices. Table C of Schedule 1 provides 
additional details.
    Question 4. How many businesses operate within the proposed 
boundary and how many of those would become National Park Service 
concessions operations after designation? Will the merchants pay any 
fee to the National Park Service or the U.S. Treasury for operating 
within the boundaries of a national park unit?
    Answer. Approximately 125 businesses operate within the proposed 
boundaries. More than half of those are manufacturing or offices.
    At the Subcommittee Hearing, Senator Burr expressed a concern that 
the passage of this legislation might create an unusual new precedent, 
perhaps with unintended consequences, for Park Service concessions in 
an urban national park. We believe that the Paterson National Park 
would not create a new or untested precedent.
    Even though the Paterson Great Falls National Historical Park would 
be located in the heart of a city, the regular National Park Service 
concessions guidelines would apply to any concession operation on park 
lands. After the passage of this legislation, the National Park Service 
will prepare a General Management Plan for the new park that will 
address the number and location of NPS concessions.
    In urban national historical park settings like Boston, 
Philadelphia and Lowell, NPS units have been operating successfully in 
cooperation with established businesses on private property within park 
boundaries. The National Park Service concessions laws and policies 
would apply to the same extent in Paterson with respect to the payment 
of any fees to the National Park Service or the U.S. Treasury for 
commercial service operations that take place on national park lands.
    Question 5. How many acres of land within the proposed boundary are 
in private ownership? How much of the land is Federal? How much of the 
land is state? How will land ownership change if S. 148 is enacted?
    Answer. About 35 acres are privately owned. None of the land within 
the boundaries is currently owned by the United States. The State of 
New Jersey owns about 5 acres. The City of Paterson owns about 57 
acres. Streets account for about 15 acres.
    Ownership would not change if Congress enacts this legislation.
    We understand that the National Park Service is also responding to 
this question and some of the other questions herein. Park Service 
officials may be in a better position to provide more precise 
responses.
    Question 6. Who currently controls land use within the proposed 
boundary of the Paterson Great Falls National Park and who will control 
land use after designation?
    Answer. The City of Paterson now controls land uses through zoning 
and historic preservation guidelines, but historic preservation laws 
currently provide a limited role for the State and Federal governments 
in certain circumstances. After designation, and pursuant to the NPS 
General Management Plan, land use will also be controlled pursuant to 
cooperative agreements between the City of Paterson, the State of New 
Jersey, and the National Park Service.
    Question 7. What is the estimated cost to repair and rehabilitate 
the structures included in the area proposed for designation as a unit 
of the National Park System and who will be responsible for such 
efforts?
    Answer. The National Park Service estimates that the costs for 
repair and rehabilitation of structures would be: (i) $3 million to $5 
million to refurbish a facility for visitor services and administration 
needs; and (ii) $10 million to $15 million for historic preservation 
grants.
    As explained in further detail on Tables B and C on Schedule 1, 
several buildings have already been rehabilitated and the private 
sector will bear responsibility for almost all future renovation costs.
    Question 8. How will the American public benefit from this 
designation?
    Answer. The Paterson Great Falls National Historical Park will 
provide benefits to everyone in America. Many citizens who today feel 
little or no connection with our national parks and our national 
heritage will find much greater meaning in the interpretation of 
American history within Paterson's gritty city setting of cultural 
diversity.
    Thirty million Americans-more than one in ten Americans-live less 
than a three hour drive from the Great Falls in Paterson. For many of 
them, the great national parks of the west are something they have seen 
only in photographs. Paterson offers a unique opportunity to provide a 
new Park Service unit in a setting that Hispanic, African-American, 
Arab-American, Islamic, Jewish, and Christian organizations have 
recognized as a place to connect with American history and the National 
Park System.
    These diverse groups come together for many reasons. They have seen 
the spectacular beauty of the Great Falls-the second largest waterfall 
in the eastern part of the United States. They increasingly recognize 
that no other natural wonder in America has played a more important 
role in our nation's historic quest for freedom and prosperity.
    The history of the Paterson Great Falls has captured the 
imagination and spirit of a broad and diverse group of citizens 
throughout America. Hispanic citizens, who constitute a majority of 
Paterson's 180,000 residents, support the this new national historical 
park in part because Hamilton played such an important role in 
expanding opportunities for immigrants and helping to spread the cause 
of freedom to the Spanish colonies in the Americas. African-American 
leaders recognize Hamilton's vision of an American economy beginning at 
the Great Falls and built through the work of men and women dedicated 
to freedom.
    Paterson would become the first NPS unit with strong Arab-American 
support in a city that has the second largest concentration of Arab-
Americans in any American city. Islamic leaders support the Paterson 
National Park as a continuation of the Silk Road that united their 
homelands in Central Asia with China and the West. They note that 
Paterson became the largest silk manufacturing center of the world at 
the end of the 19th Century and was long known as the Silk City. As 
Richard Kennedy of the Smithsonian Institution has pointed out:

          The Silk Road has extended to the United States and, since 
        the tragic events of September 11, understanding that 
        connection clearly has become more important. There is no 
        better time, then, to learn more about the roots of this vital 
        connection and to celebrate the long-standing relationships 
        that have existed between east and west and north and south.

    National and local support for the Paterson National Historical 
Park continues to grow. The National Trust for Historic Preservation, 
the National Parks Conservation Association, the NAACP, and the Sierra 
Club have written letters and submitted testimony to support this new 
national historical park. Also supporting a Paterson National Park are 
former Cabinet members who served in the Administrations of Gerald R. 
Ford, Ronald Reagan, George H.W. Bush, Bill Clinton, and George W. 
Bush.
    Corporate executives and laborers, environmentalists and property 
rights advocates, bankers and community activists, scholars and 
schoolchildren, historic preservationists and developers support this 
new park. All Americans will benefit from making this very special 
place a part of the National Park System.
    Question 9. Can the proposal be modified so that the boundary of 
the park unit includes only land and structures that will convey to the 
Federal government and excludes all private property? By doing so, it 
will be clear from the start that there are no private in-holdings 
within the boundary of the National Park unit.
    Answer. Although it is theoretically possible for the Congress to 
exclude lots that are privately owned from the national historical 
park, neither precedent nor policy would support such an unnecessarily 
complicated patchwork of boundaries for a national historical park in 
an urban setting. Eliminating private lots from the proposed park 
boundaries of Paterson would increase NPS management difficulties, 
increase Federal costs, frustrate historic preservation best practices, 
and create a problematic precedent for our National Park System.
    The boundaries in the bill are based on resource significance and 
opportunities for high quality visitor experiences. The private owners 
support having their properties within the proposed park boundaries. 
Keeping these private lands within the boundaries will help encourage 
private funding for restoration and maintenance. These properties would 
remain in private ownership in accordance with a General Management 
Plan and cooperative agreements between the NPS, State and local 
governments. Excluding some or all of the private lands would not 
enhance management efficiency nor would it reduce costs to NPS for 
operations.
    Many private properties are included within the boundaries of urban 
national historical parks such as Independence National Historical 
Park, Boston National Historical Park, Lowell National Historical Park, 
and Rosie the Riveter/World War II Home Front National Historical Park 
in California. Even though the Park Service had opposed creation of 
Lowell National Historical Park in the Carter Administration, since 
Congressional passage of the legislation the Park Service professionals 
have done a highly-effective and very impressive job of administering 
this historical park in the heart of the city.
    The proposed boundaries are important for maintaining the integrity 
of the Paterson Great Falls National Historic District. As the 
President of the National Trust for Historic Preservation, Richard Moe, 
observed: ``Scholars have concluded that Pierre L'Enfant's innovative 
water power system at Great Falls-and many factories built later-
constitute the finest remaining collection of engineering and 
architectural works representing each stage of America's progress from 
Hamilton's time to the twentieth century.''
    Despite changes in private owners and uses, the historic built 
environment of the district endures. The Pulitzer Prize winning 
architecture critic of the New Yorker, Paul Goldberger, has written of 
this Paterson historic district: ``The visitor comes back, again, to 
the remarkable mill and factory architecture, for it is the real gem of 
this city. Streets and buildings form a surprisingly cohesive urban 
composition. Here, the rich brick facades of the mills and the crisp 
forms of the smokestacks play off against one another, with the cliffs 
of the Great Falls providing a serene background.''
    To secure the benefits of the entire national historic district for 
the American people, we believe the Paterson Great Falls National 
Historical Park should include the private properties.

                                                                       SCHEDULE 1.--MAJOR HISTORIC STRUCTURES & COMPLEXES
                                                                 Table A.--Public Historic Properties in Need of Rehabilitation
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
               Location                     Historic Name           Historic Use           Year Built                                             Comments
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
upper, middle & lower channels         S.U.M. Raceway           Industrial: Power    1794-1839                                                   Conceived by S.U.M., first designed by Pierre L'Fant, implemented by Peter Colt.
                                                                 Canal                                           Unique 3-tier canal system to provide water power to mills. Fully intact, with
                                                                                                                                                      running water and partially rehabilitated
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Passaic River                          S.U.M. Dam               Industrial: Power    1838                   Built across Passaic river to impound water for use in the raceway system. Still in
                                                                 Canal                                                     functional use today as part of the hydroelectric generating station
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
former ATP site                        Colt Gun Mill            Industrial: Textile  1836                    Constructed by the Colt family where Samuel Colt produced the first Colt firearms,
                                                                 Mfg.                                             and later where the first skein of silk was produced in Paterson. Currently a
                                                                                                                                      stabilized ruin but will be incorporated into park design
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
lip of the Great Falls                 Passaic Water Co. Dam     Industrial:         1860-1870s             Masonry dam constructed to impound water before it flowed over the waterfall for the
                                                                 Utilities                                         purpose of pumping into nearby reservoirs. Part of Paterson's first fire and
                                                                                                                                              domestic water supply system. Severely threatened
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
south bank of  Passaic River           River Wall               Industrial: Textile  1850-1860s              Stone masonry river wall running 1,000 ft. along river bank functioned to separate
                                                                 Mfg.                                                       the river from a heavily industrialized campus. Severely threatened
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
former ATP site                        various mill remnants     Industrial:          1870s-1930              Various mill remnants that are worthy of stabilization that resulted from several
                                                                 Textile Mfg.                                 20th century fires that consumed the former ATP campus. Includes one smoke stack,
                                                                                                                                             steam power plant, and mill components. Threatened
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
2 Market St                            Rogers Loco. Shop Bld.   Industrial:          1850s-1870s             Site of the Paterson Museum, this impressive iconic structure was rehabilitated in
                                                                 Locomotive                                       1980 and has since been in use. Suffers from deferred maintenance. Needs some
                                                                                                                                                                           capital improvements
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
100 McBride Ave                        S.U.M. Hydro electric    Industrial:          1912-14                  Operated from 1914-1967. Producing power since reactivation in 1986. Suffers from
                                        Sta.                     Utilities                                                                                                 deferred maintenance
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
100 McBride Ave                        S.U.M. Steam Plant       Industrial:          1912-14                    Constructed by the S.U.M. to replace water power to mills with electrical power
                                                                 Utilities                                     generated by coal. Demolished in the 1960s leaving massive foundation that is in
                                                                                                                                        need of rehabilitation and reuse as park infrastructure
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
* Source: City of Paterson


                                                           Table B.--Completed Rehabilitations
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                               Current Use
                                                                                ------------------------------------------------------------------------
             Address               Historic Name   Historic Use    Year Built                                     Educational/
                                                                                   Industrial      Residential       Public            Commercial
--------------------------------------------------------------------------------------------------------------------------------------------------------
24 Mill St.                        Essex Mill     Industrial:       1807-1870s                   Artist housing
                                    (complex)      Textile Mfg.
--------------------------------------------------------------------------------------------------------------------------------------------------------
33-35 VanHouten St.                Phoenix Mill   Industrial:       1813-1870s                   Artist housing
                                    (complex)      Textile Mfg.
--------------------------------------------------------------------------------------------------------------------------------------------------------
9 Mill St.                         Ryle &         Residential             1815                                                          Offices, rental
                                    Thomson
                                    houses
--------------------------------------------------------------------------------------------------------------------------------------------------------
16-26 Mill St.                     Hamil &        Industrial:        1857,1877                   Rental Housing                    Retail rental spaces
                                    Hamilton       Textile Mfg.
                                    Mills
--------------------------------------------------------------------------------------------------------------------------------------------------------
18 Market St.                      Cooke Mills    Industrial:            1870s   Industrial
                                    (complex)      Locomotive                     incubator
--------------------------------------------------------------------------------------------------------------------------------------------------------
19 Market St.                      Cooke Loco.    Industrial:             1881                   Condominium
                                    Admin. Bld.    Locomotive
--------------------------------------------------------------------------------------------------------------------------------------------------------
20-24 Mill St.                     Pub. School    Educational:      1871-1930s                                    Public
                                    #2             School                                                         school
                                                                                                                  (Elementary)
--------------------------------------------------------------------------------------------------------------------------------------------------------
1 Market St.                       Rosen Mill     Industrial:             1891                                       Day care/
                                                   Textile Mfg.                                                    elem. school
--------------------------------------------------------------------------------------------------------------------------------------------------------
31-35 McBride Ave.                 Hayes Mfg. Co  Industrial:             1910                                     1950s bld:
                                     (Demolished   Textile Mfg.                                                      Day Care
                                    )
--------------------------------------------------------------------------------------------------------------------------------------------------------
16 Spruce St.                      Rogers Loco.   Industrial:             1880                                    CDC/social
                                    Admin Bld.     Locomotive                                                     services
--------------------------------------------------------------------------------------------------------------------------------------------------------
10 Spruce St.                      Ivanhoe Mill   Industrial:             1840                                    Artist
                                    Wheelhouse     Paper Mfg.                                                     public
                                                                                                                  gallery
--------------------------------------------------------------------------------------------------------------------------------------------------------
49 Spruce St.                      Pub.           Industrial:            1930s                                       Day Care
                                    Utilities      Pub.
                                    Offices Bld.   Utilities
--------------------------------------------------------------------------------------------------------------------------------------------------------
32 Spruce St.                      Rogers Loco.   Industrial:            1870s                                       CDC Day Care
                                    Shop Bld.      Locomotive                                                          & high
                                                                                                                  school
--------------------------------------------------------------------------------------------------------------------------------------------------------
2 Market St.                       Rogers Loco.   Industrial:      1850s-1870s                                    Paterson              Offices, rental
                                    Shop Bld.      Locomotive                                                     Museum
--------------------------------------------------------------------------------------------------------------------------------------------------------
7 Mill St.                         Argus Mill     Industrial:             1900                                       Day Care &
                                                   Textile Mfg.                                                   services
--------------------------------------------------------------------------------------------------------------------------------------------------------
16 McBride Ave                     Franklin Mill  Industrial:        1870-1915                                                          Offices, rental
                                                   Textile Mfg.
--------------------------------------------------------------------------------------------------------------------------------------------------------
100 McBride Ave                    S.U.M. Hydro   Industrial:          1912-14                                                    Generates electricity
                                    electric       utilities
                                    Sta.
--------------------------------------------------------------------------------------------------------------------------------------------------------
* Source: City of Paterson


                                                    Table C.--Rehabilitations in Progress or Planned
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   Current                                  Proposed Uses
           Address            Historic  Historic    Year Built    Occupancy ----------------------------------------------------------------------------
                                Name       Use                      Status   Industrial  Residential     Educational/Public            Commercial
--------------------------------------------------------------------------------------------------------------------------------------------------------
101 W. Broadway               Old       Commerci           1845   Vacant                                                                        Offices
                               Hotel     al:
                                         Hotel
--------------------------------------------------------------------------------------------------------------------------------------------------------
24VanHouten St.               Harmony   Industri     1850-1870s   Vacant                 Rental
                               Mills     al:                                             Housing
                               (comple   Textile
                               x)        Mfg.
--------------------------------------------------------------------------------------------------------------------------------------------------------
50 Spruce St.                 Rogers    Industri          1870s   Vacant                 Condominium
                               Loco.     al:
                               Shop      Locomot
                               bld.      ive
--------------------------------------------------------------------------------------------------------------------------------------------------------
68 Ryle Ave.                  Addy      Industri          1850s   Vacant                 Condominium
                               Mill      al:
                                         Textile
                                         Mfg.
--------------------------------------------------------------------------------------------------------------------------------------------------------
50 Ryle Ave.                  Venerabl  Industri          1870s   Vacant                 Condominium
                               e Mill    al:
                                         Machine
                                         Mfg.
--------------------------------------------------------------------------------------------------------------------------------------------------------
13VanHouten St.               Congdon   Industri           1907   Vacant                 Condominium
                               Mill      al:
                                         Textile
                                         Mfg.
--------------------------------------------------------------------------------------------------------------------------------------------------------
28-42 Ryle Ave.               National  Industri           1915   Vacant                 Condominium
                               Silk      al:
                               Dyeing    Textile
                               Co.       Mfg.
--------------------------------------------------------------------------------------------------------------------------------------------------------
* Source: City of Paterson


                                                Table D.--Private Historic Properties, Not Rehabilitated
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                  Educational/
             Address               Historic Name   Historic Use    Year Built      Industrial      Residential       Public            Commercial
--------------------------------------------------------------------------------------------------------------------------------------------------------
70 Spruce St.                      Barbour Flax   Industrial:            1860s   Manufacturing
                                    Spinning       Textile Mfg.                   and
                                    Mills                                         industrial
--------------------------------------------------------------------------------------------------------------------------------------------------------
70 Spruce St.                      Dolphin Jute   Industrial:        1874-1880   Manufacturing
                                    &  Twine Co.   Textile Mfg.                   and
                                                                                  industrial
--------------------------------------------------------------------------------------------------------------------------------------------------------
183-229 Grand St.                  Granite Mill   Industrial:        1881-1908   Warehouse
                                                   Textile Mfg.
--------------------------------------------------------------------------------------------------------------------------------------------------------
2-50 Jersey St.                    Cooke Loco.    Industrial:            1870s   NJ Transit:
                                    Shop Bld.      Locomotive                     Bus depot
--------------------------------------------------------------------------------------------------------------------------------------------------------
17 River St.                       Society        Commercial:             1915                                                                Furniture
                                    Island         Market
                                    (S.U.M.)
--------------------------------------------------------------------------------------------------------------------------------------------------------
44-48 Ryle Ave.                    National Silk  Industrial:             1915   Manufacturing
                                     Dyeing Co.    Textile Mfg.
--------------------------------------------------------------------------------------------------------------------------------------------------------
38 VanHouten St.                   Edison         Industrial:        1894-1910                   Salvation Army
                                    Illuminating   Utilities
--------------------------------------------------------------------------------------------------------------------------------------------------------
Upper Raceway Park                 Rogers Loco.   Industrial:            1870s
                                    Storage Bld.   Locomotive
--------------------------------------------------------------------------------------------------------------------------------------------------------
37-53 McBride Ave.                 Oppenheimer    Industrial:             1915   Manufacturing
                                    Mill           Textile Mfg.
--------------------------------------------------------------------------------------------------------------------------------------------------------
23-29 McBride Ave.                 Fine Colors    Industrial:             1910
                                    Co.            Textile Mfg.
                                    (complex)
--------------------------------------------------------------------------------------------------------------------------------------------------------
* Source: City of Paterson

    [Responses to the following questions were not received 
from the National Park Service, Department of the Interior, at 
the time the hearing went to press:]

     Questions for Daniel N. Wenk From Senator Menendez, on S. 148
    Question 1. How many National Historic Districts include both a 
National Natural Landmark and a National Historical Landmark?
    Question 2. What other places in America now interpret Hamilton's 
vision of economic independence, particularly for military supplies?
    Question 3. Hamilton biographers emphasize that Hamilton's economic 
vision had two critical aspects: (i) zero tolerance for slavery; and 
(ii) opportunities for poor immigrants with no social pedigree to rise 
to the top of American society. What other places in America connected 
with Hamilton interpret this extraordinary vision of a Founding Father?
    Question 4. What National Park Service units have a relationship to 
Muslim Americans?
    Question 5. What National Park Service units interpret the modern 
Silk Road that was the theme of the Smithsonian Folk Life Festival on 
the National Mall in 2002?
    Question 6. On the same day that the Administration testified 
against the Paterson National Park, the Administration testimony on S. 
187 stated that Lowell, Massachusetts is ``the most significant planned 
industrial city in the United States.'' Why is Lowell more significant 
than Paterson, which was planned as an industrial city a generation 
earlier than Lowell by one of our Founding Fathers and Pierre L'Enfant?
    Question 7. The Park Service testified that Hamilton is represented 
three places in the National Park System. But scholars point out that 
he lived in Hamilton Grange only the last two years of his life--many 
years after his service in government--and the Grange has nothing to do 
with his industrial vision and its primary importance is as a remaining 
18th century house. Independence Hall does not interpret Hamilton's 
vision of the American economy or economic independence. And Federal 
Hall is a welcome center for the entire New York region that has only a 
very limited display on Hamilton's contributions. How can these three 
sites be used as a justification for rejecting the Paterson National 
Historical Park legislation?
    In addition, while I did ask these questions at the hearing I would 
like a more complete answer from the National Park Service on these 
questions in writing if possible.
    Question 8. At an early stage of the Paterson Great Falls Study, 
the National Park Service launched a special webpage devoted to the 
Paterson Study. For all the years the Study continued, the webpage 
noted that the Administration ``does not support addition of new units 
to the National Park System.'' What effect did the Administration 
policy have on the Paterson Study?
    Question 9. The Park Service published a Draft of the Paterson 
Great Falls Study for public comment in November 2006 and invited the 
public to provide comments by January 30, 2007. It is astonishing to 
read the letters of some of the most distinguished scholars in America 
characterize what the Park Service did in the Paterson Study. They used 
words like: ``misreads the historical record'' . . . ``seriously 
deficient'' . . . ``truly absurd'' . . . ``demonstrably wrong'' . . . 
``false'' . . . ``a serious misreading of the historical record.'' As a 
result of getting all these letters from leading scholars, what changes 
did the Park Service make in the Draft Study?
    Question 10. Governor Corzine wrote a letter to Secretary 
Kempthorne on September 11, 2006 that said: ``The State of New Jersey 
alone cannot protect the resources of the Great Falls and properly 
present them to the public without an NPS unit in Paterson.'' How can 
the Park Service Draft Study conclude that the State will be doing all 
that is necessary at the Great Falls when the New Jersey contribution 
to the Park is $10 million and the Park Service numbers make it clear 
that $20 million is necessary?
                                 ______
                                 
             Questions for Daniel N. Wenk From Senator Burr
    Question 11. Cache la Poudre River National Heritage Area Amendment 
(S. 128):

          a. Why has this National Heritage Area been inactive since it 
        was first established in 1996?
          b.Have any other National Heritage Areas or Corridors 
        encountered similar management challenges to those found at 
        Cache la Poudre River? If so, how were the problems resolved?

    Question 12. Paterson Great Falls Park Act (S. 148):

          a. What is the status of the suitability and feasibility 
        study conducted by the National Park Service for the Paterson 
        site?
          b. How many acres of the proposed area are in private 
        ownership and how much will remain in private ownership after 
        designation?
          c. The House companion bill, H.R. 189, has been reported out 
        of the Natural Resources Committee with an amendment. The 
        National Park Service opposed the House bill as introduced. 
        Does the National Park Service support the amended version of 
        H.R. 189? If not, why?
          d. Who will control land use within the boundaries of the 
        unit after designation?
          e. How many private businesses exist within the proposed 
        boundaries of the Paterson National Park? What other units of 
        the National Park System contain a concentration of private 
        businesses similar to Paterson? Does the National Park Service 
        collect a franchise fee or business use authorization fee in 
        such cases?
          f. It is my understanding that the proposed Paterson National 
        Park site currently contains apartments, affordable housing, 
        and proposed condominiums as adaptive reuse of historic 
        structures. Do any other units of the National Park System 
        contain private residential structures of this type? If so, 
        where and to what extent? Would the National Park Service 
        support adaptive reuse of historic structures for condominiums 
        in a national park unit?

    Question 13. Keweenaw National Historical Park Matching Funds 
Reduction (S. 189):

          a. The amendment removes a provision that prohibits the 
        Secretary from acquiring lands that have become contaminated 
        with hazardous substances. Under what circumstances would the 
        National Park Service feel compelled to purchase lands that are 
        contaminated with hazardous substances?
          b. Why is it necessary to delete a provision that prohibits 
        the acquisition of lands contaminated with hazardous 
        substances?
          c. How will this amendment improve the visitor experience to 
        Keweenaw National Historical Park?
          d. How many units of the National Park System have matching 
        funds requirements as part of their enabling legislation or 
        subsequent amendments? What is the range of matching fund 
        requirements (e.g., 1 federal to 1 non-federal or something 
        less being the smallest to 1:4 or something greater being the 
        largest)?
          e. Would Keweenaw or other units having a matching fund 
        requirement be able to apply the non-federal match toward the 
        enabling legislation requirement and the Centennial Challenge 
        program, if enacted, and essentially ``double dip''?

    Question 14. Steel Industry National Historic Site Designation (S. 
697): The site is part of the Rivers of Steel National Heritage Area, 
which was designated a National Heritage Area in 1996. It preserves and 
interprets the role of the steel industry in the development of a 
nation. The site contains several structures that are in need of over 
$30 million in repairs. If designated a National Historic Site, it 
would become a unit of the National Park System and the Federal 
government would be responsible for the repairs.

          a. How many other National Heritage Areas or portions of such 
        areas have been designated as units of the National Park 
        System?
          b. How many structures are on the proposed site and what is 
        the estimated cost of repairs and annual maintenance?
          c. Has a study been conducted to determine the suitability 
        and feasibility of designating the site as a unit of the 
        National Park System and what were the findings?

    Question 15. Lowell National Historical Park Boundary Adjustment 
(S. 867):

          a. How many acres affected by this amendment are currently in 
        private ownership and how many owners are involved?
          b. Do any of the owners object to this amendment?
          c. What is the estimated cost of the land included in this 
        amendment?
          d. How will this amendment support the purpose for which the 
        Lowell National Historical Park was established?

    Question 16. New Jersey Coastal Heritage Trail Reauthorization (S. 
1039): The Trail was reauthorized last Congress, but the final version 
signed into law inadvertently extended the authorization for one year 
instead of five. S. 1039 corrects the error by extending the 
authorization to 2011. The law passed in the 109th Congress also 
directed the National Park Service to prepare a strategic plan for the 
trail.

          a. S. 1039 extends the authorization from 2007 to 2011. Does 
        the National Park Service know of any other corrections we 
        should take care of regarding the New Jersey Coastal Heritage 
        Trail?
          b. What is the status of the strategic plan being prepared 
        for the New Jersey Coastal Heritage Trail?

    Question 17. Saguaro National Park Boundary Expansion Act (S. 
1341):

          a. What is the estimated cost of the property proposed for 
        addition to the Park and the Conservation Area?
          b. Are any of the lands included in the expansion area in 
        private ownership?

    Question 18. Tule Lake Segregation Study (S. 1476):

          a. S. 1476 requires the National Park Service to complete a 
        study within one year. The National Park Service is usually 
        given three years to complete a study. Can the study authorized 
        by S. 1476 be completed in one year or will you require more 
        time?
          b. How many acres does the Tule Segregation Center occupy and 
        what original structures remain on the site?

    Question 19. Underground Railroad Amendment (S. 1709/H.R. 1239):

          a. Section 2 of S. 1709 specifies that ``the Secretary shall 
        appoint at least 8 full-time equivalent staff to assist the 
        Secretary in carrying out duties under this act.'' What other 
        park units or park programs have legislation that specifies the 
        number of full-time equivalent staff that the Secretary shall 
        appoint?
          b. How many full-time equivalent staff has the Secretary 
        appointed to the National Underground Network to Freedom 
        program in 2007?

    Question 20. Denali National Park/Alaska Railroad Land Exchange (S. 
1808):

          a. How will the proposed land exchange between Denali 
        National Park and the Alaska Railroad improve the visitor 
        experience?
          b. Does the non-Federal land involved in this exchange 
        contain any form of development or history of hazardous waste 
        contamination?
          c. What is the historical use of the non-Federal land being 
        acquired by the National Park Service as a result of S. 1808?
          d. How will Denali National Park benefit from this land 
        exchange?
          e. Will the Alaska Railroad use the land it receives as a 
        result of this exchange in a manner consistent with the purpose 
        for which Denali National Park was established?

    Question 21. Alexander Hamilton Site Study at Virgin Islands (S. 
1969):

          a. How many existing National Park Units currently interpret 
        the life and contributions of Alexander Hamilton?
          b. How much will it cost to conduct the proposed study?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

              Northern Colorado Water Conservancy District,
                                  Berthoud, CO, September 24, 2007.
Hon. Wayne Allard,
U.S. Senate, Washington, DC.
    Dear Senator: I am writing you to encourage your support for the 
Cache la Poudre Heritage Area bill (SB128) pending in the United States 
Senate. Senate Bill 128 is a technical corrections bill that will 
rectify some errors in the boundary description in the original bill, 
and designate the Poudre Heritage Alliance, a non-profit 501(c)(3) 
organization, as the management entity for the Heritage Area.
    The Northern Colorado Water Conservancy District is a member of the 
Alliance, and has long supported the efforts to pass this bill. This 
bill is needed to assure proper administration of the National Water 
Heritage Area designation given the Poudre in 1996. It has been more 
than a decade since that designation, and we believe it to be 
imperative that we take this final step necessary to implement the 
intent of the designation.
    Your support of Senate Bill 128 which will allow implementation of 
the original Cache la Poudre Heritage Area bill will be most 
appreciated when this bill comes before of the National Parks Committee 
on September 27, 2007.
    The Heritage Area has widespread support throughout Northern 
Colorado and this federal legislation will strengthen an already 
successful heritage area.
            Sincerely,
                                         Eric W. Wilkinson,
                                                   General Manager.
                                 ______
                                 
                                           Town of Windsor,
                                   Windsor, CO, September 25, 2007.
Hon. Wayne Allard,
U.S. Senate, Washington, DC.
    Dear Senator: I am writing you to encourage your support for the 
Cache la Poudre Heritage Area bill pending in the US Senate. Senate 
Bill 128 is a technical corrections bill that will rectify some errors 
in the boundary description in the original bill and designate the 
Poudre Heritage Alliance, a nonprofit 501(c)(3) organization, as the 
management entity for the Heritage Area.
    Since its inception the Heritage Alliance has provided support with 
the help of the National Park Service at Rocky Mountain National Park 
in educating the public and promoting the Heritage Area. The Poudre 
Heritage Alliance has hosted two (2) national conferences and given 
numerous tours of the Heritage Area. The Heritage Alliance has 
negotiated with the Colorado Department of Transportation to locate two 
(2) large infonnational signs along I-25 where the Heritage Area and 
Poudre River cross the interstate. Twenty wayside signs have been 
installed along the trail that borders much of the Heritage Area's 
forty-four (44) mile corridor.
    Additionally, a Heritage poster, passport stamp program, brochures, 
an ethno history and website have all been created.
    A historical and cultural handbook has also been drafted and thanks 
to some non-profit grants will be printed and distributed in the near 
future.
    Your support to finalize the intent of the original Cache la Poudre 
Heritage Area bill is most appreciated when this bill comes up in front 
of the National Parks committee on September 27, 2007.
    The Heritage Area has widespread support throughout Northern 
Colorado and this federal legislation will strengthen an already 
successful heritage area. The Town of Windsor is an active member of 
this Alliance.
            Cordially,
                                                 Ed Starck,
                                                             Mayor.
                                 ______
                                 
                                       Sky Island Alliance,
                                    Tucson, AZ, September 25, 2007.
Hon. Jon Kyl,
730 Hart Senate Building, Washington, DC.
    Dear Senator Kyl, We appreciate the opportunity to support the Las 
Cienegas Enhancement and Saguaro National Park Boundary Adjustment Act 
(S. 1341) which will be heard in the Subcommittee on National Parks on 
Thursday September 27th.
    Sky Island Alliance has been party to negotiations concerning this 
bill since its original inception in February 2003. The legislation 
provides for the important acquisition of lands adjacent to the Las 
Cienegas National Conservation Area, lands adjacent to Saguaro National 
Park. and the net retirement of almost 1000 acre-feet of water rights 
on Cienega Creek. These actions combined will increase the integrity of 
the NCA and help ensure its core value--Cienega Creek--retains critical 
above-surface flows. S. 1341 also improves landownership patterns 
within the Sky Island region, and reduces the threat of ex-urban 
development largely outside of the Tucson metropolitan area, in turn 
keeping the Whetstone-Rincon wildlife linkage largely intact.
    Another beneficial aspect of S--1341 is Section 3(b)3(C)ii where 
cash equalization payments made to the Secretary must be used for the 
acquisition of lands or interests in southern Arizona. With more than 
70,000 acres of non-federal land within the Sonoita Valley Acquisition 
District alone, we appreciate your support of ensuring that 
equalization payments stay within southern Arizona.
    In relation to Section 4(c) which directs the Secretary to provide 
a road easement to the Forest Service boundary. we ask that the 
committee report further clarifies that new road construction into the 
Forest is not expressly authorized by this legislation and because of 
the existing access route, is not warranted.
    The expansion of the National Conservation Area and National Park 
arc worthy conservation measures that will have lasting beneficial 
impacts on our region's natural heritage. We look forward to the bill's 
passage.
    Thank you.
            Sincerely,
                                               Matt Skroch,
                                                Executive Director.
                                 ______
                                 
                     County Administrator's Office,
                          Pima County Governmental, Center,
                                    Tucson, AZ, September 26, 2007.
Hon. Jon Kyl,
U.S. Senate, 730 Hart Senate Building, Washington, DC.
Re: Pima County Support for S.1341, the Las Cienegas Enhancement and 
Saguaro National Park Boundary Adjustment Act

    Dear Senator Kyl: Pima County has long supported the conservation 
of lands in the Cienega Corridor, as well as expansions of the Saguaro 
National Park, East and West. We continue to support the most recent 
iteration of this bill, S. 1341, The Las Cienegas Enhancement and 
Saguaro National Park Boundary Adjustment Act.
    The Act would conserve the 2,700-acre Empirita Simonson property in 
the Cienega Corridor east of Tucson. This property was identified for 
conservation as part of the Sonoran Desert Conservation Plan and 
subsequent voter-approved bond election. Conservation of the property 
would expand significant conservation investments made by the National 
Forest Service, National Park Service, Bureau of Land Management, and 
Pima County, in this important biological and cultural landscape. In 
addition, this Act will expand the boundaries of Saguaro National Park 
along the important Rincon Creek and along the eastern slopes of the 
Tucson Mountains. This legislation will also conserve the Bloom 
property, a large 160-acre property adjacent to Saguaro National Park 
East and within the boundary expansion area.
    Thank you for your continued efforts to make this land exchange a 
reality.
            Sincerely,
                                          C.H. Huckelberry,
                                              County Administrator.
                                 ______
                                 
  Statement of Jim Stratton, National Parks Conservation Association, 
                               on S. 1808
    The National Parks Conservation Association (NPCA) works to 
protect, preserve, and enhance America's national parks for present and 
future generations. On behalf of NPCA's 325,000 members, and especially 
its members in Alaska, we appreciate the opportunity to submit these 
comments for the record.
    Several months ago we received a briefing on the proposal land 
exchange by representatives of the Alaska Railroad. Subsequent to that 
briefing, the National Parks Conservation Association reviewed the 
specific language of S. 1808, the Denali National Park and Alaska 
Railroad Land Exchange Act of 2007, to evaluate its potential impact on 
park resources. That review found the proposal to have minimal impact 
on the park and, therefore, we have no objection to the bill.
    We recognize the Alaska Railroad's need to build a turnaround for 
its trains and we understand the benefit that it will bring to both the 
economic viability of passenger service and the advantage for those 
seeking to travel to Denali by rail rather than the highway.
    We support the acre for acre provision with its upward limit of 25 
acres. This clearly establishes the minimal scope of the exchange. We 
endorse the section establishing newly acquired parkland under the 
exchange as designated Wilderness. And we further endorse the 5-year 
timeline to ensure this project is completed in a timely fashion.
                                 ______
                                 
         Statement of Richard Brookhiser, Historian, on S. 1969
    To understand the United States we have to understand Alexander 
Hamilton, and to understand Alexander Hamilton we have to understand 
his time on St. Croix. Hamilton, more than any of the founding fathers, 
worked to make America a prosperous modern nation; St. Croix, where he 
passed his early youth, taught him several key life lessons.
    Hamilton came to St. Croix with his parents in 1765. He left it for 
North America, alone in world, in 1772. Those seven years exposed him 
to capitalism, slavery, journalism and shame.
    In 1768 Hamilton, age 11, was apprenticed as a clerk to the 
merchant firm of Beckman & Kruger. This was a trading company, 
headquartered in New York, with branches throughout the Atlantic world. 
Hamilton worked in its Christiansted office. From errands and scut-work 
he rose to a position of real responsibility, minding the store when 
his boss was off island. He learned how trade and credit spanned 
international borders, and how your own backyard could be plugged into 
the global economy. He learned the importance of opportunity in his own 
life, and potentially in the lives of others. Years later, when as 
first Treasury Secretary of the United States, he wrote that a 
country's ``spirit of enterprise'' depended on the ``variety 
of...occupations'' it could offer its people, he was reflecting on the 
occupation he had been lucky enough to find at Beckman & Kruger.
    Most people on St. Croix were involved in growing sugar and cotton, 
and Hamilton learned about that too. He had seen plantations in his 
birthplace, Nevis, and he would see more in his years in America. But 
his time at the Grange on St. Croix, the plantation owned by his 
mother's in-laws, first thrust him into that world. It had 
opportunities of its own--for polish and civility. But it was based on 
the brute exploitation of slave labor. We do not know exactly when 
Hamilton adopted the abolitionist views of his adulthood. But when he 
wrote, as early as 1779 (84 years before the Emancipation Proclamation) 
that the ``natural faculties'' of blacks ``are probably as good as 
ours,'' he was drawing on observations he had first made in Caribbean 
slave society.
    St. Croix also had a newspaper--the Royal Danish American Gazette 
(ancestor of the Avis, still in business). Hamilton's first work of 
reporting and opinion was an account of the hurricane of 1772, with his 
judgments of the conduct of local officials. (He thought the governor 
did a good job--21st century officials take note). This was the start 
of a lifelong romance with printer's ink. Hamilton's contributions to 
the newspapers run to hundreds of thousands of words. The Federalist 
Papers, the 1787-8 newspaper campaign to ratify the Constitution, was 
his idea, and he wrote almost two thirds of the essays. The New-York 
Evening Post, the paper he founded in 1801, is also still in business. 
``My arguments,'' Hamilton wrote in Federalist #1, ``will be open to 
all and may be judged of by all.'' It was his credo, and he adopted it 
on St. Croix.
    His curse also began on St. Croix--the searing brand of shame, and 
a lifelong preoccupation with honor. Hamilton was taken to the island 
by his parents, James Hamilton, Sr. and Rachel Faucett. They were not 
married. In 1765, the year of their arrival, James took off. In 1768, 
Rachel died (she was buried at the Grange). Hamilton knew illegitimacy, 
abandonment and loneliness. Like troubled young men today, he was 
touchy about such matters all his life. His life ended, in 1804, 
because of a duel with Vice President Aaron Burr, fueled by his 
obsession with honor.
    ``The child is father of the man,'' wrote the poet William 
Wordsworth, a contemporary of Hamilton's. And the child raised on St. 
Croix became a founding father of the United States. We understand him, 
and ourselves, by understanding his St. Croix experience.
                                 ______
                                 
Statement of Hon. John P. de Jongh, Jr., Governor, U.S. Virgin Islands, 

                               on S. 1969
    Chairman Akaka, Ranking Member Burr, and Members of the National 
Parks Subcommittee, on behalf of the people of the Virgin Islands, 
thank you for the opportunity to present testimony in support of S. 
1969, ``The Alexander Hamilton Boyhood Home Study Act of 2007'' Virgin 
Islanders are grateful to Senator Orrin Hatch for his friendship, and 
his leadership on behalf of all Americans, including those residing in 
the territory of the Virgin Islands. Senator Hatch has a special 
understanding of American history and an appreciation of St. Croix' 
important role in early history of the Republic. He is an invaluable 
asset to the Senate and to the nation. I would also like to thank the 
original cosponsors of this Bill, namely Senator Jay Rockefeller, 
Senator Sam Brownback, Senator Evan Bayh, Senator Bill Nelson, Senator 
Mike Crapo, and Senator Tom Harkin, for their support of S. 1969.
    S. 1969 calls upon the National Park Service to conduct a special 
resource study to determine the suitability of designating Estate 
Grange and other sites related to Alexander Hamilton's life on St. 
Croix as a unit of the National Park Service. This study is to be 
conducted in collaboration with the Government of the Virgin Islands.
    We know that Alexander Hamilton was 10 years old when he moved to 
St. Croix from St. Kitts, with his mother, Rachael Faucette Lavien, his 
brother, James Junior, and his father, James Hamilton. His mother 
Rachael had strong family ties on St. Croix. Her mother lived on St. 
Croix. She was married and divorced on St. Croix to Johann Michael 
Lavien. We know that she was charged with abandoning her husband, and 
was briefly imprisoned in Christiansted before departing for Nevis. Her 
mother owned land on the island and her older sister, Anne and her 
husband James Lytton owned a small sugar plantation named The Grange. 
When Rachael, and her family returned to St. Croix, they took up 
residence at The Grange.
    In 1764, the island of St. Croix was one of the leading centers of 
commerce in the Caribbean. Tens of thousands of imported African were 
worked to death in major sugar plantations throughout the island. The 
harbors of Christiansted and Fredericksted were busy loading sugar and 
rum to commercial centers in New York and Europe, and off-loading 
slaves from Africa. Rachael operated a ship provisions business in 
downtown Christiansted from 1765 until she died in 1768. She was buried 
at The Grange.
    After his mother's death, Alexander Hamilton went to work as a 
clerk for Beekman and Cruger, a New York based shipping agent with 
offices in key sugar producing Caribbean islands. He departed St. Croix 
in 1773 to attend college in New York, and participate in the American 
Revolution. He wrote most of the Federalist Papers, served as our first 
Secretary of the Treasury, created the Bank of the United States, and 
founded our Coast Guard. He is rightfully viewed as one of our greatest 
Founding Fathers.
    St. Croix had a profound effect Alexander Hamilton's fundamental 
ideas. Leading scholars have credited Alexander Hamilton's experiences 
on St. Croix for his financial acumen and his vision of America as a 
world industrial and commercial power. Leading scholars agree that his 
mother's literary interests, including her extensive collection of 
books, inspired Hamilton's intellectual curiosity and writings. 
Scholars also agree that his first hand observations about the horror 
of slavery on St. Croix inspired his abolitionism, the creation of the 
Manumission Society, which inspired the end of slavery in the state of 
New York. Hamilton purchased a vacation property in Harlem, which he 
named The Grange, in honor of his childhood home on St. Croix.
    I hope to see Estate Grange and other associated sites on St. Croix 
transformed into a site of national significance, a center for the 
study of Alexander Hamilton's life, and the study of the influential 
role of the triangle trade in sugar, rum and slaves on colonial 
America.
    Estate Grange comprises 115 acres. The plantation is privately 
owned, and is largely intact from the days of Alexander Hamilton. It 
includes the Great House where Hamilton lived, a tombstone dedicated to 
his mother Rachael, and other buildings, including slave quarters, 
throughout the property. We envision a place where tourists and 
residents on St. Croix can experience pre-Revolutionary War plantation 
life, and where leading scholars and researchers can study and 
participate in discussions about Alexander Hamilton and the political 
climate that influenced his world-view. We hope that this study will 
lead to the restoration of other important locations on St. Croix, such 
as the Beekman and Cruger warehouse where he worked.
    My administration will collaborate closely with the Committee and 
with the National Park Service in implementing this important resources 
study. We believe that once completed, this project will be an 
important addition to the National Park Service system, and a model of 
cooperation on projects of significance, both locally and nationally.
    I appreciate this opportunity to present testimony on this 
important legislation. I once again, thank Senator Hatch and the other 
cosponsors of their leadership on behalf of the memory of Alexander 
Hamilton, and I urge passage of this legislation.
                                 ______
                                 
                               State of New Jersey,
                                    Office of the Governor,
                                   Trenton, NJ, September 27, 2007.
Hon. Daniel Akaka,
Chairman, Senate Energy and Natural Resources, Subcommittee on National 
        Parks, Dirksen Senate Office Building, Washington, DC.
Hon. Richard Burr,
Ranking Member, Senate Energy and Natural Resources, Subcommittee on 
        National Parks, Dirksen Senate Office Building, Washington, DC.
    Dear Chairman Akaka and Ranking Member Burr: As the Senate Energy 
and Natural Resources Subcommittee on National Parks considers S. 148, 
the Paterson Great Falls National Park Act of 2007, introduced by 
Senator Frank Lautenberg and cosponsored by Senator Robert Menendez, I 
would like to take this opportunity to register my strong support for 
this important legislation. The Great Falls in Paterson is a site of 
tremendous historical, natural, and economic significance and would be 
a worthy addition to the National Park System.
    Alexander Hamilton, a founder of our nation and its first Secretary 
of the Treasury, chose Paterson as the nation's first planned 
industrial city just after the end of the Revolutionary War in an 
effort to establish our economic independence from England. Hamilton 
saw that the waters of the Great Falls--the second largest waterfall 
east of the Mississippi--could be the engine to power our growth into 
an industrial, self-sufficient nation.
    Though Hamilton's life ended far too soon afterwards in the nearby 
palisades of Weehawken, New Jersey, the success of his integration of 
the water power system with his urban and industrial planning forever 
attached the label ``Cradle of American Industry'' to Paterson, New 
Jersey. Beginning with the establishment of the first water-powered 
cotton spinning mill, the city became a great manufacturing center at a 
time when most of our society was still agrarian. A candlewick-spinning 
mill in 1800 and a paper mill in 1804 followed the establishment of the 
cotton mill. By 1837, the city was the nation's largest silk producer 
and eventually became the largest producer of the material in the 
world. The ``Silk City,'' as Paterson came to be known, went on to 
produce and test the nation's first modern submarine, the engine for 
the first trans-Atlantic flight, and more locomotives than any city in 
the nation. Paterson was also home to one of the world's first 
hydroelectric plants, which was constructed to harness the power of the 
mighty Passaic River with the assistance of Thomas Edison, who helped 
usher in the modern age from his laboratory in nearby West Orange.
    Clearly, the Paterson Great Falls Historic District's 
qualifications for National Historic Park status are numerous, diverse, 
and beyond question. The federal government has long acknowledged the 
historical, natural, and economic significance of Paterson and the 
Great Falls, beginning with the Washington Administration's efforts to 
industrialize our nation. More recently, over the past two decades, the 
federal government repeatedly has partnered with New Jersey and the 
City of Paterson through the National Historic Preservation Act to 
assist in preserving the Great Falls Historic District and its 
structures.
    New Jersey, too, has continually recognized the historic and 
natural importance of the Great Falls area, most recently by 
designating the district as a State Park. However, the planned State 
Park is not a substitute for a National Park in Paterson. The State of 
New Jersey alone cannot preserve and protect the Great Falls National 
Historic District and properly present it to the public without a 
National Park Service unit in Paterson. This is a site of national 
historical importance that clearly deserves and needs the federal 
government in a lead role.
    Recognizing that National Park Service officials may have fiscal 
concerns about partnerships with states, we have worked very hard to 
create a real partnership with a strong financial commitment from the 
State, as well as the City of Paterson, which owns many of the historic 
structures. There are numerous successful precedents for such a 
Federal-State partnership, including the Pinelands National Reserve in 
southern New Jersey. Within the National Park System, there are 
numerous examples of co-located state and National Parks, from Lowell 
in Massachusetts to Redwood in California.
    Nor would this be a purely public venture. Because a central theme 
in the history of Paterson and the Great Falls involves Alexander 
Hamilton and American industry, we have the opportunity to attract 
substantial private donations from individuals and foundations outside 
of New Jersey.
    As the United States continues to prosper and grow, we must not 
neglect the history that has made our nation into the great superpower 
of economic and political freedom it is today. Hamilton's vision of 
combining the power of nature, business, and government--realized, 
nurtured, and preserved in the Great Falls Historic District of 
Paterson--is the foundation of our nation's current economic 
prominence. The House Natural Resources Committee has approved a 
companion bill, H.R. 189, authored by Congressman James Pascrell, Jr. 
and cosponsored by the other twelve Members of the House of 
Representatives from New Jersey. I urge you to honor Hamilton, his 
vision, and our nation by offering your support to the Paterson Great 
Falls National Park Act of 2007.
            Sincerely,
                                            Jon S. Corzine,
                                                          Governor.
                                 ______
                                 
  Statement of Francis J. Blesso, Consultant, Paterson, NJ, on S. 148
    Mr. Chairman and Members of the Subcommittee, thank you for 
allowing me the opportunity to submit testimony here today.
    Please consider the following comments I sent to the National Park 
Service, responding to their Special Resource Study.
    I've been intimately involved with the Great Falls area for almost 
forty years since I arrived in Paterson in 1968 to begin working on the 
city's redevelopment program in the first term of Mayor Lawrence 
``Pat'' Kramer, Jr.
    While the National Register Nomination Form which resulted in the 
Great Falls/S.U.M. Historic District being entered on the National 
Register on April 17, 1970 was researched and documented almost 
exclusively by John Young, a Columbia University graduate student, I 
was also one of the preparers. The dedication of the Great Falls Power 
and Receway System as a National Civil and Mechanical Engineering 
Landmark, on May 19, 1979, the 50th anniversary of Lindbergh's crossing 
the Atlantic (powered by a Wright Aeronautics engine made in Paterson) 
was a result of my documentation and nomination to the American Society 
of Civil Engineers. The fact that it is also a Mechanical Engineering 
Landmark was omitted in your report.
    In November 1993, I testified before the Subcommittee on National 
Parks, Forests and Public Lands at a hearing on a bill which initially 
failed, but ultimately survived, as P.L. 104-333, which is still an act 
without appropriation. The NPS was also at the hearing to testify 
against funding for Paterson.
    Since 1992, I have served as Paterson's contact person working 
under the mayor and with the Core Advisory Group in the administration 
of the $4.147 million New Jersey Urban History Initiative.
    In the early `70s, after the Great Falls/S.U.M. District was 
entered on the National Register, Mary Ellen Kramer, the mayor's wife, 
called upon the National Park Service and the Smithsonian Institution 
to evaluate the area in terms of national significance. Field visits 
were made by both agencies in 1972. Robert M. Vogel, an industrial 
expert from the Smithsonian Institution wrote:

          No other American city has the prospect for the imaginative 
        development of a historically important industrial area than is 
        now Paterson's.

    While you consulted Mr. Vogel as part of this report, I deeply 
regret that you did not give us the benefit of his current views. The 
early field visits and reports, including two summers of study by teams 
from the Historic American Engineering Record, provided additional 
national credibility to the area.
    I was not surprised to read your conclusion that the Great Falls 
Historic District does not meet all of the criteria to become a unit of 
the national system. Little has changed since the early `70s when I 
accompanied Mary Ellen Kramer and several other citizens on a trip to 
Washington, D.C. in an effort to meet with NPS officials to discuss the 
possibility of a national park. We received the cold shoulder then and 
were basically told that the NPS was not interested in taking on any 
new parks.
    Your report, by using selective quotes from selected biographers 
and your own writers, claims that Hamilton's S.U.M. proposal was a 
failure because it `` . . . did not fulfill the vision of its founders 
. . .'' and later that ``The S.U.M. did not become the manufacturing 
colossus Hamilton envisioned: rather it became a real estate venture . 
. . '' This most egregious distortion is used to fulfill your pre-
ordained conclusion. In modern financial parlance the S.U.M.'s early 
problems would have probably been handled as a Chapter 13 Bankruptcy--
Reorganization not, as you imply, a Chapter 7--Liquidation. The reality 
is that the S.U.M. was America's first industrial park and continued 
and sustained itself for more 150 years. What is a new planned 
manufacturing city if not a real estate venture? You treat the phrase 
real estate venture as a pejorative--as if Hamilton had created a used-
car lot.
    The NPS is forced to concede the national significance criterion by 
virtue of the NHL designation. In the suitability analysis of cultural 
resources, the NPS selected three of the eight evaluation concepts. A 
strong argument can be made that each of the concepts is applicable and 
should have been evaluated.
    In an effort to support its conclusions, your report lists many 
protected resources which contain elements similar to those in 
Paterson. There is some redundancy of resources, many of which are 
units of the national park system, such as Lowell National Historical 
Park and the Steamtown National Historic Site. I wonder how many of 
those cited NPS resources received a favorable recommendation from the 
NPS, yet were established by Congress anyway. While there are many 
similar individual elements in other places, it is only in Paterson 
where they all come together.
    The three main factors that justify inclusion of the GFHD as a unit 
of the NPS are: planning, Hamilton and manufacturing creativity.
    Paterson was ``planned.'' It didn't just happen. Sure the plan--
created by the greatest financial and engineering minds at the time--
required modification, as all plans do. But it worked. Its 
implementation attracted people with creative minds and innovative 
ideas that led to the many inventions and products that were produced 
here, products that changed our country. The list is long, varied and 
well-known.
    I couldn't agree more with your assertion that Hamilton is not as 
well represented in the national park system as his contribution 
deserves. There is simply no more effective or appropriate way to pay 
deserved tribute to Hamilton than through the GFHD. Recognizing 
Hamilton's contributions in this way is long overdue. The report states 
`` . . . there are no other resources at Great Falls save the falls and 
the S.U.M. constructed water raceways that reflect the period of his 
association.'' What about his greatest remaining resource--the city 
itself? Hamilton could have easily called his new city ``Hamilton'' had 
he not been so politically astute as to name it after the state's 
Governor.
    The most significant and obvious similar resource already 
represented by the NPS is Lowell National Historical Park. The NPS has 
done a fantastic job in preserving and interpreting the Lowell 
resources, thanks to substantial and continuous federal funding since 
1978. The web site photo shows a staff of over 70! There have been 
numerous economic and cultural spin-offs from the NPS involvement. The 
park is promoted with NPS signs along Interstate 495, including one 
encouraging motorists to dial an AM station at the end of the dial for 
information. It irritates me, to no end, to tune in and hear a welcome 
to Lowell `` . . . home of the first successfully planned American 
industrial city.'' The claimed ``first,'' is an outright lie. It 
rightly belongs to Paterson and it is time that the NPS correct this.
    Paterson singularly reflects the contributions of Alexander 
Hamilton to the United States. Despite the negative twist given in your 
report, it did come to embody Hamilton's dream of America as a 
mercantile powerhouse. This was his vision, this is what America 
became, and it all started when he looked out at the Great Falls.
    I follow University of Connecticut basketball, having attended the 
University and grown up in Hartford, where Sam Colt returned to the 
easier part of his very successful enterprise, mass producing, with a 
booming war-fueled demand, the revolver he created in Paterson. Gino 
Auriema, the Hall of Fame women's coach, in talking about his team 
versus arch rival University of Tennessee in reference to All-American 
and 2003 National Player of the Year, Diana Turasi, told the press: 
``We've got Diana, and they don't.'' Well, we have Hamilton, and they 
don't! It's just that simple.
    Paterson has received a great deal of federal and state assistance 
and has invested its own resources in the Great Falls area and has 
accomplished much. The staffs of the NPS and many state agencies have 
been very helpful. The resources, however, are still threatened. The 
raceway system, although partially restored, is still in need of major 
costly repairs. The 19th century masonry dam at the top of the falls 
continues to lose stone each year affecting not only the flow and view 
of the falls, but the ability to interpret Paterson's first water-
supply system. The remaining resources in the seven-acre former ATP 
site, except for the now stabilized Colt Gun Mill ruins, continue to 
erode and deteriorate. The City of Paterson constantly struggles to 
maintain the district's public spaces and facilities, the cost of which 
must compete with essential public services such as police, fire and 
schools.
    Your report, to buttress its negative conclusion, cites the 2004 
designation of the Great Falls State Park, the recent completion of the 
design competition and the commitment of $10 million for public 
improvements. Actually, no improvement funds have been appropriated to 
date and the prospects for a single appropriation do not look good 
despite Governor Corzine's strong support. In your magnanimous gesture 
to steer the GFHD to the affiliated area category, you gloss over the 
fact that state and national parks do successfully partner and co-
exist. They enhance each other. Even if the state comes through with 
the $10 million, it must still find operating and maintenance funds on 
an annual basis. The state funds, as challenging as they are to secure, 
are like a barrel of water over the falls in comparison to the NPS's 
own estimates to create and manage the park. Incidentally, your 
estimate of 5 to 10 full-time equivalent staff positions pales in 
comparison to the staff currently being utilized in Lowell. Federal 
financial resources are warranted and direct NPS management and 
protection is desperately needed.
    The NPS in this report and in previous testimony before Congress 
has consistently opposed funding for the GFHD including its testimony 
against P.L. 104-33 and P.L. 107-59. Paterson shouldn't continue to be 
penalized because it didn't possess the political muscle that Lowell 
had when both cities were competing in the `70s for national park 
designation. Our efforts were hindered by having a mayor and 
congressman of different political parties, fear of losing local 
control, as well as the prospect of a major federal flood control 
project proposed for the Passaic River which would have greatly 
affected the intensity and scenic elements of the Falls.
    Now, 30 years later, the situation has changed. The mayor, 
congressman, the entire New Jersey congressional delegation, the 
governor, as well as local citizen organizations (as exemplified by the 
New Jersey Community Development Corporation) all stand unified in 
their support for park status. What hasn't changed, however, is the 
attitude and bias of the leadership of the NPS. They continue to oppose 
the addition of any new parks in general, and Paterson in particular.
    The time has come for a change and to finally grant Paterson the 
recognition and support it deserves.
    Thank you for your time and consideration.
                                 ______
                                 
 Statement of Richard Sylla, Professor, Stern School of Business, New 
                       York University, on S. 148
    Mr. Chairman, and other distinguished Members of the Subcommittee, 
I am grateful for being invited to submit testimony about the proposal 
for a National Historical Park at the Great Falls of the Passaic River 
in Paterson, New Jersey. In the course of a four-decade career of 
research and teaching on the economic, business, and financial history 
of the United States, I have developed a great appreciation of the 
significance of the Paterson site for our understanding of how the 
United States, within a century after the Constitution created our 
current form of government became, became the world's largest economy, 
its leading manufacturing nation, and a magnet of opportunity for both 
free American labor and the immigrant workers of other nations, among 
them my own German and Irish ancestors, who were drawn here to 
contribute to and participate in the American dream. A National Park 
Service facility at Paterson would do much to remind us as a people of 
who we were and how we came to be what we are, namely, the largest, 
wealthiest, and freest economy and society in the world's long history.
                   what paterson uniquely represents
    The Paterson site is unique in U.S. history in a number of ways. It 
was there that one of our greatest of our founders, Alexander Hamilton, 
himself a talented immigrant who took advantage of the opportunities 
America afforded to help shape them for others who came later, launched 
the Society for establishing Useful Manufactures (S.U.M.). Hamilton 
wrote the S.U.M. charter, which was enacted as New Jersey's first 
business corporation in 1791. This was the same year that Hamilton 
presented to Congress his classic Report on Manufactures, a visionary 
document of America's diversified industrial future. In the Report on 
Manufactures, Hamilton specifically mentioned a number of industries 
that the United States should pursue: Iron (including steel, nails and 
spikes, and firearms), Copper, Coal, Flax and Hemp, Cotton, Wool, Silk, 
Glass, Gunpowder, Paper, Printed Books, and Refined Sugar and 
Chocolate. Paterson became a center of a number of these industries.
    The S.U.M. at Paterson, our first planned industrial community, was 
to be a concrete embodiment of Hamilton's vision. It was to be, in 
today's terms, an ``incubator'' of entrepreneurial manufacturing start-
ups, and it became exactly that. The original plans for the city and 
its manufactories were the product of the famous immigrant architect 
L'Enfant, who also left a large imprint on Washington, D.C. The 
raceways L'Enfant designed to channel waterpower to manufactories are 
still there. Paterson grew up as an important, diversified 
manufacturing center around the site. Many evidences of that 
development as it played over the course of the 19th century remain, 
for example, silk mills, locomotive works, and the site where Colt 
first began to manufacture firearms. Much of Hamilton's 1791 vision is 
thus preserved at Paterson. Also at Paterson one can access S.U.M. 
records and other corporate documents, and study original letters that 
Hamilton and L'Enfant wrote to advance the industrial incubator. As a 
scholar, I assure you that these resources can be used to illustrate 
the connections between ideas, actions, and results.
    As a professional economic and business historian, I have visited 
related sites such as the Old Slater Mill at Pawtucket, RI; the 
wonderful National Park Service restoration at Lowell, MA; and the 
Hamilton Grange site in New York City. Slater's mill is just a small 
factory; it was never intended to be an incubator of diversified 
manufacturing. Lowell, on a grander scale, represents just one 
industry, cotton textile manufacturing. Hamilton Grange honors the 
memory of a great founder, but it is just a house which Alexander 
Hamilton built and lived in during the last three years of his 
foreshortened life, and it will remain just a house, albeit a much more 
attractive house, once the contemplated move of it is realized.
    What is unique about Paterson is that it embodies in a concrete and 
developing way that can be traced in the waterworks, the buildings, and 
so on, the vision of diversified manufacturing and industrial power 
under corporate auspices that, along with our public and private 
financial system, is one of Hamilton's great legacies to his country.
    In my estimation, the National Park Service is the only 
organization capable of presenting and interpreting the national 
significance of the Paterson site. Equally important, National Park 
Service adoption of the site as one of national significance would do 
wonders in attracting corporate and other private donations to preserve 
the site and bring it to life. To have such a Park Service site in the 
densely populated tri-state region centering on New York City would be 
a boon to school children and indeed children of all ages who are 
curious about the origins of U.S. economic might based on free and open 
opportunity for all who were here and came here.
          flaws in the nps special resource study of paterson
    Given the professional and personal opinions I have just stated, I 
was disappointed by the National Park Service's Special Resource Study: 
Great Falls Historic District, Paterson, New Jersey, dated November, 
2006. That study used strained reasoning and faulty interpretations to 
reach a conclusion that the Paterson site failed to meet the criteria 
for suitability, feasibility, and need for NPS management.
    I believe the Special Resource Study misreads the historical record 
when it asserts in two places that the Society for Establishing Useful 
Manufactures (S.U.M.) at Paterson was intended to become ``a 
manufacturing colossus'' (pp. 22 and 55), and that its failure to 
become a manufacturing colossus is one reason why it is unwarranted to 
have a national park at Paterson. That is incorrect. Alexander 
Hamilton's plan for the S.U.M., as I noted earlier, intended the new 
company to be what today we would call an ``incubator'' of 
entrepreneurial start-ups. My point was not new or original. An early 
historian of the S.U.M., Joseph Stancliffe Davis of Harvard, made the 
point in his 1917 study of the company's history, noting that the stock 
of the company ``became a highly profitable investment and the 
corporation proved itself no insignificant factor in promoting the 
development of a `considerable manufacturing town,''' and concluding 
that, ``The event has thoroughly justified the farsightedness, if not 
the sense for immediate profit, which was shown by the original 
entrepreneurs'' (Davis, Essays on the Earlier History of American 
Corporations (1917), vol. 1, p. 518).
    In short, by providing factory sites and waterpower to 
entrepreneurs in the years and decades after its founding, the S.U.M. 
at Paterson achieved the primary objective of Hamilton and its 
founders. It became an incubator of manufacturing start-ups, 
demonstrating the value of manufactures to secure America's 
independence and providing growing opportunities for immigrants to 
begin to realize the American dream. It was not an enterprise failure.
    Another serious misinterpretation of the National Park Service 
Study is to read a provision of the S.U.M. charter saying, `` . . . the 
said corporation shall not deal, nor trade, except in such articles as 
it itself shall manufacture, and the materials thereof, and in such 
articles as shall be really and truly received in payment and exchange 
therefore''--in an expansive way, as implying: ``This was envisioned as 
no mere business or holding company enterprise, but one that 
manufactured the products and gathered the resulting profits at a scale 
previously unknown in the new nation'' (NPS Special Resource Study: 
Great Falls Historic District, Paterson, New Jersey (November, 2006), 
p.17. Historian Davis, in a contrast with which I agree, concluded that 
its main intent was to limit rather than expand the scope of the 
enterprise: `` . . . the Society was prohibited from becoming a general 
trading or banking company . . . ''(Davis, Essays, I, p. 380). Such 
limiting provisions were common in early U.S. corporate charters. 
Alexander Hamilton, the author of the S.U.M. charter, had included 
similar limiting provisions in the charters he wrote for the Bank of 
New York and the Bank of the United States.
    I would also question the Study's conclusion (on page 55) that `` . 
. . the fact of the matter is that the Paterson venture, as envisioned, 
failed early-on due to the major weaknesses of its governor/director 
participants. The S.U.M. did not become the manufacturing colossus 
Hamilton envisioned.'' This is a misinterpretation because Hamilton did 
not envision the company becoming a manufacturing colossus. He 
envisioned it as a pilot and learning project that would serve as an 
incubator of manufacturing start-ups and a stimulus to industrial 
entrepreneurship in Paterson and elsewhere in America. In the long run, 
the S.U.M. succeeded in realizing that vision, and it was the long run 
that mattered most to Hamilton.
    Yes, in the short run the S.U.M. did have managerial problems. But 
those problems were not the sole reason for suspension of its factory 
operations in the mid 1790s. After the S.U.M. received its New Jersey 
charter in 1791, war broke out in Europe between Britain and France, 
creating new international commercial opportunities for the neutral 
United States. That shifted profit opportunities as well as labor and 
capital away from domestic manufacturing and toward international 
commerce. When French armies conquered the Dutch Republic in 1795, 
America's access to the Amsterdam capital market was cut off, raising 
the cost of capital for U.S. manufacturing and the United States in 
general. There were a number of reasons why the S.U.M. put its plans on 
hold in the mid 1790s, and managerial problems were most likely not the 
most important of them. As the international and domestic situations of 
the United States changed in the late 1790s and early 1800s, it did not 
take long for many new factories to be built at Paterson, using sites 
and power provided by the S.U.M.
    Again, judging by the results of recent scholarship, the NPS Study 
is wrong in contending that ``Hamilton's vision of an industrial 
society was achieved in the United States, and in Paterson, but after 
the early decline of the S.U.M., more quickly and wide-spread in places 
like Lowell and Waltham, Massachusetts and other New England cities 
that were built on the firm stepping stones of less grandly conceived 
endeavors'' (p. 55). The Waltham textile factory of the Boston 
Associates did not open until 1815, and Lowell was not founded and did 
not become a major center of textile production until the 1820s. That 
might not matter if economic historians still believed, as they once 
did, that industrialization and factory manufacturing production did 
not take hold in the United States until 1815 or after. Recent economic 
historical research findings--considered to be so important that they 
were published in a leading economics journal--indicate, however, that 
industrialization took hold during the 1790s, not a quarter century 
later. A new index of U.S. industrial production, 1790-1915, shows that 
industrial output grew at a rate of about 5% per year for the entire 
125-year period, with no tendency for it to accelerate after any 
particular date such as 1815 (J. H. Davis, ``A Quantity-Based Annual 
Index of U.S. Industrial Production, 1790-1915,'' Quarterly Journal of 
Economics 119 (Nov. 2004), 1177-1215.). Waltham and Lowell sustained a 
rate of industrial growth that already had been established during the 
previous quarter century. The S.U.M. and Paterson played a critical 
role in the industrial upsurge that began during that quarter century, 
many years before Lowell and Waltham opened their factories.
    Let me note just one more area in which the NPS Study, by ignoring 
the findings of more recent scholarship, seems to me to be seriously 
deficient. The Study says on p. 15 that Hamilton's Report on 
Manufactures of December 1791 `` . . . was not received favorably by 
Congress . . . ,'' and supports that by quoting Hamilton biographer 
Richard Brookhiser on p. 22 to the effect that `` . . . the `Report on 
Manufactures' was a dead letter.'' But recent research demonstrates 
that virtually every tariff recommendation contained in Hamilton's 
Report on Manufactures--and these policy recommendations were key parts 
of the Report--was adopted by Congress by May 1792, that is, within 
five to six months after Congress received the Report from Hamilton. 
The tariff increases recommended by Hamilton and adopted by Congress 
were modest--contrary to many depictions, Alexander Hamilton was not a 
protectionist--but in keeping with Hamilton's intent, they did provide 
added stimulus to the rapid growth of U.S. industrial production that 
began during the 1790s.
    In summary, a proper interpretation of the goals envisioned by 
Hamilton and others for the S.U.M. at Paterson, when combined with the 
recent findings of scholars on the industrial expansion of the U.S. 
economy starting in the 1790s and on the favorable reception by 
Congress of key recommendations of Hamilton's Report on Manufactures, 
greatly strengthens the case for a national park at the Great Falls 
Historic District in Paterson, New Jersey. The NPS Study notes, 
``Alexander Hamilton, the person, is not as well represented in the 
national park system as his significant contributions to American 
history deserve, but it is largely through a failure of the Service to 
fully interpret his recognized achievements . . . '' (p. 56). At 
Paterson, the National Park Service has a unique opportunity to 
interpret both Hamilton's achievements and the earliest and most 
important foundations of U.S. industrialization. I suggest that 
Congress encourage NPS to seize this opportunity.
    Lowell National Historical Park and the other parks listed in the 
Study provide no basis for concluding that what Paterson represents is 
already adequately represented elsewhere in America. Lowell, for 
example, was a cotton textile and textile machinery center established 
in the 1820s, in the midst of an industrial upsurge that began at least 
a quarter century earlier. Paterson in contrast became a leading 
national center for a wide range of industries. In that sense Paterson, 
much more than Lowell and much earlier than Lowell and other New 
England textile mill towns, came to embody the diversified industrial 
base for the United States that Alexander Hamilton envisioned and 
promoted. Hamilton detested slavery more than any of the great founders 
(a number of whom owned slaves), and he wanted America to have a broad 
industrial base so that our manufacturing sector would do much more 
than process cotton grown in the South by slaves. He envisioned 
Paterson becoming a center of opportunity for free laborers, including 
hard-working immigrants, who would do far more than spin and weave a 
raw material produced by slave labor. Paterson fulfilled that vision in 
a way that Lowell and the other New England mill towns did not.
                               conclusion
    Indeed, Paterson is the only place in America where it is possible 
to connect Alexander Hamilton's prescient vision of a great 
manufacturing nation in the 18th century with the actual fruits of that 
vision realized in the 19th and 20th centuries. Even if the Bush 
Administration cannot support funding now for a Paterson National 
Historical Park, the National Park Service has an obligation to 
American history to draw the proper conclusion that what Paterson 
represents is not adequately represented anywhere else in America. What 
is unique about Paterson is that it embodies--in a vivid, concrete, and 
developing way that can be traced around the Great Falls in the 
waterworks and mills--the vision of diversified manufacturing and 
industrial power under corporate auspices, with all the opportunities 
that represented for entrepreneurs and free labor, that is one of 
Hamilton's greatest legacies to our nation. I very much hope that 
Congress in this, the 21st, century will see fit to support a Paterson 
National Historical Park that will portray and interpret how our 
diversified economy developed from its roots in the 18th century into 
and through the 19th and 20th centuries.
    I thank the subcommittee for allowing me to present these views and 
interpretations of Paterson's unique significance in the development of 
the American economy in many crucial areas not now adequately 
represented in the National Park System or anywhere else in the United 
States.
                                 ______
                                 
   Statement of Ronald J. Tipton, Senior Vice President of Programs, 
           National Parks Conservation Association, on S. 148
    Chairman Akaka, Ranking Member Burr, and other distinguished 
Members of this Subcommittee, thank you for allowing me the opportunity 
to submit testimony on this very important issue.
    The National Parks Conservation Association strongly supports the 
proposed new National Park unit in Paterson, New Jersey. We believe 
that a National Park Service unit in Paterson is especially important 
now because the National Park Service must do more to establish 
connections with the millions of Americans who feel little or no 
connections to our National Parks. Paterson offers a unique opportunity 
to provide a new Park Service unit in a setting that Hispanic, Latino, 
African American, Muslim, Islamic, Jewish and Christian organizations 
have recognized as a place to connect with American History and the 
National Park System.
    These diverse groups come together for many reasons. They have seen 
the spectacular beauty of the Great Falls--the second largest waterfall 
in the eastern part of the United States. They increasingly recognize 
that no other natural wonder in America has played a more important 
role in our nation's historic quest for freedom and prosperity. 
Paterson is the only National Historical District that includes both a 
National Natural Landmark and a National Historic Landmark.
    America's First Secretary of the Treasury, Alexander Hamilton, 
conceived and implemented a plan with the help of Pierre L'Enfant to 
harness the force of the Great Falls to power the new industries that 
would secure America's economic independence. Leading scholars have 
determined that the Great Falls National Historic District contains the 
finest remaining collection of structures representing each stage in 
the transformation of America from a rural agrarian society based on 
slavery into a modern economy based on freedom.
    The history of Paterson has captured the imagination and spirit of 
a broad, diverse group of citizens throughout America. Hispanic and 
Latino citizens, who constitute most of Paterson's 150,000 residents, 
support the Paterson National Park in part because Hamilton played such 
an important role in expanding opportunities for immigrants and helping 
to spread the cause of freedom to the Spanish colonies in the Americas.
    African Americans recognize Hamilton's vision of an American 
economy beginning at Paterson's Great Falls and built through the work 
of men and women dedicated to freedom. Alexander Hamilton was an 
organizer of New York's first anti-slavery organization and Hamilton's 
fight against slavery was part of his inclusive view of how all 
Americans would participate in and benefit from a growing modern 
economy that would begin in Paterson.
    Continuing in the spirit of Hamilton's strident anti-slavery 
beliefs, Paterson became an important stop on the Underground Railroad 
in the 19th Century. Paterson also contains a 20th century landmark in 
African American history, Hinchliffe Stadium, the home to the New York 
Black Yankees and the site of the Colored Championship of the Nation in 
the 1930s. Baseball legends such as Satchel Paige, Josh Gibson, and 
Hall-of-Farmer and Paterson-native Larry Doby--the first African 
American to play in the American League--regularly played baseball at 
Hinchliffe. A Paterson National Historical Park will help preserve and 
protect this historic stadium that Preservation New Jersey, another 
supporter of a Park Service unit in Paterson, has listed as one New 
Jersey's Ten Most Endangered Historic Sites.
    Paterson can become the first NPS unit with strong Muslim-American 
support in a city that the second largest number of Muslims in any 
American city. Islamic citizens support the Paterson National Park as a 
continuation of the Silk Road that united their homelands in Central 
Asia with China and the West. They note that Paterson became the 
largest silk manufacturer of the world at the end of the 19th Century 
and was long known as the Silk City. As Richard Kennedy of the 
Smithsonian Institution observes, ``The Silk Road has extended to the 
United States and, since the tragic events of September 11, 
understanding that connection clearly has become more important. There 
is no better way, then, to learn more about the roots of this vital 
connection and to celebrate the long-standing relationships that have 
existed between east and west and north and south.''
    The National Parks Conservation Association proudly joins with an 
extraordinarily diverse group of Americans and scholars in calling for 
the creation of the Paterson National Historical Park. We urge the 
Department of Interior to endorse establishing this worthy addition to 
the park system.
    Thank you for your consideration.
                                 ______
                                 
    Statement of Benjamin H. Irvin, Assistant Professor of History, 
                    University of Arizona, on S. 148
    Mr. Chairman, and other distinguished Members of the Subcommittee, 
thank you for permitting me to submit testimony regarding the proposed 
National Historical Park at the Great Falls of the Passaic River in 
Paterson, New Jersey.
                   paterson's historical significance
    The Paterson Great Falls National Historic District is situated 
upon the Passaic River at the enormous Passaic Great Falls, whose 
awesome power inspired the first U.S. Secretary of the Treasury, 
Alexander Hamilton, to choose that location as the site for his Society 
for the Establishment of Useful Manufactures. From this auspicious 
beginning, Paterson emerged as one of the world's foremost producers of 
silk. It also became home to the Colt gun manufactory as well as 
numerous locomotive works. For these reasons, the Paterson Great Falls 
National Historic District must be understood as one of the most 
important birthplaces of American industry. Additionally, as the scene 
of the notorious Silk Strike of 1913, Paterson is a vital landmark in 
the history of American labor and immigration. More recently, Paterson 
was the venue for Hinchliffe Stadium, which was not only a marvelous 
example of art deco architecture but more importantly was also the home 
to the New York Black Yankees and the New York Cubans baseball teams. 
Paterson is thus a place of great consequence to African American 
history.
 the need for a national park service unit at the great falls national 
                           historic district
    The Paterson Great Falls National Historic District contains 
cultural resources not adequately represented in any other National 
Historical Park. It uniquely combines a National Natural Landmark and a 
National Historic Landmark. But the State of New Jersey cannot protect 
this precious historical and cultural resource without assistance from 
the National Park Service.
                               conclusion
    For the reasons stated above, I implore you to disregard the 
National Park Service's shortsighted Draft Special Resource Study, 
which misguidedly underestimated the historical value of the proposed 
park while simultaneously overestimating the State of New Jersey's 
capacity to maintain the site. Rather, please fight for the creation of 
a National Park Service unit at the Paterson Great Falls National 
Historic District. Do not consign Paterson or its magnificent and 
historical Great Falls to the dustbin of unpreserved national 
treasures.
    Thank you.
                                 ______
                                 
   Statement of Daniel J. Walkowitz, Professor, New York University, 
                               on S. 148
    Mr. Chairman and other distinguished Members of the Subcommittee: 
Thank you for allowing me the opportunity to submit testimony on this 
very important issue.
    I urge you to make the Great Falls Historic District in Paterson, 
New Jersey, a unit of the National Park Service.
    As a labor and social historian, I was consulted for the National 
Park Service's November 2006 report, Special Resource Study: Great 
Falls Historic District, Paterson, New Jersey and supported the 
designation of the Great Falls site as a national historic park. I was 
surprised, therefore, to read the report's conclusion that Paterson did 
not warrant such designation because Alexander Hamilton's plan for the 
city and the establishment of early industrialization was realized 
elsewhere, most especially in the role of the Boston Associates in 
Lowell. I respectfully submit this is a serious misreading of the 
historical record.
    Lowell is a wonderful site for exploring the development of the 
cotton industry and the early role of native American farm girls. 
However, the Lowell experience of the 1820s and 1830s so well recounted 
in the romanticized story of Lucy Larcom and the mill girls' magazine, 
The Lowell Offering, is precisely not typical of the American 
industrial experience. Lowell is a wonderful story but an out-of-date 
paradigm. Work now twenty years old by Raphael Samuel on the 
persistence of hand craft and Sean Wilentz on metropolitan 
industrialization in New York has pointed out that industrialization 
was neither defined by textile machines or large factories and was a 
more gritty tale of immigrant dependent labor across a multitude of 
industries.
    Paterson only becomes the ``silk city'' in the late nineteenth and 
early twentieth century; it is early home to the full range of early 
industrial industries and, of course, notably both iron and textile 
manufacture. The city also reflects the early and dominant role of both 
native and immigrant entrepreneurs and labor in industrialization. For 
instance, the late Herbert G. Gutman, who was the doyen of the new 
social history and remains unquestionably the leading historian of 
Paterson's industrialization, long ago complicated the rags-to-riches 
story which notes how top manufacturers (in textile centers in places 
like Lowell) came from privileged backgrounds. Paterson again tells a 
different tale. In Paterson most middle-level manufacturers came from 
immigrant backgrounds and lacked an inheritance of money or established 
social pedigree.
    But before concluding, let me return to the Special Resource 
Study's effort to connect Hamilton to the Boston Associates. Two 
positions held respectively by Hamilton and the Associates are 
critically divisive issues that characterized the early Republic: the 
role of slavery and immigrants. In his seminal work on the Boston 
Associates, Enterprising Elite: the Boston Associates and the World 
They Made (Harvard University Press, 1987), retired Williams College 
Professor Robert F. Dalzell Jr. makes it clear that the Associates 
played a troublesome role in attempting to quell the northern anti-
slavery crusade. Dalzell also demonstrated that their highest priority 
was continuing their secure position at the top of the social order to 
the exclusion of poor immigrants. On both scores, Paterson better 
reflects Hamilton's values then: the role of immigrants in industry is 
noted above; and since Paterson's primary textile industry was silk 
rather than cotton, Paterson's industries were not economically tied to 
the continuation of slavery. Indeed, at least one Paterson cotton 
manufacturer opened his home to runaway slaves on the Underground 
Railroad.
    In sum, I realize that several American cities lay claim to being 
the ``birthplace of the American industrial revolution.'' Lowell and 
Troy, a city about which I have written, are important parts of that 
story. But Hamilton in proposing the development of American 
manufacture chose Paterson as the site, both for its water power--the 
magnificent falls--and its centrality to urban markets and natural 
resources. Hamilton's vision and values, in truth, are most accurately 
reflected in the Paterson experience and its people. Early 
industrialization is now understood and taught as more than machines 
and large factories--it is changing rhythms of work, increased scale of 
production and the division of labor, the rise of wage labor--changes 
well in place well before the 1830s and not well represented by mill 
girls who imagined themselves becoming teachers! This modern 
scholarship on social and economic history points to the importance of 
Hamilton's vision for America. The National Park system, however, has 
not adequately accounted for these developments and the central role 
Hamilton played in them. It is time the Park System to fill this gap, 
and Paterson's Great Falls is an excellent place to do so.
                                 ______
                                 
  Statement of Ron Chernow, Author, Biographer of Alexander Hamilton, 
                               on S. 148
    Mr. Chairman, and other distinguished Members of the Subcommittee, 
thank you for allowing me the opportunity to submit testimony today.
    As author of the bestselling biography of Alexander Hamilton 
published in 2004, I am writing to endorse, in the warmest terms, the 
Paterson Great Falls National Park Act of 2007, S. 148. This is not 
only a spot of spectacular natural beauty that deserves to be far 
better known, but one that occupies a place of supreme importance in 
the annals of American economic history. For it was at this very spot 
hat Alexander Hamilton, George Washington, and the Marquis de Lafayette 
paused to picnic on a day during the American Revolution and it was 
here that Hamilton first envisioned the enormous economic potential of 
the great waters thundering over the falls.
    As our first Treasury Secretary, Hamilton personally composed four 
great state papers. Easily the most sweeping and prophetic among them 
was his ``Report on Manufactures.'' At a time when America was an 
agrarian society and the other Founders pictured the country remaining 
a rural paradise of yeomen farmers, the audacious Hamilton dared to 
conjure up quite a different America--one that bears a startling 
resemblance to the advanced industrial society that we inhabit today. 
This America would honor traditional agriculture, but it would also be 
a bustling, diversified place with manufacturing, trading, banks, and 
stock exchanges. Only in retrospect, after two centuries, can we 
appreciate the uncanny prescience of Hamilton's vision and its abiding 
relevance.
    To demonstrate the practicality of his far-sighted vision, 
Hamilton, as Treasury Secretary, spearheaded the creation of the 
Society for Establishing Useful Manufactures. The Great Falls of the 
Passaic became the home for this industrial laboratory, this futuristic 
city, this model of what America could be. Although the project 
faltered after the initial creation of a cotton spinning mill, the 
spirit of Hamilton's vision was ultimately to thrive in Paterson. As I 
write in my book: ``Hamilton's faith in textile manufacturing in 
Paterson was eventually vindicated in the early 1800s as a `raceway' 
system of canals powered textile mills and other forms of 
manufacturing, still visible today in the Great Falls Historic 
District. The city that Hamilton helped to found did achieve fame for 
extensive manufacturing operations, including foundries, textile mills, 
silk mills, locomotive factories, and the Colt Gun Works.''
    It has always saddened me that we do so much better a job in our 
schools in instructing students in the rich political history of our 
country than in the no less stirring saga of our economic development. 
A National Park Service site in Paterson would prove an especially 
vivid and dramatic way of educating our citizenry in America's economic 
history. At the same time, it could serve to revitalize one of the 
major cities in New Jersey and help to restore the luster that it once 
enjoyed and could enjoy again. All in all, this would be a timely and 
imaginative project for the Interior Department to undertake and one 
that would certainly redound to the future glory of any Interior 
Secretary. I urge the Committee to mark up the Paterson Great Falls 
National Park Act of 2007 as soon as possible.
    Thank you for your time and consideration.
                                 ______
                                 
 Statement of Mohamed El Filali, Outreach Director, Islamic Center of 
                       Passaic County, on S. 148
    Mr. Chairman, and other distinguished Members of the Subcommittee, 
thank you for allowing me the opportunity to submit testimony on this 
very important issue.
    I have reviewed a copy of the National Park Service draft Special 
Resource Study on the proposed Great Falls National Park. The Study 
incorrectly concludes that Paterson does not have unique resources or 
stories when compared to those already represented in the National Park 
System or interpreted by other public bodies. The NPS lists about a 
dozen different places ranging from Angel Hill State Park in California 
(where Chinese immigrants were detained) to the Danish Immigrant Museum 
in Elkhorn, Iowa and the Museum of Work and Culture in Woonsocket, 
Rhode Island (that ``interprets the compelling stories of French 
Canadian immigrants seeking economic improvement''). But none of the 
examples the National Park Service lists has anything to do with the 
Muslim immigration to Paterson, or anywhere else for that matter.
    In my August 15, 2006 letter to the National Park Service, I 
explained that many citizens support a Paterson National Park, and I 
want you and the National Park Service to understand why it is 
especially important to the Islamic community. Paterson has the second 
largest number of Muslims in any city in America, and New Jersey is the 
home of almost half a million Muslim-Americans. In that letter, I 
suggested a Paterson National Historical Park could achieve two 
important goals.
    First, I explained that a National Park in Paterson would provide 
Muslim-Americans with a meaningful opportunity to establish some 
connection with American history. There are special relationships 
between Paterson's history and the hopes and aspirations of the Islamic 
community in America today. Paterson's founder, Alexander Hamilton, 
invited immigrants from many different cultures to Paterson in order to 
build a new economy of opportunities. Hamilton welcomed immigrants at a 
time that other American leaders favored rewarding those who had been 
here longer or had come from families with more money or higher social 
status. Hamilton opposed slavery and created a new economy in Paterson 
that provided freedom and opportunities to immigrants from different 
cultures.
    Second, a Paterson National Park could increase America's 
understanding of Muslim-Americans. Such understanding is critical 
today. Since the tragic events of 9/11, many journalists and government 
investigators have come to Paterson and claimed that some of the 
hijackers stayed here. The novelist John Updike came to Paterson and 
wrote a novel called Terrorist, which was intended to be a work of 
fiction but which nonetheless has contributed to the negative views 
about Muslim-Americans. The Islamic community, however, sees Paterson's 
heritage as a way of showing how it connects with the American 
experience.
    Yo-Yo Ma's ``Silk Road Project,'' which is supported by His 
Highness The Aga Khan, highlights these points. It celebrates the 
connections between the West, Asia, and the Middle East formed by the 
global silk trade--connections of not just commercial, but also 
cultural, artistic, and religious interactions. Paterson, whose silk 
mills drew many Muslim immigrants from afar, is our stop on the great 
Silk Road, and it provides an example for Muslim and non-Muslim 
Americans of how we can affect and enrich each other's culture even as 
we share a common home.
    The draft study addressed none of these points. It is clear to me 
from reading the study that the National Park Service is under a lot of 
financial pressure not to create new national parks and the study's 
conclusions appear driven by a desire to reject a Paterson National 
Park.
    I sincerely hope, however, that this Committee recognizes the 
importance that a National Park in Paterson will have for the Muslim-
American community. Please support the Paterson Great Falls National 
Park Act.
    Thank you for your time and consideration.
                                 ______
                                 
  Statement of Alison K. Hoagland, Professor of History and Historic 
       Preservation, Michigan Technological University, on S. 148
    Mr. Chairman, and other distinguished Members of the Subcommittee, 
thank you for allowing me the opportunity to submit testimony on this 
very important issue.
    I urge you to make the Great Falls Historic District in Paterson, 
New Jersey, a unit of the National Park Service. Paterson's 
significance to the history of our nation is undoubtedly well known to 
you. As the site of one of the first deliberate industrial enterprises 
of the young republic, as the location of an innovative water power 
system, and as a tangible representation of the influence of such 
important personalities as Alexander Hamilton and Pierre Charles 
L'Enfant, this historic district is one of the pre-eminent sites in the 
history of the establishment of the new nation.
    During my long career in historic preservation I have studied and 
advocated for many historic sites. In the fifteen years that I worked 
for the National Park Service, I undertook projects with a number of 
parks, including Illinois & Michigan Canal National Heritage Corridor 
and America's Industrial Heritage Project in southwestern Pennsylvania. 
I was an active volunteer preservationist as well, serving as an 
officer of the D.C. Preservation League in Washington, DC, and on the 
Board of Advisers of the National Trust for Historic Preservation. I am 
currently a professor of history and historic preservation at Michigan 
Technological University (and am proud to note that one of the 
graduates from our M.S. Program in Industrial Archaeology now works for 
the City of Paterson).
    I would like to offer the combined perspective of an educator and a 
public historian. I teach a course called History of American 
Technology to engineering students. In that course, I discuss the 
Society of Useful Manufactures' establishment at Paterson as an example 
of Hamilton's commitment to the nation's industrial self-sufficiency. 
His debate with Thomas Jefferson over the role that industry should 
play in the new republic, as articulated by his Report on Manufactures, 
is one of the most significant turning points in the economic 
development of our country. Hamilton expressed his ideas in words and 
he built them in brick and stone in Paterson.
    As a public historian, I chair the Advisory Commission of the 
Keweenaw National Historical Park, which commemorates copper mining, 
the industrial history of this part of Michigan. From this perspective, 
I see the impact that a national park can have in drawing attention to 
our industrial resources and in explaining that history to the public. 
Industrial sites, so vital to the development of our nation, are more 
subtle in the way they present their significance. For years, people 
may walk on bridges over raceways, oblivious to their significance 
until it is explained to them. The promotion of industrial heritage can 
help residents take pride in their past, which in turn engenders 
confidence in the future. Industrial heritage is also an attraction for 
tourists, an important factor in a now-deindustrialized area.
    I understand that there is some concern that the industrial 
heritage found in Paterson is already adequately represented in the 
National Park Service. I assure you that that is not the case. Paterson 
pre-dates Lowell by thirty years, or a generation of thinking about 
industrial enterprise and development of water-power technology. 
Similarly, the Blackstone River Valley NHC interprets a later period. 
Other industrial history parks include Steamtown NHS and Dayton 
Aviation Heritage NHP, but they are obviously ordered around very 
different industries. The Erie Canalway NHC and Delaware and Lehigh NHC 
might be as interested in water systems, but it is water for 
transportation, not industry. No other National Park Service site comes 
close to embodying the role that Paterson played in developing the 
nation's industry.
    It is also important that this be a national park, not just a state 
park. Paterson has the ability to draw support nationwide--including 
some very well-connected people who come from Paterson but no longer 
live there--but that support would probably not be forthcoming for a 
state park. The connection with Alexander Hamilton in particular offers 
an attraction to out-of-state donors. The prestige and visibility of a 
national park are essential for serious private-sector support. 
Keweenaw NHP is established along a private-public model, one that is 
engineered to bring in private monies. In a deindustrialized region, 
that sort of support is not available locally. National donors must be 
tapped, and only a national park will be attractive to them.
    I particularly want to address the National Park Service's Special 
Resource Study on the Great Falls Historic District, in which I am 
deeply disappointed. The Draft Study, which seems to be a thinly veiled 
attempt to justify a predetermined conclusion, is analytically flawed 
and violates fundamental principles that professionals use in studying 
historic resources. Most significantly, the authors utilize a 
disturbingly narrow interpretation when it suits them, or an 
excessively broad one when that seems to fit the case they are making. 
It is hard to believe that this study was undertaken with a truly open 
mind.
    One example of this problem involves the boundaries. The authors 
narrowly interpret their charge to never take even a single step 
outside of the National Register-listed Great Falls Historic District. 
It is unfortunate that responsible professionals would lock themselves 
into the boundaries set decades ago and not go a few feet further to 
the adjacent National Register-listed site, Hinchliffe Stadium. 
Inclusion of the Stadium, the home of the New York Black Yankees, would 
provide a highly relevant dimension to a potential park, while being 
consistent with the larger themes of the Historic District through its 
origins as a municipal amenity for, and with funding from, workers in 
Paterson's mills.
    Similarly, the Study adopts an indefensibly narrow period of 
significance. The first National Register nomination was written in 
1970 and examined resources that were more than fifty years old. 
Subsequent nominations (the National Historic Landmark in 1976 and 
expansions of the National Register district in 1975 and 1986) did not 
re-examine this assumption. Thirty-six years have elapsed since the 
original nomination, yet the authors of this Study did not think to re-
examine the period of significance. If they had looked at the 1920-1956 
period, surely Hinchliffe Stadium would have been included.
    The boundaries and period of significance in National Historic 
Landmark documents prepared decades earlier is only a starting point; 
they must not limit proper study today.
    Another example of this narrowness is when the Study notes that 
Pierre L'Enfant's drawings for Paterson do not survive, yet the authors 
apparently declined to read L'Enfant's letters in Paterson at the 
Passaic County Historical Society, which detail his plans. More 
importantly, the Study chooses to examine the Society for Establishing 
Useful Manufactures (SUM) with a single narrow purpose, concluding that 
it was a failure, yet overlooking its 153-year existence; arguing that 
it was a private enterprise, yet overlooking its origins as a publicly 
chartered organization; and highlighting its first cotton mill, yet 
overlooking Alexander Hamilton's goal of fostering a number of 
different kinds of industries, which it did: sailcloth, locomotives, 
revolvers, silk and submarines being among those mentioned in this 
Study.
    This implicit branding of Paterson as a ``failure'' is disturbing 
for another reason, as if failure alone would disqualify it from being 
a national park. In fact, important events in history are often 
failures; we can learn from them as much as from successes. But 
Paterson was a ``failure'' only in the narrowest terms; instead, 
Hamilton successfully fostered a thriving industrial community. It may 
not have happened in his life time, but he is responsible for beginning 
a complex water-powered industrial park.
    When this Study looks for comparisons, though, it casts the 
broadest net and chooses to define Paterson as an unexceptional, common 
undertaking. The comparison of the Great Falls of the Passaic with 
waterfalls at Yellowstone and Yosemite is truly absurd. The idea that 
immigrant labor is a theme well-covered in national parks does not take 
into account which immigrant groups are best identified with which 
park; it is as if all immigrants and their experiences are the same, 
regardless of their country of origin, location in the U.S., or 
industry in which they work. Similarly, there might be several parks 
addressing industry, engineering, and technology, but the kinds of 
industry, engineering, and technology that could be interpreted at 
Paterson are distinctly different.
    Paterson's Great Falls deserve to be considered for national park 
status in a way that honestly assesses their merits. If Paterson were 
judged in appropriate contexts, we would see that it represents a 
unique chapter U.S. history; that it constitutes tangible evidence of 
an idea of industrial development articulated by one of our leading 
founders and developed by one of our significant early architect-
engineers; and that it does not replicate anything else in our national 
park system. I urge you to recommend that Congress create the Paterson 
National Historical Park.
    The Great Falls Historic District in Paterson is eminently worthy 
of inclusion in the National Park Service system, and I hope that you 
will do all in your power to make that possible. Thank you for your 
consideration.
                                 ______
                                 
Statement of Steven Lubar, Director, The John Nicholas Brown Center for 
 the Study of American Civilization, Professor, Department of American 
               Civilization, Brown University, on S. 148
    Mr. Chairman and Members of the Subcommittee, thank you for 
allowing me the opportunity to submit testimony for this important 
hearing. The following is my response to the National Park Service's 
Great Falls Historic District Special Resource Study.
    I write in reference to the ongoing Great Falls Historic District 
Special Resource Study. Great Falls occupies a distinctive place in 
American history, and I urge you to carefully regard its long history 
and unique resources as you consider the possibility of making it a 
unit of the National Park Service. I write both because I believe that 
America's industrial history is important, and because I believe it is 
important for the public to understand our industrial past, and because 
I believe that Paterson is an important part of that history. In my 
books Engines of Change: The American Industrial Revolution and 
Philosophy of Manufactures I highlighted the important role of 
Hamilton's Society for Encouraging Useful Manufactures. When I was a 
curator of industrial history at the Smithsonian's National Museum of 
American History, I was pleased to be able to include its history in 
the Smithsonian's industrial history exhibition, ``Engines of Change.''
    I am sure that your team of historians knows well the long and 
important technological, industrial and labor history of Great Falls 
and Paterson, with its eighteenth-and nineteenth-century waterpower 
systems, its key role in locomotive and armament manufacture throughout 
the nineteenth century, and the union activity that made Paterson 
famous into the early twentieth century. These activities, and the 
cultural resources, which are well described in the district's National 
Register nomination, represent important areas of American history that 
are under-represented in the National Park System, and which deserve 
greater representation as key elements in our nation's history. True, 
there are elements of the earlier industrial story told at Slater Mill 
(Blackstone Heritage Corridor), Lowell, and elsewhere. But those are 
local stories. Paterson represents the origin of American industrial 
policy; it is where national politics, economics, and industry were 
first joined. It is the first chapter in a story that came to define 
the American industrial system.
    Beyond the industrial story, there are also two other areas 
represented by the Great Falls Historic District that might not be as 
obvious, are not as well described in the nomination, and which I also 
believe are underrepresented among the National Park Service's 
holdings. While politics, in general, is very well represented, 
economics and economic and industrial policy--a key element in U.S. 
history throughout the life of the nation--is not. Alexander Hamilton's 
Society for Encouraging Useful Manufactures, which founded Paterson, 
was a key part of Hamilton's attempt to define the United States as an 
industrial nation. The Park Service preserves Hamilton's house, but his 
work, his philosophy, and his economic and political theories are 
better represented by the industrial structures at Paterson. With a few 
exceptions, they may not date from his time; but they are the result, 
in many ways, of Hamilton's ideas about America as an economic and 
industrial power.
    These cultural resources are enhanced by the Great Falls as a 
natural resource--and one that tells us about the changing history of 
the appreciation of natural resources in the United States. To an 
America used to the wonders of the West, the Great Falls of the Passaic 
River at what is now Paterson may not seem an extraordinary site, or 
sight. But they were one of the great natural wonders of the 
eighteenth-century America. Along with the Great Falls of the Potomac 
and Niagara Falls, the Great Falls of the Passaic were one of the sites 
that evoked feelings of awe and wonder. They captured the emotion the 
era called ``the sublime.'' Jedidiah Morse's American Gazetteer of 1798 
called the Great Falls ``one of the greatest natural curiosities in the 
State.'' It continues:

          The river is about 40 yards wide, and moves in a slow, gentle 
        current, until coming within a short distance of a deep cleft 
        in the rock, which crosses the channel, in descends, and falls 
        about 70 feet perpendicular, in one entire sheet, presenting a 
        most beautiful and tremendous scene.

    There are not many of these sites important to the cultural 
landscape history of the country remaining, and including the Great 
Falls as a National Park will ensure that this one survives.
    I hope that the Park Service will give the Great Falls Historic 
District the careful and thoughtful consideration it deserves as you 
consider its possible inclusion in the National Park system. Even 
should it become a state Park, its designation as a National Park 
remains important, both to insure that national story be told, and to 
connect the story of Paterson to the rest of our national history. 
Paterson tells a key part of our nation's story. It is a unique and 
important site, and could allow the nation's parks the chance to tell 
important stories not currently told.
                                 ______
                                 
 Statement of Richard Moe, President, The National Trust for Historic 
                        Preservation, on S. 148
    Mr. Chairman and members of the Subcommittee, my name is Richard 
Moe and I am the President of the National Trust for Historic 
Preservation. I would like you to know that the National Trust strongly 
supports S. 148--The Paterson Great Falls National Park Act of 2007 
introduced by Senator Lautenberg. The historic and natural resources at 
Great Falls in Paterson, New Jersey, are extraordinary and meet the 
National Park Service's criteria for suitability, feasibility, and 
management.
    Founded in 1792 by Alexander Hamilton, Paterson is the place he 
chose to implement his economic vision for new industry necessary to 
secure America's economic independence as an emerging nation. At the 
heart of the Great Falls Historic District lies the Passaic River and 
the second-highest waterfall on the East Coast. Hamilton hired Major 
Pierre-Charles L'Enfant, the famed planner of the Federal City, to 
harness the tremendous power of the Passaic and create the industrial 
opportunities he imagined. L'Enfant designed a series of raceways to 
divert river water and channel it to operate mills along its route. As 
a result, Paterson has the distinction of being the county's first 
planned manufacturing city and one of the pre-eminent textile producing 
centers in the United States.
    Silk manufacturing first began in Paterson in 1840 replacing 
earlier cotton mills that had mainly relocated to New England. Within 
ten years, it became known as ``Silk City.'' Except for the cultivation 
of silkworms, all other stages of silk production took place there and 
by 1870 it processed fully two-thirds of imported raw silk.
    Located just 12 miles west of New York City, this part of the 
metropolitan area is now under tremendous development pressure and its 
overall historic integrity is increasingly threatened. Though the Great 
Falls district has been designated a National Historic Landmark and a 
New Jersey state park, safeguards ensuring its long-term protection and 
public benefits are limited. L'Enfant's innovative water power system 
and many of the adjacent factories comprise the finest remaining 
comprehensive collection of engineering and architectural industrial 
works. These showcase almost every stage of America's manufacturing 
progress from the Hamilton era to the twentieth century. The best way 
to protect and interpret this extraordinary natural, historic, and 
cultural resource is through the creation of a national park in a 
partnership with the State of New Jersey. This is what Senator 
Lautenberg's measure would do and we urge you to support it.
    Mr. Chairman and members of the Subcommittee, Great Falls is the 
only Congressionally-created historic district that includes both a 
National Historic Landmark and a National Natural Resource. In this one 
place the American public can behold the panorama of this nation's 
industrial revolution and development, and its story should be fully 
interpreted and protected for future generations. Designating a 
national park is the first step in this process. Thank you for holding 
this hearing and providing the National Trust to present its views.
                                 ______
                                 
Statement of Gianfranco Archimede, Executive Director, City of Paterson 
              Historic Preservation Commission, on S. 148
    Mr. Chairman, and other distinguished Members of the Subcommittee, 
thank you for allowing me the opportunity to submit testimony today.
    I am providing the following comments on the National Park 
Service's Special Resource Study of the Great Falls Historic District. 
What follows is my professional response to the study. It is not the 
official response of the City of Paterson Historic Preservation 
Commission, nor of the City of Paterson. As staff to the Commission and 
to the City of Paterson, it is my responsibility to provide this 
assessment. These points were distributed locally for comment and I can 
say that many of them were strongly supported by colleagues and 
Commissioners here in Paterson.

          1. The study goes into detail where necessary in support of 
        its negative conclusions, and becomes apparently thin in areas 
        where scholars, both local and of national stature, have 
        supported opposite conclusions. I am referring to the body of 
        documents sent to the NPS during the study process that are 
        referred to in the Consultation & Coordination section on page 
        72. None of these documents are apparently referred to in the 
        study and the extent of their influence on the NPS research 
        does not come across.

    Furthermore, there is little explanation why these letters are not 
reproduced for direct reference in Appendix Two, while others between 
the NPS and NFWS and Native-American Tribes were. I can infer that 
these are the groups the NPS is required to formally consult with under 
NEPA and NHPA, while ``public consultation'' is more one-sided; the NPS 
requests input in general, gets it, makes their conclusions either way 
and then opens a comment period. This process may amount to little more 
than a pro forma exercise if the correspondence, especially from the 
body of scholars that responded, are not referred to nor reproduced for 
inspection. I imagine that Congressmen would also like to know more 
specifically the results of the local consultation without having to go 
to Chestnut Street in Philadelphia to view the documents.

          2. The study pays too much attention to revisiting well-known 
        history to establish criteria 1, that the GFHD possesses 
        nationally significant natural and/or cultural resources. Page 
        44 of the study states that areas already listed as NHLs or 
        NNLs are pre-qualified under criteria 1. There is no need, 
        then, for the study team to revisit national historic 
        significance other than to misrepresent it in a way that 
        supports the study's negative recommendations. There is an 
        obvious push by the narrative to lay out ``historical 
        realities'' in a way that refutes several key arguments 
        traditionally made by scholars in support of Paterson's 
        national significance. Of particular concern is the nit-picking 
        of the S.U.M. as a conceptual failure in context of a) 
        Hamilton's other great contemporary successes, b) later 
        developments, both locally and nationally, and c) relationship 
        to other extant resources in the district. There seems little 
        reason to pursue this thread other than to debunk or at least 
        to obfuscate the association between the resources and the 
        unique significance that Hamilton provides Paterson and the 
        Great Falls.

    This is, in my opinion, suggestive of doing ``What If'' 
(counterfactual) history. If, as the study states, the S.U.M. ``was 
ultimately to prosper as a real estate venture, rather than a 
manufacturing colossus'' (pg 22.) then ``what if'' Hamilton intended it 
to be a real estate venture? Would the S.U.M be more significant, given 
the same subsequent development of Paterson? Hamilton's preoccupation 
with dishonor to his reputation over the bankruptcy of the S.U.M. 
further proves what exactly? That he did not lead the S.U.M. to 
subsequently develop and expand its existing crude raceway system 
beginning in 1794? The same raceway that the study says, ``remains the 
most significant resource of the GFHD'' was built by Hamilton's S.U.M., 
an experimental industrial venture. Another example is the statement 
that ``the real first step in America's industrial revolution, however, 
took place in another former colony--Rhode Island,'' referring to the 
NPS' Slater's Mill NHL, that took off in 1792. This line of commentary 
appears clearly leveled at undermining the long-held propriety of 
Paterson as the experimental seat of the American industrial economy as 
envisioned and carried out by A. Hamilton.

          3. The GFHD resource inventory begins on pg. 39 and provides 
        an overview of extant cultural resources by listing the large, 
        early to mid nineteenth-century mills with obvious purpose of 
        showing the resources are ``typical of many northeastern cities 
        that experienced industrialization in the nineteenth century.'' 
        Perhaps all of these typical cities should also be National 
        Historic Landmarks, like the GFHD, which enjoys the highest 
        level of historic status that can be bestowed on an historic 
        district by the NPS.

    If, as the study alludes, a primary reason for NHL designation is 
the early water power system, then the system should be designated 
alone, and the period of significance limited to about 1830, for there 
were few improvements made thereafter. This, however, would be a 
serious oversight of interpretation, taking the artifact without regard 
to its context. This thread is obvious throughout the report and in its 
conclusions: that on most of the evaluated criteria--significance, 
representative resources, integrity, feasibility, etc. Paterson is 
typical, ordinary and already represented in other parks--and 
especially in Lowell National Historic Park. Lowell is referred to in 
each and every evaluated category in Chapter Three except for 
association with Alexander Hamilton. It is apparent that the study has 
gone out of its way to make this point emphatically known.

          4. When accounting for the resources within the district, I 
        am surprised that the content of the NRHP nomination forms was 
        not mentioned. Such germane documentation should be brought to 
        light so that an understanding and evaluation of the district's 
        resources would have a broader base for understanding 
        ``representative comparisons'' than those given. This is 
        especially the case if there exists oversights, discrepancies 
        or incompleteness in the NRHP documentation. In my opinion, the 
        study overlooks an essential opportunity to revisit the 
        district's boundaries and constituent resources in this way. 
        For example, to posit in the study that other NPS sites have 
        mills with intact and working machinery while the GFHD does not 
        seems simple enough, but is essentially the beginning of a 
        comparative inventory that is not fully informed. Such an 
        inventory, though, could and should be used effectively for 
        evaluating important comparative and thematic significance 
        criteria.

    The GFHD National Register nomination forms as they are, however, 
have but a sketchy inventory of GFHD resources and a primarily 
narrative evaluation of their contributing or non-contributing status. 
Defining such status is an essential step to delineating boundaries in 
a historic district nomination endeavor. To those who know the 
district, there are many cases where the forms and amendments do not 
help determine the status of particular resources, or flat out contain 
no information. Areas of archaeological potential and evaluation of the 
district under criterion D, for example, may not have been adequately 
addressed initially. Perhaps the Passaic Water Company pump houses 
extant at Mary Ellen Kramer Park, or the masonry dam constructed along 
the lip of the Great Falls, or the archaeological deposits of the 
Cottage on the Cliff dump site along the river across from ATP, or 
perhaps Hinchliffe Stadium should be included as contributing resources 
in such an inventory. There is a hydroelectric plant, a stadium, 
raceways, a waterworks, one extant reservoir and the remains of another 
(adjacent to the stadium and within the boundary) archaeological 
deposits, and a NNL waterfall--all practically touching each other, but 
not all included or adequately inventoried in the NRHP documentation. 
For this study to now sweep the resources of the GFHD into a typical 
collection of mid to late nineteenth-century mill buildings, save for 
the raceway (pg. 41) and to give negative comparative examples to the 
inventories of other parks, is particularly out of hand. Given the 
paucity of a comprehensive resource inventory and conditions assessment 
at the time of the study, I imagined the study team would have the 
opposite reaction, such as an explanation that the district's resources 
had not been thoroughly documented, followed by a recommendation to do 
so. Rather, lumping them into two representative architectural/
engineering periods followed by specific comparisons with inventories 
of other parks is to set up a predictable conclusion.

          5. Of the eight points of the Thematic Framework used for 
        evaluating Suitability, only three themes were determined as 
        relevant for review in the GFHD. What follows is a brief 
        discussion of how each of the three relates to the GFHD, and 
        comparisons with other existing NPS entities interpreting that 
        theme: immigration, waterpower, engineering, and industry/
        labor. The significance of Hamilton's involvement in Paterson 
        falls under ``industry'' and his involvement in Paterson is 
        significant insofar as it gave rise to the same ``phenomenon 
        that occurred in other locations all over the Northeast and the 
        nation at the same time.'' This can only mean then that 
        Hamilton's involvement in Paterson is trite considering the 
        national context--Paterson may as well be Newark. In my 
        opinion, the GFHD easily qualifies for evaluation under all the 
        themes, or at very least six of the eight. The three covered 
        oversimplify the interpretation of the district's cultural 
        significance in the same way as describing the district as a 
        collection of typical nineteenth-century mills did earlier. 
        There is little explanation of why the other five themes did 
        not apply.

          6. As for Feasibility, the GFHD is sufficient in terms of 
        access for visitation, but on pg. 65, ``Traffic congestion, 
        noise and exhaust odor impact the visitor experience 
        negatively.'' Perhaps those who visit are expecting Vermont? 
        There is a unique opportunity provided by the synergy of both 
        the Great Falls and a National Park at the center of a 
        stressed, dense urban area that the study team simply did not 
        grasp. It is the crux of the argument for the State Park, on 
        the other hand. This comment about exhaust odor exemplifies 
        that oversight perfectly.

          7. On-going state, county and city efforts are referenced but 
        not genuinely addressed in this study, and in the feasibility 
        section, are beguiled with deep negativity and doubt. I will 
        focus my brief comments only on city efforts. In 1986-87, the 
        City of Paterson adopted a historic preservation ordinance that 
        created a Historic Preservation Commission. Paterson remains 
        today as one of about forty Certified Local Governments in New 
        Jersey, serving the largest population of all other CLGs in the 
        state. The State's historic preservation plan and Smart Growth 
        master plan are supported by preservation planning efforts in 
        Paterson. The Commission adopted the National standards and 
        criteria for the preservation and evaluation of significance of 
        historic resources--those published in the Federal Register by 
        the Secretary of the Interior and applied by the NPS. Since 
        then, the City and the Commission have worked on a myriad of 
        projects on public and private land, often times in partnership 
        with the State and county entities. Project values managed 
        through this process over the years are conservatively 
        estimated to be over $150 million. There is no reason, then, 
        other than for a lack of public funding perhaps, to believe 
        that the City and State have not ``made a commitment to manage 
        the resources they own within the parameters of the NPS 
        management policies'' as stated in the study.

    For many years there has been firm agreement that the GFHD meets 
criteria for national significance especially by association with the 
S.U.M. and A.Hamilton. Congress has, over these years, authorized and 
appropriated funding used for planning and protection of some key 
resources, such as the Colt Gun Mill and the raceway. It is not the 
case that more federal funds have been invested than the local share, 
however, while local planning for these public resources in the GFHD 
has been largely consistent with federal standards. There has not been 
enough Federal investment made on behalf of these irreplaceable 
nationally-significant resources, however, in terms of consistent 
preventative maintenance, stabilization and restoration. This kind of 
federal assistance is required to get the resources to the stable 
condition that the study suggests they are in. While I agree with the 
statement regarding the competence of the New Jersey Parks Commission 
as stewards, there needs to be a larger role played by the NPS in both 
financial and technical assistance on a continuing basis for its NHLs 
if national park status and outright federal ownership is not possible. 
The ability of local government to bring to bear the sizable 
investments required on behalf of nationally-significant, district-
level resources for their stewardship (to national standards no less) 
in perpetuity is not realistic in most cases. The study's claim that 
adequate local stewardship exists without additional federal 
involvement is false.

          8. The overall feasibility conclusion for the NPS is that for 
        between $35 and $55 million (pg. 66), they could establish, 
        staff and maintain a park at the Great Falls, but given other 
        factors, they do not have that kind of funding to do so. If the 
        NPS does not have the ability or responsibility to offer as 
        much as $55 million to manage nationally-significant, qualified 
        resources that are rapidly deteriorating, can it argue that 
        others must demonstrate that they can provide this level of 
        sustenance prior to affiliating with them? Why then would the 
        city or state need any assistance from or affiliation with the 
        park service, as it already has national-level historic status 
        and recognition? The arguments made regarding pledges, lack of 
        local commitment and third-party investment seem backwards. 
        There is no comparison to managing a Park with the NPS' 
        recommended $55 million to leveraging $3 million from P.L. 104-
        333 (1996), even with the $10 million promised for the State 
        park development as suggested by the study.

    Please realize the far-reaching impact this study, published by the 
NPS and funded by Congress, will have locally. It is in the spirit of 
our shared commitments to preserving our national heritage that the 
charge of stewardship and legacy of these resources has been passed by 
those before us. By both small and large endeavors, we here in Paterson 
and New Jersey are doing our part.
    Thank you for your time and consideration.
                                 ______
                                 
 Statement of Eric DeLony, Former Chief, Historic American Engineering 
Record (HAER), National Park Service, Department of the Interior, on S. 
                                  148
    Mr. Chairman, and other distinguished Members of the Subcommittee, 
thank you for allowing me the opportunity to submit testimony on this 
very important issue.
    I write to express my strong support for designation of the Great 
Falls National Historic District in Paterson, New Jersey, as a unit of 
the National Park Service.
    My support for the site is based on my intimate familiarity with 
the unique historic and cultural resources available in Paterson and 
the goals of the National Park Service. Until my retirement in October 
2003, I worked with the National Park Service through the Historic 
American Engineering Record (HAER), a Federal program established in 
1969, to create a national record of America's engineering, industrial 
and technological heritage. My tenure at HAER extended for 32 years, 
half that time as senior program manager. I administered the program in 
such a manner that the act of documentation not only created a 
permanent record of drawings, photographs and histories for the Library 
of Congress, but also promoted the physical preservation of that 
technological heritage. As chief of the Historic American Engineering 
Record, I served as the Department of the Interior and National Park 
Service senior authority on engineering and industrial heritage.
    In 1973 and 1974, I was the project leader for two HAER recording 
teams that documented the power canals, silk mills, rail locomotive 
shops, and the related industries and neighborhoods of Paterson and the 
Great Falls area. The records created by this project led to the 
original designation of Paterson's Great Falls as a National Historic 
Landmark.
    The Paterson Great Falls site is the first planned industrial 
development in the United States--the place Alexander Hamilton selected 
to implement his vision of the United States as an urban, industrial 
nation. Hamilton created the concept of planned industrial development 
and America's first public/private partnership for economic 
development, the Society for Useful Manufactures (SUM). Hamilton 
selected the skilled city planner and engineer Pierre Charles L'Enfant 
to bring the plan to life with a raceway system that harnessed the 
power of the Great Falls for use in manufacturing. L'Enfant began the 
raceway system in 1793. Paterson's raceway system, the nearby dam 
across the Passaic River, and the buildings accommodating many 
industries represent the finest remaining ensemble of engineering, 
architectural structures and city planning from the 120-year period 
when America was becoming the great industrial nation Hamilton 
envisioned. The growth and changes in industrial planning, engineering, 
alternative energy sources, and architecture that took place in America 
are clearly shown in the works of the Paterson Great Falls Historic 
District that remain to this day. The range of these works is unique in 
the Nation.
    Based on my experience with the National Park Service and in 
Paterson, I firmly believe that the resources and historic and cultural 
themes present in Paterson are in no way adequately represented in any 
of the 388 units of the National Park System--not in Lowell, Hamilton's 
Grange, Steamtown, or any other NPS unit that touches on various 
aspects of the evolution of American industrialization and technology 
from the late-18th and early-19th century. I am familiar with the 
engineering and industrial heritage units of the National Park System 
having helped get some of them established. HAER has documented sites 
in most of these units over the years.
    One critical difference I see comparing Paterson with other 
industrial units of the National Park System such as Lowell, Saugus, 
Hopewell and Steamtown, is Paterson's industrial diversity. Paterson 
was not just a textile, iron site, locomotive shop, power canal or 
single industry community. Paterson is the finest illustration of 
Hamilton's vision to create an America based on diversified industries, 
thus enabling America to compete more successfully in the international 
marketplace. Hamilton's dream was realized through the creation of the 
planned industrial center in Paterson and through the evolution of 
industries throughout the past 200 years. As he explained in his Report 
to the Congress on Manufactures, Hamilton believed that America could 
compete economically with Europe only if America embraced new and 
varied types of manufacturing. Paterson represents this vision 
demonstrating the results of Hamilton's economic dream through the 
creation and evolution of the raceways, mills, locomotive plants and 
other diverse industrial factories. Paterson and the Great Falls 
Historic District represent the fruits of Hamilton's vision better than 
any other location.
    Concerning 21st century relevancy, Paterson, because of its 
economic and racial diversity, is relevant to contemporary America 
because the City engages all citizens--black and white, Italian, 
Hispanic, African American, Muslim and Jewish--especially those of the 
laboring, working class and the lower end of the economic scale. No 
other National Park unit has the potential of embracing and 
interpreting such a vast cross section of the United States--the 
culture, history and mores of the common laborer--better than Paterson. 
A National Park Service unit in Paterson will provide the opportunity 
to interpret these values with special relevance to labor and working 
class America through the physical workplace and surrounding 
neighborhoods. America's working class and minority citizens today have 
little stake in our great National Park System. The industrial fabric, 
power canals and associated neighborhoods of the Great Falls/SUM 
Historic District in Paterson have the potential to interpret those 
values for the edification and enjoyment of future generations better 
than any other place in America.
    Paterson's varied and evolving nature of manufacturing also 
differentiates the area from other National Park System sites that deal 
with the discrete aspects of industry. Although Lowell serves a 
valuable role in the National Park System as an example of the 
nineteenth century cotton industry, Paterson represents so much more. 
Paterson ventured into silk textiles as early as the 1830s, eventually 
becoming the largest silk producer in the world and making America a 
major force in international commerce. Paterson also became a hub for 
non-textile manufacturing, as the first revolving pistol was assembled 
in Paterson at the Colt Gun Mill. During the nineteenth and twentieth 
century, plants in Paterson played a major role in producing forms of 
nearly every type of transportation, including locomotives, submarines, 
bridges and the engine for the ``The Spirit of St. Louis'' and the B-17 
``Flying Fortresses'' of World War II. No other site in the National 
Park Service, not even those that illustrate the cultural theme of 
industry, comes close to the breadth of Paterson's story.
    Paterson is particularly suitable for inclusion in the National 
Park System because resources abound to illustrate the unique stories 
told in Paterson. The story of Hamilton, L'Enfant and the SUM is 
present in the Great Falls and raceways. Paterson is also the site of 
an instructive collection of Hamilton and L'Enfant's writing on 
industry, city planning and engineering. These letters, which help make 
history come alive, provide a dimension of insight into history and 
will be eminently useful in interpreting and understanding the area. 
The evolving nature of industry in the United States is also present in 
the three-tiered power canal system, the associated rail and silk mill 
buildings such as: the Rogers, Grant, Danforth-Cooke locomotive works; 
Dolphin, Barbour, and Phoenix, Congdon and Harmony mills; the Ivanhoe 
Mill wheelhouse; and the former site of the Colt firearms manufactory. 
Paterson retains examples of nearly all the varied types of industry 
present in the town for the past 200 years.
    In 1976, following my work with HAER in Paterson, the National Park 
Service named Paterson's Great Falls a National Historic Landmark. To 
celebrate the spirit of economic independence, President Gerald Ford 
paid a visit to Paterson during a special Bicentennial tour of the 
country. During his visit, President Ford recognized that, though there 
are many important national parks and landmarks, ``this site has a very 
particular significance within that very select group.'' The President 
pointed out that Hamilton founded Paterson ``as a place to encourage 
America's economic independence and demonstrate the value of American 
industry'' and observed that ``we can see the Great Falls as a symbol 
of the industrial might which helps make America the most powerful 
nation in the world . . . We can see it as a symbol of industrial 
democracy, which makes a vast array of material goods available to our 
people.''
    Indeed, the fact that Paterson is a symbol of industrial democracy 
of the nation necessitates a national presence at the site. Although I 
understand the State of New Jersey is taking steps that may result in a 
State Park in Paterson, the possibility of a State Park must not be 
used to deny the eligibility of the Great Falls Historic District as a 
unit of the National Park System. Because Paterson's Great Falls 
Historic District is deeply rooted in the vision of one of the Founding 
Fathers of creating a great industrial nation able to compete 
successfully in the international marketplace, this site should be made 
a part of the National Park System. If the State does implement its 
announced plan to create a State Park in Paterson, then there would be 
the opportunity to have--as there is in Lowell--State financial 
assistance that helps fund activities related to a National Park.
    Because a central part of the Great Falls story involves Alexander 
Hamilton and American industry, there is in Paterson the genuine 
opportunity to attract substantial private donations. This realistic 
opportunity would be rendered virtually impossible if the National Park 
Service were to determine that the Great Falls Historic District is not 
eligible to be part of the National Park System. The kind of major 
private donors who would make substantial donations to present the 
history of Hamilton and American industry will demand the integrity, 
high professionalism, continuity and permanence of the National Park 
System.
    The story of Hamilton and American industry is not a story of the 
State of New Jersey; it is the story of our nation. The Great Falls 
Historic District should be a unit of our National Park System. Once 
part of the National Park System, it will be possible to link the 
presentation in Paterson with other elements of our National Park 
System involving Hamilton in Philadelphia and New York, and industry in 
Lowell and Steamtown. A National Park Service unit in Paterson will 
enhance NPS sites in Philadelphia, New York, Washington and other units 
of the National Park System.
    Paterson's Great Falls Historic District is clearly eligible to be 
a unit of the National Park Service. Because of the great interest that 
private donors have expressed in the story of Hamilton and American 
industry, in recent years, the timing is perfect for the site to become 
a unit of the National Park Service. I urge you to support the Paterson 
Great Falls National Park Act of 2007.
    Thank you for your time and consideration.
                                 ______
                                 
 Statement of Ron Emrich, Executive Director, Preservation New Jersey, 
                               on S. 148
    I am writing on behalf of the Board of Directors and more than 
1,000 individual and organizational members of Preservation New Jersey 
to urge you to actively assist in the creation of a Great Falls 
National Historical Park--the site Alexander Hamilton selected to 
implement his vision of America's economic independence--in Paterson, 
New Jersey.
    As you know, after the Revolutionary War, America was dependent on 
Europe for most manufactured products, from clothing to military 
supplies. Alexander Hamilton, America's first Secretary of the 
Treasury, recognized this economic dependence as dangerous for the new 
nation, and he conceived and implemented a plan to harness the force of 
New Jersey's Great Falls to power the new industries that would secure 
our economic independence. His ambitious vision was based on an intent 
to transform a rural agrarian society dependent upon slavery into a 
modern economy. True to Hamilton's vision, Paterson became a great 
manufacturing city, producing the Colt revolver, the first submarine, 
the aircraft engine for the first transatlantic flight, more 
locomotives than any city in the nation, and more silk than any city in 
the world.
    New Jersey's Great Falls is the only National Historic District 
that includes both a National Natural Resource and a National Historic 
Landmark. We understand that numerous scholars have weighed in with 
their support for a National Historical Park for the Great Falls 
Historic District. Many of these educators have concluded that Pierre 
L'Enfant's innovative waterpower system and the factories powered by it 
constitute the finest remaining collection of engineering and 
architectural structures representing each stage of America's progress 
from a weak agrarian society to a leader in the global economy.
    Because the City of Paterson owns the key properties, buildings, 
and valuable historical documents and the State of New Jersey will 
provide at least $10 million in financial assistance, a National Park 
unit at the Great Falls will not be costly for the Federal government. 
We are confident that private donors will also make significant 
contributions to a Paterson National Park interpreting Alexander 
Hamilton's vision of economic independence and freedom.
    Therefore, Preservation New Jersey is pleased to ask for your 
active support in recognizing that our nation's economic independence 
began in Paterson. We urge you to support the Paterson Great Falls 
National Park Act, and to work to create a national historical park at 
the Great Falls to interpret America's rich economic history
    Thank you.
                                 ______
                                 
  Statement of Flavia Alaya, Professor Emerita, Ramapo College of New 
 Jersey, and Co-founder, Friends of Hinchliffe Stadium Paterson, on S. 
                                  148
    Mr. Chairman, and other distinguished Members of the Subcommittee, 
thank you for allowing me the opportunity to submit testimony on this 
important legislation.
    As an educator as well as author, co-author and editor of a number 
of studies in Paterson hisotry and culture, and as co-founder of the 
501(c)(3) non-profit Friends of Hinchliffe Stadium, I write in vigorous 
support of S. 148 proposing to create a Great Falls/SUM National Park 
in Paterson, New Jersey, and especially to endorse the inclusion of 
Hinchliffe Stadium among the landmarks integrated into this richly 
interpretable site.
    The collaboration that established the Friends in 2002 had as its 
first goal inscribing the Stadium into the history of the Great Falls 
area by establishing its importance as a site of Negro League baseball. 
It is our conviction that the work that won it a place on the National 
Register in 2004, together with our ongoing research and interpretation 
(available via the Friends' recently-launched website: 
www.hinchliffestadium.org), enhances its national significance and 
convincingly affirms its potential as a National Landmark. We believe 
that if it is repositioned within the Great Falls and S.U.M. District 
boundaries from which it was originally excluded, it has the power to 
give this extraordinary area true narrative fullness and closure.
    That the Park Service has chosen to disparage such potential is 
puzzling in light of their own effort to bring the Stadium to national 
and even global attention in 2005, when their American Memory website 
made it the African-American site of the year. Indeed we allowed 
ourselves to think of this Park Service accolade as a kind of reverse 
rebuke for the bureaucratic error that sent the Stadium application to 
the Register as merely ``locally significant,'' an error the we and the 
New Jersey Preservation Office have been working to correct ever since.
    But the Park Service evidently speaks with many voices. Their 
recent statements on the proposed legislation before Congress are 
literally a different story: not only do they disparage the Stadium's 
story-power, but they deny the dynamic character of public culture 
generally. If this denial is a true reflection of policy, it would, I 
think, also reflect a monumental failure of imagination in their role 
as guardians of our national narrative.
    The central claim of both Study Report and testimony appears to be 
that the National Park at Lowell, which placed America's complex 
industrial past on the American cultural landscape for the first time 
almost a half-century ago, can still tell us (if it ever could!) all we 
know or need to know about our industrial origins and development; 
that, even leaving aside Alexander Hamilton's crucial contribution to 
this story, the Lowell catechism can answer all our questions about the 
checkered making and re-making of American industrial might.
    Such assumptions carry these documents into almost preposterously 
reductive absurdities: e.g., characterizing the Paterson locomotive 
``first'' at the intercontinental spike as an accident, nothing more 
than a contingency plan; comparing the culture-imbued Great Falls of 
the Passaic with the unspoilt natural wonders of Yosemite; 
counterweighing the major water-power innovations of the Society for 
Usefull Manufactures with Mr. Slater's mill-wheel. Employing another 
disingenuous rhetorical device, the testimony applies the drumlike 
repetition of the word ``unsuccessful'' to virtually every Paterson 
claim to innovation, hoping to persuade Congress via hypnotic 
suggestion, perhaps, that a Paterson National Park would be a permanent 
American shrine to failure.
    And yet what a gallery of extraordinary Paterson photographs 
accompanies this Study Report--page after page exhibiting not just the 
grandeur but the staying power of the venture capitalism of the S.U.M! 
Not only do these images visually repudiate everything the report 
actually says, they repeat what dozens of historians have already told 
us: Go ahead, circumnavigate the U.S., stop at every one of the places 
named in the NPS study; you will still not have the grasp of this 
nation's industrial history, or plumb its meaning to an incredibly 
varied workforce, or catch its entrepreneurial elan, or connect it to 
the competitive national spirit, or come to the level of insight into 
the essential, intricate integration of all these disparate, scattered 
parts of industrial development, including--yes--failure as well as 
success--success beyond failure, that would be made possible, visible, 
intelligible, in a single visit to a Great Falls National Park.
    Of course I include Hinchliffe Stadium in this missed interpretive 
potential. It offered the Park Service an obvious opportunity to join 
the authors of the proposed legislation outside the box. There is no 
news in pointing out that the Stadium falls technically beyond both the 
physical boundaries and ``period of significance'' of the existing 
landmarks, or that it has not yet been given the full landmark stamp of 
approval. But to say this and no more is to remove everything dynamic 
from the process that adapts interpretation to new scholarship and 
insight.
    One such missed opportunity would have served a critical 
contemporary project of public culture as well, indeed one of the 
legislated imperatives of the Park Service itself: to tell more 
African-American history on our cultural land-and cityscapes. S.148 is 
forthrightly consistent with this mission. It cites Hamilton's 
abhorrence of slavery and Paterson's repudiation, from its founding 
moment, of an economy dependent on it, a story no other National Park 
related to American industrial history, least of all Lowell, will ever 
be able to tell. Nevertheless, the Study Report's only mention of 
Hinchliffe Stadium's stellar connections to Black sports sidesteps 
entirely its potential to narrate such an important piece of under-
written African American history.
    Nonetheless, the Stadium does have this power. It is the power to 
tell a thrillingly positive story, evoking the ongoing dynamic of 
sports as a key means by which African Americans have challenged 
racism. As a major site of Negro League baseball, Hinchliffe is likely 
to prove one of only a handful of stadiums left in the U.S., certainly 
of any size, stature, or integrity, to tell this story, let alone tell 
it so brilliantly. We know that over the course of twelve full seasons 
here many of the Negro Leagues' greatest Hall of Fame superstars gave 
some of the best performances of their lives. As for Larry Doby, to see 
Hinchliffe as nothing more than the site of his early life as a high 
school athlete is to flout the obvious: its inspirational influence as 
scene of such great Negro League play, brilliant role-modeling for a 
talented poor kid dreaming of a career in professional baseball. For 
those of us who know this story from Doby himself, it is merely the 
crowning touch that he was ultimately scouted by the Newark Eagles at 
Hinchliffe, a touch that if it weren't absolutely true would sound like 
Hollywood fiction. This was a defining moment not just for him but for 
the rest of us, the break that led to his 1947 American League break-
through and gave the final death-blow to Jim Crow baseball in the 
American major leagues.
    There is still, of course, a more complex interpretive task: 
bringing this recreational structure into the narratives of industrial 
development so deeply scored on the surrounding cultural landscape. Yet 
it is--or ought to be--an exciting and rewarding one. Since the years 
in which the Great Falls/S.U.M Landmarks were defined, scholarship has 
helped us reclaim the meaning of the Stadium's proximity to both. 
Steven A. Reiss's work, including City Games: The Evolution of American 
Society and the Rise of Sports (1989) and Sport in Industrial America 
1850-1920 (1995), are just two recent studies in social history that 
link the evolution of American sports directly to technological 
innovation, work, and social movements, bridging the gap between 
industrial work and play. The Friends' own research, both in preparing 
the National Register application and the Stadium website 
(www.hinchliffestadium.org), has shown how the social and historical 
context of the Stadium's creation offers critical insight not only into 
millowner/leading-citizen attitudes toward the purifying power of 
athletics but into working-class consciousness of the meaning of sport 
and play.
    This was the same worker culture, after all, whose slogan for the 
eight-hour-day movement (a movement the Park Service testimony so 
glibly characterizes as ``unsuccessful''!.) was: ``Eight hours for 
work, eight hours for sleep, and eight hours for what we will!'' It was 
a demand that laid fresh claim to the part of life that work was not, 
and Hinchliffe ``City'' Stadium planted it large on the landscape. 
Justly called ``The House that Silk Built,'' it was paid for by the 
donations and self-sacrifice of the workers of this dominant industry 
and was constructed largely by and for working people. Completing it 
gave saving temporary livelihoods to men just thrown out of factory 
jobs. The dyers union local celebrated the successful end of an early-
Depression strike here.
    Even in its design and construction the stadium is rooted in the 
worker community, having been planned with instinctive respect for a 
scene long associated with popular recreation that includes the unique 
surround of the Great Falls and the Valley of the Rocks. Olmsted 
Brothers of Brookline, Massachusetts, direct descendants of the 
designers of New York's Central Park and originators of some of 
America's most visionary and people-centered environmental planning, 
engaged in a consultative process that interacted directly with the 
community. They succeeded in resolving, in an amazingly successful way, 
site considerations that included proximity to what they knew to be one 
of the nation's great natural wonders. They thus managed to preserve 
the awesome dignity of the Falls without sacrificing either the 
Stadium's visual grandeur or the 10,000-person seating capacity that 
represented its lifeline to economic survival.
    Folded together--as they should be--as they can be--such people-
centered narratives of race and industry, environment and sport, can 
invigorate and inspire. Here is a people's park, making no invidious 
distinctions of national origin or class or color or religion or 
gender, a place that made Eleanor Egg, one of America's earliest great 
female runners, its first honored athlete in 1932. Hinchliffe stories 
like these--and they are legion--add depth to a Paterson narrative that 
already underscores the equalizing force of talent and ``industry.'' 
Stories of Black industrial entrepreneurship in this city, of its 
counter-intuitive support for abolition and of Underground Railroad 
activity among its mid-19th-century manufacturers, all gain force by 
having Hinchliffe's empathy with underprivilege and the community's 
vigorous welcome of Black baseball as their sequel.
    It is sad to find the NPS unwilling to take on such an interpretive 
challenge, or even to define it as a challenge worth taking on. 
Although even the Study Report admits that a proper reading of American 
industry should include its ``path of decline'' and take us into the 
Great Depression, its own ``period of significance'' analysis instead 
makes 1914 a chokehold, not only denying the full curve of industrial 
change into the Great Depression, but cutting us off from every advance 
in social history since the 1970s. Most egregiously, it shows a refusal 
to address the insight we now have into Paterson's long adventure, and 
investment, in the egalitarian thrust of American capitalism, our 
awareness that it is a story about both entrepreneurs and workers, not 
one to which workers' contributions can be summed up, as the Park 
Service document does, in the phrase, ``labor unrest,'' as if labor 
contributed nothing more to our industrial economy than an 
``unsuccessful'' effort to undermine it. As Herbert Gutman's Paterson 
historiography has unequivocally proved, the true story about American 
industry is really two stories held in wonderful tension: one of 
individualist entrepreneurial workers making it ``from rags to riches'' 
and another of collective workers claiming their rights to work and 
wages and reasonable conditions of both.
    And also, yes, their right to play. Hinchliffe Stadium, as part of 
a larger national stadium movement that climaxed the growth phase of 
American industrialization, objectifies these ideas and brings them 
into focus. It was product of decades of local planning and dreaming, 
designed to be a statement of working people's investment, financial no 
less than moral and social, in the physical education of their aspiring 
young, in the fuller humanity represented by their own leisure time. 
When it was finally constructed, in the midst of economic calamity, it 
was explicitly meant to shout back the triumph of industrial America 
over adversity. Its very construction was made possible because the all 
parts of government and community worked together, exemplifying the 
best of the New Deal. To recount the litany of great athletes at 
Hinchliffe is to represent the full spectrum of our rainbow of national 
origins. It is to describe how work, decency, and sport are intertwined 
uniquely on the American scene. It is to show how the culture of 
striving, and the essentially hopeful, egalitarian, aspirational 
character of both our industrial culture and our cultural diversity are 
represented, literally and symbolically, by the ``level playing 
field.''
    Ultimately what the National Park Service has failed to 
acknowledge, even in the face of some of its own evidence, is the 
single thing that Paterson owns, missing from all the separate theme-
representing places they allege can tell the tale. That missing thing 
is synergy. It is a synergy both structural and human. Fully 
interpreted, allowed to do the work it can do, it can tell the story of 
industrial capitalism in all its sometimes beautiful, sometimes 
irritating, sometimes fractious and unsettling and difficult complexity 
and interrelatedness, all in one astonishing little educational 
universe. It is a synergy not just enriched but secured by the 
inclusion of Hinchliffe Stadium, a synergy that will guarantee a 
Paterson Great Falls National Park greater than the sum of its 
miraculously serendipitous, if far from accidental, assemblage of 
proximate parts.
    With S. 148, the legislative process stands poised to create this 
interpretive synergy. It is my deepest hope that your committee will 
thoroughly endorse this effort, in spirit and letter.
    I thank you again, especially on behalf of my colleagues among the 
Friends of Hinchliffe Stadium, for the opportunity to offer this 
testimony.
                                 ______
                                 
 Statement of Maria Magda O'Keefe, Executive Director, Hispanic Multi-
           Purpose Service Center of Paterson, NJ, on S. 148
    Mr. Chairman, and other distinguished Members of the Subcommittee, 
thank you for allowing me the opportunity to submit testimony on this 
very important issue.
    As one of the leaders of the proud Hispanic and Latino community in 
New Jersey, I am testifying today because we urgently need your help in 
creating a Paterson National Park at the site that Alexander Hamilton 
chose to invite immigrants to America to participate in the new and 
growing economy Hamilton sought to begin in Paterson. Paterson is the 
home to over 150,000 residents, with more than half coming from 
Hispanic or Latino origins, and New Jersey is the home of almost 1.5 
million persons of Hispanic or Latino origin.
    In proposing a modern American economy that would begin at the 
Great Falls in Paterson, Hamilton rejected the prevailing cultural 
standard of the time that rewarded the rich solely for the accident of 
birth and social status. Hamilton welcomed immigrants and believed 
deeply in a meritocracy that embraced hard work and accomplishments.
    At the end of the Eighteenth Century, Alexander Hamilton announced 
to a new nation and the world that Paterson welcomed entrepreneurship 
that would expand opportunities for people of all incomes, races, 
religions, and nationalities. It was a radical notion then and we still 
have a way to go to realize every element of Hamilton's dream. Today, 
Paterson's first Hispanic mayor continues to welcome immigrants and 
low-income families to Paterson's many ethnic neighborhoods and 
cultures.
    The National Park Service has finally come to recognize that many 
Americans--including many Hispanics--feel little or no connection to 
the National Park System and our Founding Fathers. We want you to know 
that the Hispanic community does feel a deep connection to Paterson's 
Great Falls National Historic District. We see it as the symbol of one 
Founding Father's efforts to shape our nation's economy to provide 
increased opportunities for immigrants.
    Alexander Hamilton is one of America's greatest immigration success 
stories. His personal triumph over elitism and classism in early 
American society and his belief that America's economy can help people 
from all walks of life will resonate with everyone visiting a Paterson 
National Park. Paterson's Great Falls National Historic District 
provides a unique representation of immigrant and American economy 
history that presents an inclusive story of the diverse American 
experiences going back to the vision of one of America's Founding 
Fathers.
    We believe a Paterson National Park will help Hispanic citizens 
from across New Jersey, across the New York Metropolitan area, and 
across the nation to take special pride in America's past, which 
engenders confidence and a stake in America's future. Paterson's story 
of a diverse group of hard-working immigrants will touch many members 
of America's Hispanic community who have felt little or no connection 
with our National Park System. We also see the Paterson National Park 
as an opportunity to recognize Hamilton's efforts to liberate Spain's 
American colonies.
    The Hispanic and Latino community needs you to support a Paterson 
National Park now. Please do not let us down.
    Thank you for your time and consideration.
                                 ______
                                 
 Statement of Christopher MacGowan, Professor, Department of English, 
               The College of William and Mary, on S. 148
    Mr. Chairman, and other distinguished Members of the Subcommittee, 
thank you for allowing me the opportunity to submit testimony on the 
proposed Great Falls National Historic Park.
    I write to draw your attention to an important feature of the Great 
Falls Historic District--the unique place of the Great Falls, its 
history, and that of the industry and city that grew up around it, in 
American literature. Poetry, and literature generally, are cultural 
elements not adequately represented in American parks.
    Much of my scholarship has centered upon the Pulitzer prize-winning 
poet who wrote the best known literary work associated with the Great 
Falls, William Carlos Williams (1887-1963). Williams' 240 page Paterson 
is directly related to the National Natural Landmark and to the 
National Historical Landmark, both of which are within the Paterson 
Great Falls Historic District. Paterson initially appeared separately 
in five books in 1946, 1948, 1949, 1951 and 1958. I edited the current 
edition of the poem for Williams' estate and publishers (New 
Directions) in 1992. Book III won the first National Book Award for 
Poetry in 1950, and two of the other books of Paterson were nominated 
for the award when they first appeared. Robert Lowell, writing on the 
poem's use of the city and the Falls in a 1947 review of Book I, 
observed, ``Taken together, Paterson is Williams' life, and Williams is 
what makes Paterson alive.'' Reviewing Book II in 1948 Lowell wrote, 
``Paterson is Whitman's America'' grown tragic in the 20th Century, 
``No poet has written of it with such a combination of brilliance, 
sympathy, and experience, with such alertness and energy.'' John 
Berryman, reviewing Book V in 1959, declared, ``I wish everyone would 
read it.''
    The poem has never been out of print. Its first printings of 1,000 
copies are now rare books, but New Directions issued cheap pocket 
editions of the poem as its first editions quickly sold out, and paper 
and hardcover editions are now readily available. Williams is standard 
reading on campuses in literature and creative writing courses; the 
poem is anthologized in all the standard undergraduate college text 
books, and the complete poem is taught in American literature graduate 
courses across the nation and internationally. I know of German, 
French, Italian and Spanish translations currently in print. Recently, 
to give another example of this poem's international fame, I was asked 
by a leading Norwegian Art Museum to write an introduction to the poem 
and to the history of Paterson and the Falls to accompany an exhibition 
of paintings inspired by the poem.
    Williams' poem is about a nation not a state, and recognizes the 
national importance of Paterson and the Great Falls. His intention, in 
writing a long poem about America and the city that marked its 
industrial beginnings, was to answer the long poems of his 
contemporaries T.S. Eliot and Ezra Pound. Both The Waste Land and the 
Cantos foreground European history, myth and culture. Williams' poem 
begins with the landscape itself and the early myths associated with 
Garret Mountain and the river. In the course of its five books it 
includes the history of Native American settlement, the violence of the 
Dutch era, Hamilton's interest in the area and the founding of SUM, the 
city's industrial expansion and decline, major catastrophes, recreation 
activities (daredevil stunts across the Falls, the circus, Sundays in 
Garret Mountain Park), the 1913 strike, and the contemporary city. 
Williams' sources include a number of 19th and early 20th Century 
histories, newspaper accounts, assorted documents (e.g. a will, a 
drilling chart), and letters. Some of this material is reprinted as 
prose documents within the poem, for Williams recognized, as recent 
literary scholarship has come to acknowledge, that history and 
literature are not absolutely separate categories but enrich and inform 
each other in important ways (as Williams' poem would demonstrate as 
part of the exhibits of a National Park).
    The major themes of the poem include the tension between the 
natural beauty of the falls and its exploitation by industry; money and 
economics; the sometimes misleading language of historical record; the 
role of religion; and the impact of class, gender and industry on the 
cultural life of the city and beyond. At the center of the poem is the 
Falls itself to which the poem returns again and again. The Falls serve 
as the focal point of the histories that the poem uncovers, and as a 
sound and force which--in the poem--represents an unheard call to 
recognize the beauty of the landscape and rediscover a neglected 
heritage, a heritage that could, if uncovered, help to bring direction 
and renewal to an American culture threatened, as Williams saw it, by a 
language and imagination rootless and unfulfilled.
    In the exhibits of a National Park extracts from Williams' poem 
would surely help tell the story of the people who made and lived the 
history of the Great Falls, and would itself be part of that story. It 
offers an interpretation of the role of Hamilton, and covers the 
history of the area both before and after his important actions. The 
poem would contribute a good deal to the broader educational mission of 
a Great Falls National Park, a mission that would conceive of the 
cultural heritage of a site as including more than just an important 
historical record.
    This cultural heritage includes, along with Williams' famous epic 
poem, Washington Irving's ``On Passaic Falls'' (1806), the 150 page 
poem on the Passaic by Thomas Ward (1842), the 18th Century engravings 
by Paul Sandby, the many later paintings of the Falls across two 
centuries, and more recently the poetry of Allen Ginsberg. It also 
includes the many eighteenth and nineteenth century tourist accounts of 
the Falls, themselves an important part of the national and 
international story this unique site has to tell.
    Thank you for your time and consideration.

                                    

      

</pre></body></html>
